APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A On Petition for Rehearing in the
United States Court of Appeals for the
Fifth Circuit
(June 12, 2020) . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court Southern District of Texas
Houston Division
(March 29, 2018) . . . . . . . . . . . . . App. 38
Appendix C Order in the United States District
Court Southern District of Texas
Houston Division
(March 29, 2018) . . . . . . . . . . . . . App. 63
Appendix D Order in the United States District
Court Southern District of Texas
Houston Division
(September 22, 2017) . . . . . . . . . App. 65
Appendix E Decision of Hearing Officer Before a
Special Education Hearing Officer for
the State of Texas
(October 15, 2018) . . . . . . . . . . . . App. 68
Appendix F On Petition for Rehearing En Banc in
the United States Court of Appeals for
the Fifth Circuit
(July 30, 2020) . . . . . . . . . . . . . App. 266
Appendix G Opinion in the United States Court of
Appeals for the Fifth Circuit
(September 16, 2019) . . . . . . . . App. 269

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-20274
[Filed: June 12, 2020]
__________________________________________
SPRING BRANCH INDEPENDENT
)
SCHOOL DISTRICT
)
)
Plaintiff - Appellant
)
)
v.
)
)
O.W., by next friend Hannah W.,
)
)
Defendant - Appellee
)
__________________________________________)
*********************************************
__________________________________________
HANNAH W., as Parent/Guardians/
)
Next Friends of O.W., an Individual
)
with a Disability; DANIEL W., as
)
Parents/Guardians/Next Friends of
)
O.W., an Individual with a Disability; O.W., )
)
Plaintiffs - Appellees
)
)
v.
)
)

App. 2
SPRING BRANCH INDEPENDENT
SCHOOL DISTRICT,

)
)
)
Defendant - Appellant
)
__________________________________________)
Appeal from the United States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING

Before HIGGINSON and WILLETT, Circuit Judges,
and BROWN, District Judge.*
DEBRA M. BROWN, District Judge:
Upon panel rehearing, we withdraw our prior
opinion, Spring Branch Indep. Sch. Dist. v. O.W., 938
F.3d 695 (5th Cir. 2019), and substitute the following:
After years of private schooling, O.W., a minor,
enrolled in the fifth grade in the Spring Branch
Independent School District for the 2014–2015
academic year. From his first day of school, O.W.
struggled behaviorally and, despite having a history of
mental illness, was not referred for a special education
evaluation until January of 2015. Following transfers
to two different programs, O.W.’s behavioral problems
continued. Ultimately, O.W. was withdrawn from
school with three days remaining in the academic year.
An administrative hearing officer found the School
District violated the Individuals with Disabilities
Education Act and awarded O.W. two years of private
*

District Judge of the Northern District of Mississippi, sitting by
designation

App. 3
school tuition. The district court affirmed the award
and the School District appealed. We AFFIRM in part,
REVERSE in part, and REMAND.
I. FACTUAL AND PROCEDURAL
BACKGROUND
The factual and procedural record in this case is
extensive but largely undisputed.1
A. O.W.’s Early Education
During the summer of 2009, Hannah W. and Daniel
W. registered O.W., their minor son, for kindergarten
at Nottingham Elementary in the Spring Branch
Independent School District. Although O.W. possessed
a well-above average intelligence,2 he experienced
various behavioral problems at Nottingham, including
aggression towards other children.
After O.W. completed his kindergarten year, his
parents enrolled him at Rainard, a private school. O.W.
attended Rainard as a first grader (the 2010–2011
academic year) and a second grader (the 2011–2012
academic year). Following a self-harm attempt during
his second grade year, O.W.’s parents moved him to
The New School in the Heights, a private school for

1

The amicus brief of Disability Rights Texas cites evidence outside
the appellate record to establish that “[s]chool districts throughout
Texas have intentionally disregarded their Child Find duties.” This
Court ordinarily does not consider evidence outside the record on
appeal, McIntosh v. Partridge, 540 F.3d 315, 327 (5th Cir. 2008),
and will not do so here.
2

O.W.’s IQ was most recently measured in the “superior” range.

App. 4
children with social-emotional challenges. O.W.
attended The New School for third grade (the
2012–2013 academic year) and fourth grade (the
2013–2014 academic year). O.W. exhibited behavioral
problems at The New School but finished the fourth
grade with passing scores.
B. Return to Nottingham
In the summer of 2014, O.W.’s parents registered
O.W. for the fifth grade (the 2014–2015 academic year)
at Nottingham. Before the start of the term, Ms. W.
provided Nottingham officials with an August 7, 2014,
letter from Dr. Robbi Wright, who had served as O.W.’s
psychiatrist since the end of 2012. The letter stated
that O.W. suffered from attention deficit hyperactivity
disorder and would thus benefit from § 5043
accommodations. Ms. W. also spoke with O.W.’s
teacher “to provide a little background” about O.W.
On the first day of school, teachers discovered
violent images of murder and death drawn by O.W,
which also included anti-Semitic language and
imagery, as well as obscenities. That day, Ms. W.
conferenced with Nottingham’s principal regarding the
images.
3

Section 504 of the Rehabilitation Act, 29 U.S.C. § 794(a), “broadly
prohibit[s] discrimination against disabled persons in federally
assisted programs or activities.” D.A. ex rel. Latasha A. v. Hous.
Indep. Sch. Dist., 629 F.3d 450, 453 (5th Cir. 2010). The provision
differs from the IDEA in that the “IDEA guarantees individually
tailored educational services for children with disabilities, while
Title II [of the Americans with Disabilities Act] and § 504 promise
non-discriminatory access to public institutions.” Fry v. Napoleon
Cmty. Schs., 137 S. Ct. 743, 756 (2017)

App. 5
The next day, O.W. held up his middle finger, used
obscenities, and refused to follow directions. When
administrators came to the classroom to assist the
teacher, O.W., who was sitting on a bookshelf and
refusing to come down, hurled insults laced with
pejorative, vulgar, and racist terms. He then moved on
from hurling words to hurling objects, throwing writing
utensils at the assistant principal.
Over the next few days, Ms. W. spoke often with
Nottingham’s principal and assistant principal, during
which she informed them that O.W. transferred from a
therapeutic school, that he had difficulty with
transitions, and that he suffered from Oppositional
Defiant Disorder, Mood Disorder, Anxiety, and
Depression.
Ms. W. also provided the school with contact
information for Dr. Powell-Williams, a counselor from
The New School who had provided daily counseling to
O.W. Dr. Powell-Williams spoke with school staff and
offered strategies to manage O.W. Also, district officials
collaborated with O.W.’s parents and worked with O.W.
“to find out what could be used as incentives to get him
to complete his work.” Despite these efforts, O.W.
continued to act out by regularly engaging in acts of
verbal and physical aggression, including using
extreme profanity and throwing objects at the teacher;
refusing to follow directions; leaving assigned areas,
including the classroom, without permission;
disrupting lessons by pushing keys on the teacher’s
laptop, playing with the ActivBoard, and yelling
profanities from the back of the classroom; sleeping
excessively in class; insulting fellow students; and

App. 6
touching or taking others’ property. By early October of
2014, O.W. was interrupting classes daily.
On September 16, 2014, Nottingham provided Ms.
W. a § 504 “Notice of Rights” and notice of a § 504
eligibility meeting to be held October 1, 2014. At
approximately the same time, Ms. W. signed a “Notice
and Consent for Initial Section 504 Evaluation,”
consenting to an evaluation of O.W. to determine
whether he qualified for § 504 accommodations.
On September 23, 2014, Ms. W. provided a Family
History Form to the School District which included a
history of O.W.’s behavioral problems and a list of his
medications. Ms. W. also provided the School District
with a May 2012 evaluation of O.W. performed by Dr.
Susan Rosin. Dr. Powell-Williams called the principal
and discussed the possibility of a special education
evaluation of O.W. Ultimately, the School District
postponed the October 1 meeting until October 8, 2014,
apparently to allow the School District’s Licensed
Specialist in School Psychology (LSSP) to review Dr.
Rosin’s evaluation.
At the October 8 meeting, the School District
determined that O.W., who was removed from class on
a daily basis due to his disruptive behavior, qualified
for § 504 accommodations. To this end, O.W.’s parents
and administration officials agreed to a behavior
intervention plan (BIP), which appears to have been
put in place.4 The plan utilized “Success Charts” which
4

Ms. W. testified at the administrative hearing that during the
meeting, she requested a special education evaluation for O.W. but
the LSSP in attendance stated the evaluation was unnecessary. An

App. 7
tracked O.W.’s problematic behaviors at thirty-minute
intervals and provided rewards for good behavior.
Notes from the meeting reflect O.W. was “at Level 2
intervention [methods but] may need to go to Tier 3.”
The BIP’s implementation had a minimal impact on
O.W.’s behavior. The frequency of his misconduct
“diminish[ed]” for a short time—O.W. was only
disciplined once from October 8 until November 4 after
being disciplined eight times from August 26 through
October 6. However, O.W. was disciplined three times
in November, including for a “major disru[ption]”
related to him climbing the walls of the gym. In
addition to these documented incidents of discipline,
O.W. twice fell asleep in class during the month of
November. Furthermore, by the end of the semester,
his grades had dropped.
On January 9, 2015, O.W. hit a staff member in the
back with a jacket. Shortly after, O.W. assaulted his
fifth-grade teacher, “kicking her and hitting her with a
closed fist.” The second of these incidents resulted in
the teacher bringing charges against O.W.
On January 15, 2015, the School District convened
a second § 504 meeting. At the meeting, the School
District informed O.W.’s parents that O.W. would be
referred for a special education evaluation and that
during the evaluation O.W. could either remain a
student at Nottingham with a new teacher and a

administration official at the meeting testified she did not recall
the request. Notes from the meeting do not include the request.
However, both the hearing officer and the district court
determined the request was made.

App. 8
personal aide, or enroll at the School District’s
Turnaround Opportunities through Active Learning
(TOTAL) program. O.W.’s parents agreed to enroll
O.W. in TOTAL.
C. Development of IEP
While enrolled in TOTAL, O.W. was assigned a
multidisciplinary team which included an LSSP, an
educational diagnostician, and a speech-language
pathologist. Following a brief delay to consider a
February 2015 private report provided by O.W.’s
parents, the team completed a Full Individual
Evaluation (FIE) on February 24, 2015. Although a
private report provided by O.W.’s parents diagnosed
O.W. with autism,5 the evaluation team rejected the
diagnosis. The team determined O.W. was a “student
with poor emotional and behavioral regulation” who
suffers from an Emotional Disturbance.
On March 11, 2015, an Admission, Review and
Dismissal Committee (ARDC)6 convened to consider the
FIE and develop an IEP for O.W. Based on a

5

Following the October 8, 2014, meeting, O.W.’s parents paid for
a private Independent Educational Evaluation which was
performed in December 2014. The resulting report, which was
produced in February 2015, diagnosed O.W. with Autism Spectrum
Disorder.
6

Under Texas law, each district must establish an ARDC “for each
eligible student with a disability and for each student for whom a
full individual and initial evaluation is conducted . . . .” 19 Tex.
Admin. Code § 89.1050. “The ARD committee is the individualized
education program (IEP) team defined in federal law and
regulations . . . .” Id.

App. 9
Functional Behavior Assessment and consultation with
O.W.’s parents, the ARDC developed a BIP. As
explained by the district court, the BIP:
focused on using positive behavioral approaches.
For physical aggression (e.g., throwing objects,
hitting, kicking, destroying school property),
staff were to help O.W. learn replacement
behaviors (e.g., removing himself to a cooling-off
area, implementing deep breathing, calming
sequences, stop and think). Additionally, staff
were to avoid power struggles and arguments,
and instead offer choices, frequent/movement
breaks, and access to preferred activities. For
verbal aggression (e.g., threats, profanity,
obscene gestures, name calling), staff were to
teach O.W. alterative phrases, avoid power
struggles, allow frequent/movement breaks,
provide access to preferred activities and a
cooling-off area, and provide direct instruction
on ways to verbalize discontent. Again, staff
were to use calm interaction styles and minimize
verbal interactions. For the behavioral problem
of leaving the classroom, staff were to offer a
visual schedule, clear rules, offer choices,
frequent/movement breaks, provide access to
preferred activities or a cooling-off area, and
reinforce desired behaviors. Again, staff were to
use a calm interaction style and redirect O.W.
back to assigned areas, and remind him of his
ability to access the cooling-off area. The IEP
does not state that time-outs or restraints would
be used as a tactic to address any of the above
conduct.

App. 10
The ARDC and O.W.’s parents also agreed to enroll
O.W. in an “adaptive behavior program” located at
Ridgecrest Elementary School. O.W. enrolled at
Ridgecrest on March 23, 2015. While at0 Ridgecrest,
O.W. maintained passing grades in all his classes and
passed all portions of the State of Texas Assessments
of Academic Readiness.
D. Implementation of IEP
At Ridgecrest, when O.W. engaged in inappropriate
conduct (known as “target behavior”), he was provided
a “redirection,” then a warning, then two warnings, and
then directed to a desk (take-desk) in the classroom for
a five minute period (Take 5) or a ten minute period
(Take 10). During these periods, O.W. was given the
opportunity to pursue replacement behavior, such as
drawing. Disciplinary records show O.W. was placed in
a Take 5 or Take 10 on sixteen of his forty days at
Ridgecrest.
In addition to the take-discipline, O.W. was
physically restrained on eight occasions. Each instance
of restraint was preceded by physical aggression by
O.W. and attempts at de-escalation by Ridgecrest staff.
On at least four occasions, Ridgecrest summoned police
as a result of O.W.’s behavior. However, because O.W.
often calmed down before the police arrived, it appears
the police spoke with O.W. only once.
On May 5, 2015, police were summoned to O.W.’s
classroom after teachers attempted de-escalation
(providing choices of alternative activities, verbal
redirection, calming techniques, and reduced verbal
interaction); O.W. repeatedly struck his teacher with a

App. 11
closed fist and then charged at her; and the teachers
restrained O.W. Upon entering the classroom, the
officer “stated to [O.W.] who was in charge, and [then]
asked if he wanted to go to jail.” The officer also asked
if O.W. “remembered why he was in a cop car last
time.” After the interaction with police, O.W. “picked
his ears until they were bloody and oozing,” “chewed
his shirt,” and was unable to sleep or shower by
himself.
The day after the police intervention occurred,
Ridgecrest faculty and Ms. W., without consultation
with O.W.’s ARDC, agreed in writing that O.W.’s school
day should begin at 9 a.m. instead of the normal 7:30
a.m. On May 18, 2015, school officials and Ms. W.
agreed that O.W.’s school day should be shortened to
three hours, from 9 a.m. until noon. The e-mail
memorializing this agreement states, “this means a
brief ARD [but] that he will begin the schedule
tomorrow.” Ultimately, at the suggestion of Dr. PowellWilliams, O.W. left Ridgecrest with three days left in
the school year.
E. Fusion Academy and Administrative
Proceedings
The following summer, O.W.’s parents enrolled him
for tutoring at Fusion Academy, a private institution.
Because O.W.’s parents and teachers noticed an
improvement in O.W.’s behavior and performance,
O.W.’s parents elected to enroll O.W. at Fusion for the
2015–2016 academic year. On August 14, 2015, less
than ten days before the beginning of the School
District’s school year, O.W.’s parents informed the
School District that O.W. would not be re-enrolling.

App. 12
O.W. attended Fusion for the 2015–2016 academic
year. However, on February 16, 2017, O.W. set fire to
a school trash can. Due to this incident O.W. was
removed from school and O.W.’s parents were informed
he would not be allowed to return until he received
“intervention.” Following his removal, the W.’s enrolled
O.W. at Little Keswick, a residential school in Virginia.
O.W.’s parents filed an administrative complaint
against the School District on October 28, 2015. The
complaint sought reimbursement for private school
tuition, private placement, and other equitable relief.
On February 23, 2016, O.W.’s parents filed an amended
administrative complaint.7 The parties appeared for an
administrative hearing on May 24, 2016.
On August 5, 2016, the hearing officer issued a
decision in O.W.’s favor on four issues, finding that
(1) the School District violated its child find obligation
because it did not timely refer O.W. for a special
education evaluation; (2) the School District failed to
provide O.W. a free appropriate public education
(FAPE) for the 2014–2015 academic year because it did
not timely fulfill its child find duties, because it
violated his IEP by placing him in school for only three
hours a day, and because O.W., who was gifted and
talented, was failing math; (3) the reduction of hours in
May 2015 deprived O.W. of a commensurate school day;
and (4) the School District failed to implement O.W.’s

7

The amendment added three allegations not contained in the
original complaint related to alleged failures to convene ARDC
meetings, and a failure to provide a FAPE for the 2014–2015
academic year and beyond.

App. 13
IEP because it used restraints, time-outs, and police
intervention, and reduced O.W.’s school hours.
Based on these findings, the hearing officer
determined that O.W. was entitled to reimbursement
from the School District for $50,250 in tuition and
tutoring for O.W.’s enrollment at Fusion for the
2015–2016 academic year, and that O.W. was entitled
to a compensatory education award of tuition for
Fusion for the 2016–2017 school year.
F. District Court Proceedings
On August 30, 2016, the School District appealed
the administrative decision to the United States
District Court for the Southern District of Texas. The
administrative appeal was consolidated with a separate
fee petition filed by O.W.’s parents which seeks
attorney’s fees for the underlying administrative
action.
The parties filed cross motions for summary
judgment on the hearing officer’s decision.
Additionally, the W.’s sought an order that the School
District pay $125,000 for O.W.’s tuition at Little
Keswick as a “stay put”8 remedy. The district court
denied the request for “stay put” relief, finding that a
“newly articulated program proposed by” the School
District which would provide O.W. one-on-one

8

The IDEA’s “stay put” provision provides that “during the
pendency of any proceedings conducted pursuant to this section,
unless the State or local educational agency and the parents
otherwise agree, the child shall remain in the then-current
educational placement of the child . . . .” 20 U.S.C. § 1415(j).

App. 14
instruction “is the appropriate stay-put placement
during the pendency of this appeal given O.W.[‘s]
inability to continue attending Fusion Academy.”
On March 29, 2018, the district court granted the
W.’s summary judgment motion, affirmed the hearing
officer’s decision, and denied the School District’s
motion for summary judgment. This appeal followed.
During the pendency of the appeal, two amicus briefs
were filed—one by the Council of Parent Attorneys and
one by Disability Rights Texas. Both briefs support the
district court’s decision.
II. STANDARD OF REVIEW
“[F]or appeals in IDEA actions, [the] standard of
review for . . . summary judgments is obviously more
expansive than the usual de novo review for summary
judgments . . . prescribed by Federal Rule of Civil
Procedure 56(a).” E.R. ex rel. E.R. v. Spring Branch
Indep. Sch. Dist., 909 F.3d 754, 762 (5th Cir. 2018). We
“review[] legal questions de novo and factual questions
for clear error.” Dallas Indep. Sch. Dist. v. Woody, 865
F.3d 303, 309 (5th Cir. 2017). “Mixed questions should
be reviewed under the clearly erroneous standard if
factual questions predominate, and de novo if the legal
questions predominate.” Seth B. ex rel. Donald B. v.
Orleans Par. Sch. Bd., 810 F.3d 961, 967 (5th Cir.
2016) (quoting Beech v. Hercules Drilling Co., 691 F.3d
566, 569 (5th Cir. 2012)).
Of relevance here, determinations of whether a
school district failed to provide a FAPE or failed to
comply with its child find duty in a timely manner are
mixed questions which we review de novo. Krawietz ex

App. 15
rel. Parker v. Galveston Indep. Sch. Dist., 900 F.3d 673,
676 (5th Cir. 2018) (child find decision reviewed de
novo); Woody, 865 F.3d at 309 (FAPE decision reviewed
de novo). The underlying factual determinations are
reviewed for clear error. Krawietz, 900 F.3d at 676;
Woody, 865 F.3d at 309.
III. DISCUSSION
On appeal, the School District challenges the
district court’s conclusions that (1) the School District
breached its child find duty with regard to O.W.; (2) the
School District failed to fully implement O.W.’s IEP;
and (3) two years of private placement tuition was an
appropriate remedy for O.W.
A. Child Find
Pursuant to the IDEA’s child find requirement, a
state receiving federal funds must maintain policies
and procedures to ensure, among other things, that
“[a]ll children with disabilities . . . who are in need of
special education and related services, are identified,
located, and evaluated . . . .” 20 U.S.C. § 1412(a)(3).
While the statute’s implementing regulations define
“how quickly a school district must act after consent for
an evaluation is received, . . . neither the statute nor
regulations seek to set a time between notice of a
qualifying disability and referring the student for an
evaluation . . . .” Woody, 865 F.3d at 319. This Court,
however, has inferred a “reasonable-time standard”
into the provision. Id. at 320. Thus, a school district
must “identify, locate, and evaluate students with
suspected disabilities within a reasonable time after
the school district is on notice of facts or behavior likely

App. 16
to indicate a disability.” Krawietz, 900 F.3d at 676
(internal quotation marks and citation omitted).
Here, the hearing officer found the School District
violated its child find duty when it “waited until
January 2015 to refer [O.W.] to special education”
despite the fact that it should have suspected O.W.
suffered from a disability “[b]y the October 28, 2014
accrual date for this proceeding . . . .” The district court
upheld the hearing officer’s decision based on a finding
that the School District’s time to evaluate began to run
on October 8, 2014. Citing 34 C.F.R. § 300.534, the
district court further held that “given O.W.’s constant
violation of the student code of conduct due to his
special needs, SBISD was charged with expediting the
evaluation process.” Ultimately, the district court
determined the delay between October 8, 2014 (the
date of the alleged notice) and January 15, 2015 (the
date of the referral for evaluation) was unreasonable.
The School District argues the district court
improperly relied on § 300.534 to find the need for an
expedited review process and, in the absence of such a
need, there was no child find violation.
1. Was an expedited evaluation required?
20 U.S.C. § 1415(k)(5) provides protections for “[a]
child who has not been determined to be eligible for
special education and related services . . . and who has
engaged in behavior that violate[s] a code of student
conduct . . . .” Generally, these protections apply if the
educational institution “had knowledge . . . that the
child was a child with a disability before the behavior
that precipitated the disciplinary action occurred.” Id.

App. 17
However, in the absence of knowledge, the statute
provides:
If a request is made for an evaluation of a child
during the time period in which the child is
subjected to disciplinary measures under this
subsection, the evaluation shall be conducted in
an expedited manner. If the child is determined
to be a child with a disability, taking into
consideration information from the evaluation
conducted by the agency and information
provided by the parents, the agency shall
provide special education and related services in
accordance with this subchapter, except that,
pending the results of the evaluation, the child
shall remain in the educational placement
determined by school authorities.
20 U.S.C. § 1415(k)(5)(D)(ii).
34 C.F.R. § 300.534, the implementing regulation
for § 1415(k)(5), contains virtually identical language
but clarifies that an expedited evaluation is required
when “a request is made for an evaluation of a child
during the time period in which the child is subjected
to disciplinary measures under § 300.530 . . . .” 34
C.F.R. § 300.534(d)(2)(i). Section 300.530, in turn,
governs removal of a student from his or her current
placement for more than ten days in a school year.
Neither the child find provisions nor the expedited
evaluation provisions refer to the other. Thus, in the
absence of plain language connecting the provisions, we
“employ can[]ons of statutory construction to discern
the legislature’s intent.” Vielma v. Eureka Co., 218 F.3d

App. 18
458, 464 (5th Cir. 2000). At least four aspects of the
statutes suggest Congress intended that the
requirements exist independently.
First, the absence of any cross reference between
the two provisions suggests independence. Chamber of
Commerce of U.S.A. v. U.S. Dep’t of Labor, 885 F.3d
360, 381 (5th Cir 2018) (“Congress’s use and
withholding of terms within a statute is taken to be
intentional.”).
Second, beyond sharing general references to
evaluations, the statutes and regulations are
drastically different—the child find requirement details
procedures for identifying disabled students while the
expedited evaluation requirement is in a provision
addressing procedures for discipline. Charvat v. NMP,
LLC, 656 F.3d 440, 449 (6th Cir. 2011) (“[T]he two
private-right-of-action provisions contain significant
textual differences, indicating that they are distinct
provisions to be treated independently.”).
Third, the expedited evaluation requirement is in a
subparagraph titled “Limitations,” which is located in
a subsection titled “Conditions that apply if no basis of
knowledge [of disability].” 20 U.S.C. § 1415(k)(5)(D)(ii).
Thus, in context, the expedited evaluation requirement
stands as a “Limitation” on a school district’s ability to
discipline a student in the absence of knowledge of a
disability, not as an element of the separate child find
requirement. See House v. C.I.R., 453 F.2d 982, 987
(5th Cir. 1972) (“[I]t is proper to consult both the
section heading and the section’s content to come up
with the statute’s clear and total meaning.”).

App. 19
Fourth, the expedited evaluation requirement only
triggers when the child is subjected to disciplinary
proceedings, a request for an evaluation has been
made, and the institution lacked knowledge that the
child was a child with a disability before the behavior
that precipitated the discipline.9 34 C.F.R. § 300.534(d).
To hold that the expedited evaluation requirement is
incorporated into the child find reasonableness
requirement would be to hold that a school district with
previous knowledge of a suspended student’s disability
does not violate the child find requirement by failing to
conduct an expedited evaluation, while a school district
without previous knowledge of the disability would
violate the child find requirement by failing to conduct
an expedited evaluation. This absurd result suggests a
finding that the provisions are separate. DunnMcCampbell Royalty Interest, Inc. v. Nat’l Park Serv.,
630 F.3d 431, 439 (5th Cir. 2011) (“[W]e should avoid
any interpretation that would lead to absurd or
unreasonable outcome[s] . . . .”) (quotation marks
omitted).
In sum, the IDEA’s text and structure, including its
implementing regulations, compel a conclusion that the
child find and expedited evaluation requirements are
separate and independent such that a violation of the
latter does not mean a violation of the former. To the
9

See also Letter to Nathan, OSEP (available at
https://sites.ed.gov/idea/files/osepletter- to-nathan-01-29-2019.pdf)
(“While an LEA may choose or find it necessary to expedite
evaluations in these circumstances, under IDEA expedited
evaluations are only required in situations where the LEA is not
deemed to have knowledge that the child may have a
disability . . . .”).

App. 20
extent the district court held otherwise, this was
error.10
2. Did a child find violation occur?
A finding of a child find violation turns on three
inquiries: (1) the date the child find requirement
triggered due to notice of a likely disability; (2) the date
the child find duty was ultimately satisfied; and (3) the
reasonableness of the delay between these two dates.
See Krawietz, 900 F.3d at 676.
The School District does not challenge the district
court’s finding that October 8, 2014, represents the
appropriate notice date and we see no error in that
conclusion. See Krawietz, 900 F.3d at 677 (finding
sufficient notice based on “academic decline,
hospitalization, and incidents of theft”). We also agree
with the parties that the January 15, 2015, referral for
evaluation represents the appropriate end date for the
reasonableness inquiry. See Woody, 865 F.3d at 320
(considering time period between notice and referral for
evaluation). The only dispute then is whether the delay
between October 8, 2014, and January 15, 2015 (99
days, or three months and seven days), was
reasonable.11
10

Because O.W. did not assert an independent claim arising from
a failure to perform an expedited evaluation, we need not reach the
School District’s alternate argument that an expedited evaluation
was not required under the IDEA.
11

Citing Texas’ one-year statute of limitations for IDEA claims, the
School District urges us to look at its actions after October 28,
2014. Because “events preceding [the statute of limitations bar]
may provide evidence of a child-find violation,” we decline to limit

App. 21
This Court has twice considered the reasonableness
of delay in the child find context. In Woody, this Court
considered an 89-day delay between notice and referral
to be reasonable where the local education agency
spent the period “requesting and gathering information
on [the student] in an effort to classify her and
determine its obligations,” and where more than a
month of the period was spent waiting for the parents
of the student to provide specific information. 865 F.3d
at 320. In the end, this Court concluded that the “facts
suggest[ed] reasonableness, with neither the District
nor the parent reacting with urgency or with
unreasonable delay.” Id.
In contrast, in Krawietz, this Court found a fourmonth delay unreasonable where the school district
“failed to take any appreciable steps toward complying
with its Child Find obligation” during the relevant time
period. 900 F.3d at 677. In reaching this conclusion,
this Court rejected the school district’s reliance on the
student’s parents’ failure to act with urgency because
“the IDEA imposes the Child Find obligation upon
school districts, not the parents of disabled students.”
Id. This Court thus distinguished the case from the
facts of Woody, noting that Woody involved a delay
which “was not solely attributable to the district and
[a] district . . . [which] took proactive steps throughout
[the] period to comply with its Child Find obligation.”
Id.

the inquiry in this way. See Mr. P. v. W. Hartford Bd. of Educ., 885
F.3d 735, 750 (2d Cir. 2018) (considering the time frame from the
relevant trigger date, even though it predated the limitations bar).

App. 22
Taken together, Krawietz and Woody stand for the
proposition that the reasonableness of a delay is not
defined by its length but by the steps taken by the
district during the relevant period. A delay is
reasonable when, throughout the period between notice
and referral, a district takes proactive steps to comply
with its child find duty to identify, locate, and evaluate
students with disabilities. Conversely, a time period is
unreasonable when the district fails to take proactive
steps throughout the period or ceases to take such
steps.
The School District argues this case is closer to
Woody than Krawietz because it was entitled to
attempt regular behavioral interventions—a process
known as response to intervention (RTI)—and § 504
accommodations prior to referral, and such steps were
consistent with its child find obligations. We disagree.
In light of the acts and behaviors observed by the
School District in this case, its failure to pursue
evaluation, even while concurrently implementing
intermediate accommodations, can be described as
nothing less than a delay or denial.
We in no way suggest that a school district
necessarily commits a child-find violation if it pursues
RTI or § 504 accommodations before pursuing a special
education evaluation. We instead recognize that
determining whether a child find violation occurred is
a fact-intensive inquiry and highlight that § 504
accommodations are not a substitute for an evaluation
once a school district is “on notice of acts or behavior
likely to indicate a disability.” Krawietz, 900 F.3d at
676. The Child Find obligation is for a “child with a

App. 23
disability” who, by reason of that disability, “needs
special education and related services.” 20 U.S.C.
§ 1401(3)(A).
Though compliance with § 504 does not absolve a
school district of its duty to comply with the IDEA, we
do recognize that there may be cases where
intermediate measures are reasonably implemented
before resorting to evaluation. For instance, in D.K. v.
Abington School District, the Third Circuit noted that
“the measures the School District did take to assist
D.K. in the classroom militate against finding a Child
Find violation.” 696 F.3d 233, 252 (3d Cir. 2012). There,
the behavior demonstrated by D.K.—hyperactivity,
difficulty following instructions, and tantrums—“was
typical of boys his age.” Id. at 251. Accordingly, it was
reasonable for the School District to try intermediate
measures before “jump[ing] to the conclusion that
D.K.’s misbehavior denoted a disability or disorder.” Id.
D.K. stands for the proposition that “schools need not
rush to judgment or immediately evaluate every
student exhibiting below-average capabilities,
especially at a time when young children are
developing at different speeds and acclimating to the
school environment.” Id. at 252.
In this case, by contrast, O.W. was not exhibiting
behaviors “typical of boys his age.” And, unlike D.K.,
who was a “young child[]” in the early years of
elementary school, O.W. was a fifth grader who had
already been moved between schools in an attempt to
respond to his unique educational needs. By the time
the § 504 meeting occurred on October 8, 2014, O.W.
had repeatedly: drawn violent pictures depicting

App. 24
murder, death, and anti-Semitic images; used
incredibly vulgar language and made lewd gestures in
the middle of the classrooms; disrupted class by yelling
obscenities; hurled racial slurs and other derogatory
insults at the principal, teacher, and fellow students;
refused to follow directions or even remain in the
classroom; thrown crayons at the teacher; and engaged
in other forms of misconduct that resulted in him being
removed from the classroom on a daily basis. And
during this time, the School District had attempted to
provide both positive and negative reinforcements,
frequent redirections, and consequences for O.W.’s
behavior. Yet they had no effect. Based on the severity
of O.W.’s behavior, it was not reasonable to try
intermediate measures to determine whether special
education testing was appropriate for O.W., as was the
case for D.K. The School District was more than
reasonably “on notice of acts or behavior likely to
indicate a disability” before implementing § 504
accommodations, and it was, therefore, required to
evaluate O.W.12
In sum, the record in this case reflects that as of the
October 8 notice date, the School District had
attempted to engage with O.W. and his parents for the
purpose of offering positive incentives and that such
attempts had utterly failed to improve O.W.’s behavior.
This failure led the hearing officer to conclude that
“[b]y the October 8, 2014 Section 504 meeting, it was

12

We, of course, do not suggest that the School District’s § 504 plan
was unreasonable. It is only to say that, under the circumstances,
it was not reasonable for the § 504 plan to be a preliminary rather
than concurrent step in pursuing an evaluation.

App. 25
apparent that general education behavioral
interventions were not working . . . .” We agree with
the hearing officer that by October 8, 2014, the School
District should have known that general behavior
interventions were not working and that relying
exclusively on § 504 accommodations, in lieu of
evaluation, would only delay providing O.W. the
assistance he needed. Accordingly, we conclude the
continued use of behavioral interventions was not a
proactive step toward compliance with the School
District’s child find duties and that, therefore, a child
find violation occurred.13
B. FAPE and IEP
“The IDEA requires states and local educational
agencies receiving federal IDEA funds to make a FAPE
available to children with certain disabilities.” Renee
J., as Next Friend of C.J. v. Hous. Indep. Sch. Dist., 913
F.3d 523, 528–29 (5th Cir. 2019) (quotation marks and
alterations omitted). “Schools provide students a FAPE
based on IEPs unique to each child.” Id. at 529. An IEP
is a “written statement prepared at a meeting attended
by a qualified representative of the school district, a
teacher, the child’s parents or guardians, and when
appropriate, the child himself.” Id. (quoting Lance v.
Lewisville Indep. Sch. Dist., 743 F.3d 982, 989 (5th Cir.

13

The School District has suggested that some of the delay may be
attributable to O.W.’s parents’ delay in providing information.
While a proactive step may include waiting for a reasonable time
for a parent to respond to a request for information or approval, see
Woody, 465 F.3d at 320, “the IDEA imposes the Child Find
obligation upon school districts, not the parents of disabled
students.” Krawietz, 900 F.3d at 677.

App. 26
2014)). An IEP must be both adequate in design and
properly implemented. See id. (IEP must be adequate);
Hous. Indep. Sch. Dist. v. Bobby R., 200 F.3d 341, 349
(5th Cir. 2000) (failure to implement IEP may result in
violation of IDEA).
The parties do not dispute the IEP developed by the
School District was adequate in design.14 However, the
hearing officer found, and the district court agreed, the
School District failed to implement O.W.’s IEP because
it used time-outs, physical restraints, and police
involvement as forms of discipline, and because it
improperly shortened O.W.’s school day. The School
District challenges each of these conclusions.
1. Use of discipline
Ordinarily, adequacy of an IEP is determined by
consideration of the four “indicators of whether an IEP
is reasonably calculated to provide a meaningful
educational benefit under the IDEA,” which were set
forth in Cypress-Fairbanks Independent School District
v. Michael F. ex rel. Barry F., 118 F.3d 245, 253 (5th
Cir. 1997). However, when a plaintiff brings a claim
based on a failure to implement an IEP, the first factor
(whether the program is individualized) and second
factor (whether the program is administered in the

14

The district court, in a footnote, noted that the escalating
discipline at Ridgecrest was a result of either a failure to
implement the IEP or an “inappropriate” IEP. However, the
district court’s opinion also noted that neither party was
challenging the adequacy of the IEP itself. Because the opinion
includes no analysis of the relevant factors, it does not appear the
district court intended to hold the IEP was inadequate.

App. 27
least restrictive environment) are generally “not at
issue.” Bobby R., 200 F.3d at 348. Rather, a court must
decide whether a FAPE was denied by considering,
under the third factor, whether there was a
“substantial or significant” failure to implement an
IEP;15 and under the fourth factor, whether “there have
been demonstrable academic and non-academic
benefits from the IEP.” Id. at 349.
a. Take 5 and Take 10
The district court found the use of Take 5 and Take
10 violated the IEP because under Texas law, “[t]he use
of time-outs must be limited on a student’s IEP if they
are to be used,” and because the procedures were timeouts as they “were mandatory isolations for O.W. away
from his regular setting and other students.” The
district court also found the use of the take-discipline
inconsistent with the IEP’s general requirement that
staff use a calm interaction area, redirect O.W., and
remind him of his ability to access a cooling off area.
Texas law provides a “[t]ime-out may only be used
in conjunction with an array of positive behavior
intervention strategies and techniques and must be
included in the student’s IEP and/or BIP if it is utilized
on a recurrent basis to increase or decrease a targeted
behavior.” 19 Tex. Admin. Code § 89.1053(g). Thus, an
IEP or BIP which does not authorize the recurrent use

15

Bobby R. defined the inquiry as whether a district “failed to
implement substantial or significant provisions of the IEP.” 200
F.3d at 349. However, the panel focused the substance of its
inquiry on whether the violation of the IEP (rather than the
provision) was de minimis. Id. at 348.

App. 28
of time-outs effectively prohibits such use. The parties
do not dispute that O.W.’s IEP did not authorize the
use of time-outs,16 or that the take-discipline was
utilized on a recurrent basis to increase or decrease a
targeted behavior. However, the School District
contends the Take 5 and Take 10 disciplines were not
time-outs under Texas law because the desk was in
O.W.’s classroom and was not separated from other
students and because O.W. was given an opportunity to
pursue preferred activities during the discipline.
The code defines a time-out as “a behavior
management technique in which . . . the student is
separated from other students for a limited period in a
setting: (A) that is not locked; and (B) from which the
exit is not physically blocked by furniture, a closed door
held shut from the outside, or another inanimate
object.” Id. § 89.1053(b)(3). While the School District is
correct the desk was in O.W.’s classroom and that O.W.
was allowed to partake in preferred activities, nothing
in the administrative definition of “time out” suggests
the definition is limited to placement in a separate
room or is inapplicable when the student is provided
certain activities. Section 89.1053(b) only requires a
“separat[ion] from other students for a limited period
. . . .” Although the parties cite no specific evidence as
to the location of the desk, references by school

16

The School District does not argue the IEP’s authorization to
“[d]irect [O.W.] to the cool-down area” amounted to an
authorization to use time-outs under Texas law. We deem this
argument forfeited. See United States v. Zuniga, 860 F.3d 276, 284
n.9 (5th Cir. 2017) (“[A]ny issue not raised in an . . . opening brief
is forfeited.”).

App. 29
employees to the procedure as an “isolation” or “timeout,” while not dispositive, support the district court’s
finding that the desk was separated from other
students. Thus, we conclude the district court did not
err in finding the take-disciplines to be timeouts.
Because O.W.’s IEP prohibited time-outs, the recurrent
use of the take-discipline amounted to a substantial or
significant departure from the IEP.
Regarding the fourth factor, the district court found
the failure to implement the IEP “denied O.W. the
educational benefits sought under the IEP, and that
such failure denied O.W. a FAPE.” We agree. It is
undisputed that after the IEP was implemented, O.W.’s
grades dropped17 and his behavior deteriorated to the
point where school officials determined his school day
should be shortened to three hours. This regression
shows neither an educational nor a behavioral benefit.
See generally Hous. Indep. Sch. Dist. v. V.P. ex rel.
Juan P., 582 F.3d 576, 583 (5th Cir. 2009) (“[A]n IEP
must be likely to produce progress, not regression . . . .”)
(emphasis added).
In sum, the use of the take-discipline was a
significant or substantial departure from O.W.’s IEP.
During the time period this departure occurred, O.W.

17

In arguing O.W.’s grades improved under the IEP, the School
District compares O.W.’s scores from the first term (when he
started at Nottingham) to his fourth term (when he was mostly at
Ridgecrest). When compared in this fashion, the School District is
correct that all but one of O.W.’s grades improved. However, when
compared to the third term, which ended approximately two weeks
before O.W. began at Ridgecrest, the grades dropped in most
subjects.

App. 30
regressed both educationally and behaviorally. Under
these circumstances, we conclude the district court did
not err in finding an actionable failure to implement
O.W.’s IEP as to take discipline.
b. Physical restraints
The district court and the hearing officer found the
use of physical restraints violated the IEP’s framework
for behavioral interventions, which required that staff
use a calm style, minimize verbal interactions, avoid
power struggles, and provide access to a cooling off
period. The School District argues it was entitled under
Texas law to use physical restraints and it was not
required to include such use in the IEP.
There is no question the use of physical restraints
is neither positive reinforcement nor consistent with
avoiding confrontations or power struggles. However,
Texas law expressly authorizes a local education
agency (LEA) to use physical restraints in an
“Emergency” situation, which is defined as a “situation
in which a student’s behavior poses a threat of . . .
imminent, serious physical harm to the student or
others; or . . . imminent, serious property destruction.”
19 Tex. Admin. Code § 89.1053(b), (c). Unlike the use of
time-outs, the law contains no provision requiring that
the use of physical restraints be expressly authorized
by a student’s IEP.
O.W.’s IEP listed positive reinforcement and
avoidance of power struggles as two of seven “Specific
strategies/supports to prevent or decrease . . . problem
behavior.” In addition, the IEP listed five
“Strategies/interventions to use when [physical

App. 31
aggression] behavior is occurring:” (1) “Us[ing] a calm
interaction style and minimize[ing] verbal
interactions;” (2) “Remind[ing O.W.] to use taught
coping strategies;” (3) “Direct[ing O.W.] to the cooldown area;” (4) “Provid[ing] more physical space;” and
(5) “Remov[ing] extraneous objects so [O.W.] is not
tempted to throw them.” Nothing in the IEP suggests
the LEA was required to follow every strategy in every
instance. More important, nothing in the listed
strategies suggests the techniques were intended to
apply in the specific situation governed by the
emergency restraint provision—when there is an
imminent threat of serious harm. Therefore, so long as
the School District’s use of physical restraints complied
with state law, the use of restraints did not violate the
IEP.
O.W.’s disciplinary records show that he was
physically restrained eight times and that each
instance of restraint was preceded by violent behavior
by O.W. and attempts by district staff to utilize at least
some of the strategies enumerated in the IEP. In each
instance, the school determined the restraint was
necessary to prevent serious physical harm to O.W. or
to another. O.W. does not dispute the uses of restraints
were necessary to prevent harm and were thus
appropriate under Texas law. Accordingly, the district
court erred in concluding these eight instances of
physical restraints violated O.W.’s IEP.
c. Police intervention
As with the physical restraints, the district court
and the hearing officer determined the request for
police intervention violated the IEP, and thus denied

App. 32
O.W. a FAPE, because calls to police were inconsistent
with the IEP’s expressly authorized strategies of using
a calm interaction style, minimizing verbal
interactions, providing access to a cooling off period,
and avoiding power struggles. We disagree.
As mentioned above, the IEP listed specific
strategies to be used to address O.W.’s aggressive
behavior. These strategies are not necessarily violated
by a mere request for police presence, particularly to
deal with a violent and escalating situation such as a
student repeatedly striking a teacher and charging at
her, as was the case here. O.W. interacted with police
officers on one occasion, and only after school officials
provided him an opportunity to cool down, offered
verbal redirections, provided praise, attempted to
reduce verbal interactions, and applied calming
techniques. Once the officers arrived, the interaction
was limited to a handful of questions which may best
be characterized as implicit threats of arrest if O.W.
continued to assault his teachers. There is no
indication Ridgecrest staff directed or encouraged the
police officers to act in a manner inconsistent with the
IEP. Because the School District took steps to avoid
police interaction and O.W.’s behavior posed a
substantial risk of serious injury to himself and others,
we do not believe the calls to police were inconsistent
with O.W.’s IEP. Accordingly, the single instance of
police involvement did not rise to the level of an
actionable violation.
2. Modification of IEP
Under Texas law, “[s]tudents with disabilities must
have available an instructional day commensurate with

App. 33
that of students without disabilities. The ARD
committee must determine the appropriate
instructional setting and length of day for each
student, and these must be specified in the student’s
IEP.” 19 Tex. Admin. Code § 89.1075(e). Both the
district court and the hearing officer determined that
the shortening of O.W.’s school day violated O.W.’s IEP
(and thus the IDEA) because the shortened school day
was not provided for in O.W.’s IEP. The School District
submits the IEP was modified by Ms. W and school
officials.
“In making changes to a child’s IEP after the annual
IEP Team meeting for a school year, the parent of a
child with a disability and the public agency may agree
not to convene an IEP Team meeting for the purposes
of making those changes, and instead may develop a
written document to amend or modify the child’s
current IEP.” 34 C.F.R. § 300.324(a)(4)(i). Unless the
IEP is modified by agreement in accordance with
paragraph (a)(4), it may be modified only “by the entire
IEP Team at an IEP Team meeting.” Id.
§ 300.324(a)(6).
By its terms, § 300.324(a)(4) provides an agreement
may be modified without a meeting when the parent
and LEA (1) agree as to the modification; (2) agree not
to convene an IEP meeting; and (3) develop a written
document to amend or modify the IEP. While the
district court and hearing officer focused on the general
fact that the IEP was modified to shorten O.W.’s school
day, there were two modifications—the initial
modification from a 7:30 start time to a 9:00 start time,

App. 34
and the subsequent modification to a three-hour school
day.
The initial modification, which included a formal
written document prepared by Ms. W. and the LEA
that set forth the modification and did not contemplate
further IEP team action, satisfies § 300.324(a)(4)’s
three requirements. However, the subsequent
modification, which did not include a formal written
document produced by the parent and the LEA, and
which internal documents reflect presupposed a
subsequent ARD meeting,18 did not meet the
regulation’s requirements. It follows, therefore, that
only the initial modification was effective and that the
subsequent shortening of O.W.’s school day violated the
IEP. This modification, which approximately halved
O.W.’s school day, was a substantial and significant
deviation from the IEP which indisputably resulted in
a loss of academic benefits. Thus, the district court
erred in finding the May 6, 2015, modification
represented an actionable failure to implement O.W.’s

18

The only written document cited by the School District is an
internal e-mail between staff members stating that Ms. W. had
agreed to the reduction, which reads:
Kristin and I had a long conversation with the 5th grader’s
mother. In order to “survive” the last 11 days of school,
let’s shorten his day from 9 to noon. Ana, this means a
brief ARD; know that he will begin this schedule
tomorrow. She said she could stay after she drops him off.
We will hold an ARD at SFMS before school starts to get
him back full day; just FYI. Let us know how you want to
handle the brief ARD as in who needs to be there, etc. I
will be out to speak to the teacher and para [sic] about
some ideas. She said today went well . . . .

App. 35
IEP. The district court, however, correctly concluded
the May 18, 2015, modification rose to the level of an
actionable violation.
IV. REMEDIES
The “IDEA authorizes reimbursement for the cost of
private special-education services when a school
district fails to provide a FAPE and the private-school
placement is appropriate, regardless of whether the
child previously received special education or related
services through the public school.” Woody, 865 F.3d at
314–15. If these requirements are satisfied, the court
“must consider all relevant factors, including the notice
provided by the parents and the school district’s
opportunities for evaluating the child, in determining
whether reimbursement for some or all of the cost of
the child’s private education is warranted.” Id. at 315.
However, to the extent this form of reimbursement is
dependent on the failure to provide a FAPE, it may not
extend to periods when no FAPE violation occurred.
See generally id. at 318 (“[N]o case shown to us has
permitted reimbursement for the time period before a
school district’s obligations under the Act arose.”). Put
differently, “the right to private school reimbursement,
once adjudicated, does not go on indefinitely, but only
while the school district is noncompliant (or
acknowledges its inability to comply) with its obligation
to provide a ‘free appropriate public education.’” Casey
K. ex rel. Norman K. v. St. Anne Cmty. High Sch. Dist.
No. 302, 400 F.3d 508, 516 n.1 (7th Cir. 2005).
In contrast, compensatory awards, which may
include tuition reimbursement, are designed to provide
“services prospectively to compensate for a past

App. 36
deficient program.” Draper v. Atlanta Indep. Sch. Sys.,
518 F.3d 1275, 1280 (11th Cir. 2008). Such awards
“should place children in the position they would have
been in but for the violation of the Act.” Id. at 1289
(citing Reid ex rel Reid v. District of Columbia, 401
F.3d 516, 518 (D.C. Cir. 2005)).
The hearing officer awarded the cost of one year of
compensatory education for the 2016–2017 school year
at Fusion because “[i]n the 2014-2015 school year, the
School District did not timely fulfill its Child Find
Obligation and did not fully implement Student’s IEP,
denying Student a FAPE.” The officer also found the
School District should reimburse O.W. for the
2015–2016 school year at Fusion because placement in
the School District was inappropriate and placement at
Fusion was appropriate. The district court affirmed
these decisions.
To the extent the hearing officer and district court
awarded tuition reimbursement for a time period for
which there was no corresponding finding of an IDEA
violation (the 2015–2016 school year), such an award
appears to have been in error. Regardless, because we
have determined some of the district court’s underlying
conclusions were incorrect, we remand the remedy
question to the district court for reconsideration in
light of this opinion.19 See M.M. v. Lafayette Sch. Dist.,
19

We note that “[a]n unreasonable delay in complying with [the
Child Find] duty may constitute a procedural violation of the
IDEA.” Krawietz, 900 F.3d at 676 (internal quotation marks and
citation omitted). “In matters alleging a procedural violation, a
hearing officer may find that a child did not receive a free public
education only if the procedural inadequacies—(I) impeded the

App. 37
767 F.3d 842, 862 (9th Cir. 2014) (remanding for
reconsideration of remedies following reversal of
summary judgment finding).
For the reasons above, we AFFIRM in part,
REVERSE in part, and REMAND.

child’s right to a free appropriate public education;
(II) significantly impeded the parents’ opportunity to participate
in the decisionmaking process regarding the provision of a free
public education to the parents’ child; or (III) caused a deprivation
of education benefits.” 20 U.S.C. § 1415(f)(3)(E)(ii).

App. 38

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:16-CV-2643
[Filed: March 29, 2018]
_______________________________________
SPRING BRANCH INDEPENDENT
)
SCHOOL DISTRICT,
)
)
Plaintiff,
)
)
vs.
)
)
O. W.,
)
)
Defendant.
)
_______________________________________)
ORDER
Before the Court is Plaintiff Spring Branch
Independent School District’s (“SBISD”) Motion for
Summary Judgment (Doc. #42), Defendant O.W.’s
Response (Doc. #47), and Plaintiffs’ Reply (Doc. #51).
Additionally, the Court requested additional briefing in
regard to the appropriate remedy under various
scenarios–both of these briefs were also considered by
the Court (Docs. #87, 88). Having considered counsels’
arguments and the applicable law, the Court denies

App. 39
Plaintiffs Motion for Summary Judgment, and finds
that the hearing officer’s decision was appropriate as to
all matters relevant to this Order.
I.

Background
a. The Hearing Officer’s Decision

This case stems from a dispute between a student
and a school district over a Texas Education Agency
(“TEA”) Due Process Hearing Decision (“Decision”).
O.W.’s parents requested the hearing to determine if
SBISD failed to provide O.W. with a free appropriate
public education (“FAPE”) from 2014 to 2016 as
required by the Individuals with Disabilities Education
Act (“IDEA”). O.W., a disabled child, did not receive
special education services at SBISD from August 26,
2014, until March 23, 2015, though he was emolled at
SBISD and later found to require such services. When
special education services were finally given to O.W.,
SBISD used timeouts, physical restraints, and police
intervention to control O.W.’s behavior. After the use of
these tactics to control O.W. and based on the believed
regression of O.W. since emolling in SBISD, O.W.’s
parents chose to parentally place O.W. at a private
school called Fusion Academy (“Fusion”).
The TEA Due Process Hearing occuned May 24-26,
2016. The Decision issued on August 3, 2016. Based on
the facts laid out below, the Decision found that SBISD
violated its IDEA ChildFind duty because it should
have refened O.W. to special education on or about
October 8, 2014, the date of the first Section 504

App. 40
meeting.1 AR, 77-78. Additionally, the hearing officer
found the Individualized Education Program (“IEP”)
developed at the March 2015 Admission, Review, and
Dismissal Committee (“ARDC”) meeting appropriate
overall. However, the Decision found that the IEP was
not properly implemented.2 AR at 106. Specifically, the
hearing officer found the school’s decision to use
timeouts, physical restraints, and police intervention to
control O.W. was not consistent with O.W.’s IEP. AR,
89-90. Lastly, the hearing officer determined that the
failure to hold an ARDC meeting to document the
agreement between the parents and the school to
shorten the O.W.’s school day for the last twenty days
of school was a procedural violation of the IDEA. Id. As
relief for the ChildFind violation and SBISD’s failure to
appropriately implement O.W.’s IEP, the hearing
officer ordered SBISD to reimburse O.W.’s 2016-2017
tuition at Fusion Academy. AR, 98-99. The hearing
officer further ordered SBISD to reimburse O.W. for
1

Section 504 of the Rehabilitation Act prohibits discrimination
against students with disabilities in programs receiving federal
financial assistance. The Section 504 regulations applicable to
educational programs generally require school districts to provide
a FAPE to eligible students. 34 C.F.R. § 104.1 et seq. However,
students with qualifying disabilities under Section 504 are not
entitled to the more detailed protection of the IDEA unless they
also meet the IDEA’s stricter eligibility criteria.
2

Plaintiffs Motion mentions an alleged ruling by the hearing
officer that the IEP was also not appropriate because it was not
individualized given O.W.’s extreme intellect. The Court does not
find that such a ruling was a basis for the hearing officer’s decision
or the remedies awarded. Further, such a ruling would not change
the analysis within this opinion or the remedies awarded. As such,
the Court will not address this issue further.

App. 41
the cost of instruction at Fusion for the 2015-2016
school year due to SBISD’s failure to make a FAPE
available to O.W. in a timely manner prior to the
private enrollment of O.W. in Fusion by his parents. Id.
The hearing officer also found that O.W.’s placement at
Fusion was appropriate under the circumstances. Id.
SBISD then brought suit asserting that the hearing
officer’s decision was inappropriate. SBISD’s Motion for
Summary Judgment requires the Court to decide the
following issues based on the administrative record:
1) whether the Decision correctly determined that
SBISD violated its ChildFind duty; 2) whether the
Decision correctly determined that SBISD failed to
properly implement O.W.’s IEP; and, if so, 3) whether
the remedies awarded by the Decision were
appropriate.
b. Factual Background
In the fall of 2014, after four years of private
schooling, O.W.’s parents enrolled him at Nottingham
Elementary in SBISD for fifth grade. AR at 791. O.W.’s
parents were not aware at this time that O.W. was
eligible for special education services, and as such, they
did not inform SBISD that O.W. was a child in need of
special education. AR at 2868. However, they did
provide a letter from a psychiatrist, Dr. Wright,
documenting an Attention Deficit Hyperactivity
Disorder (“ADHD”) diagnosis and a recommendation
for Section 504 accommodations. AR at 1866 & 2897.
Additionally, Ms. W. had significant discussions with
the Nottingham principals during the first two days of
school. Specifically, Ms. W. told them that O.W. had
transferred from The New School, a therapeutic school,

App. 42
and that he had difficulty with transitions and
struggled with Oppositional Defiant Disorder, mood
disorder, anxiety, and depression. AR, 2870-2872.
Upon his enrollment in SBISD, O.W. immediately
began exhibiting behavioral problems necessitating the
intervention of the Nottingham Principal, Mr. Moore.
See AR. For example, on the second day of school, O.W.
was holding up his middle finger, cursing, and refusing
to follow directions. AR at 1857. Upon being confronted
by the principal, O.W. responded with racial slurs. Id.
In response to this and other incidents, Principal Moore
met with Ms. W. and requested a “release of
confidential record” to allow SBISD to request
information from O.W.’s former school. AR at 1857 &
2097. The parents quickly agreed to release the
records. AR, 1863-64. Additionally, Ms. W. made O.W.’s
longtime counselor Dr. Powell-Williams available to
talk with school staff. AR at 2898. On September 8,
2014, O.W. received a second referral to the principal’s
office after leaving class without permission, cursing,
making racial slurs, creating violent drawings, and
yelling obscenities. AR at 1857. Three days later, O.W.
received a third office refenal for disrupting class by
pushing keys on the teacher’s laptop and leaving the
classroom without permission. AR, 1856-57.
On September 16, 2014, Nottingham provided Ms.
W. with a Section 504 “Notice of Rights.” AR at 1849.
As a result, Ms. W. signed a “Notice and Consent for
Initial Section 504 Evaluation” to permit an evaluation
to determine whether O.W. qualified for Section 504
accommodations. AR at 1843. On September 19, 2014,
O.W. received his fourth and fifth office referrals. AR at

App. 43
1856. After five referrals to the principal’s office within
a month, Nottingham finally sent the family notice that
a Section 504 meeting would convene on October 1,
2014 to consider O.W.’s eligibility under Section 504.
AR at 1842 & 2083. Before the October 1, 2014
meeting, Ms. W. provided a 2012 report from Dr. Rosin
characterizing O.W. as gifted with various disabilities.
AR at 1708. SBISD claims the October 1, 2014 meeting
was delayed to October 8, 2014, to allow SBISD time to
review Dr. Rosin’s report. During the time leading up
to this meeting, SBISD claims it was implementing
regular education interventions. AR at 2100.
Additionally, before the scheduled meeting, Dr. PowellWilliams was concerned O.W. was beginning to regress
and spoke with Principal Moore to ask if SBISD was
going to do a special education evaluation of O.W. AR
at 1853 & 2185-93.
Hence, by October 1, 2014, SBISD knew of O.W.’s
problems with SBISD’s regular curriculum, had 1) Dr.
Wright’s letter, 2) Dr. Rosin’s evaluation from 2012
(identifying O.W. as gifted with various disabilities),
and 3) received Dr. Powell-Williams’ query about a
special education evaluation. As such, by October 1,
2014, SBISD was on notice of O.W.’s special needs.
Furthermore, O.W. was failing all content classes and
exhibiting behavioral problems daily. AR at 1550 &
1720. Given SBISD’s prior use of regular education
intervals and their lack of success arresting O.W.’s
continued problems, SBISD should have known
referral to special education was necessary. Despite the
foregoing, SBISD still refused Ms. W.’s oral request for
a special education evaluation at the October 8, 2014
meeting. AR, 2415-2416. In response to this refusal,

App. 44
O.W.’s parents paid the Monarch Diagnostic Clinic to
evaluate O.W., which was completed December 2, 2014,
and a written report was produced in February 2015.
AR, 884-915.
Despite refusing Ms. W’s request for a special
education evaluation, SBISD did agree that O.W. was
an eligible student with a disability under Section 504
and recommended accommodations. AR at 1839.
Additionally, a personalized behavioral intervention
plan, titled “[O.W]”s Success Chart,” was developed to
track O.W.’s problematic behaviors every thirty
minutes and to provide daily rewards for good
behavior. AR, 1827-32. Despite the implementation of
this plan, O.W. finished the semester failing four
classes including Language Arts (64), Mathematics
(50), Reading (50), and Social Studies (66). AR at 1720.
Going forward, O.W. continued to have significant
disciplinary problems. Specific incidents are noted on
October 20, November 4, November 10, and November
24 (two incidents) which resulted in two out of school
suspensions (two days for hitting a coach and five days
for hitting his teacher) and various referrals to the
principal’s office. AR, 24-25. By January 13, 2015, O.W.
had five out of school suspensions totaling eight days
and three in-school suspensions totaling three days.
AR, 101-02. O.W. was also required to leave school
early on numerous days. Id.
Finally, on January 15, 2015, SBISD referred O.W.
for a special education evaluation in response to him
allegedly assaulting a teacher. AR at 1834. While the
evaluation was being conducted, SBISD offered O.W. a
spot in the school district’s Turnaround Opportunities

App. 45
through Active Leaming (“TOTAL”) program. AR at
1804 & 1834. The parent’s accepted SBISD’s offer and
O.W. attended TOTAL from January 26, 2015 until
March 11, 2015. Id; AR at 1609. O.W.’s full individual
and initial evaluation (“FIE” or “special education
evaluation”) was completed on February 24, 2015, and
identified O.W. as a student with Emotional
Disturbance and eligible for special education. AR at
1609, 1673 & 2605. An IEP was developed at an ARDC
meeting held on March 11, 2017. AR, 1610-1642. O.W.’s
I EP i nc l u d e d a c a d e m i c a n d b eha v i ora l
accommodations. Id. Specifically, teachers were
supposed to provide encouragement for classroom
participation, positive reinforcement, frequent breaks,
private discussions about behavior, and access to
cooling-off areas. Id. Additionally, teachers were
supposed to use a calm interaction style, minimize
verbal interactions, direct O.W. to the cooling-off area,
provide more physical space, and avoid “power
struggles.” Id. On March 23, 2015, twenty-seven days
after finding O.W. eligible, SBISD offered O.W. special
education and related services through the Adaptive
Behavior Program (“AB Program”) at Ridgecrest
Elementary School. Id.3 After O.W.’s enrollment in AB
Program–and despite O.W.’s IEP stating teachers
should avoid power struggles, provide more physical
space, and access to a cooling-off area–Ridgecrest staff
repeatedly used timeouts, used physical restraints at
least eight times, and automatic isolations sixteen
times. AR at 2754; AR, 52-56 (hearing officer’s
3

As such, from October 1, 2014 until March 23, 2015, SBISD was
aware of O.W.’s suspected disability but did not offer special
education and related services to the child.

App. 46
summary of this evidence). Additionally, campus police
were summoned on at least four occasions to deal with
O.W.’s outbursts, the last occasion being so traumatic
for O.W. that he was placed on shortened school days
for the last twenty days of the school–an alteration
done without ARDC consideration or approval. AR at
56 (hearing officer’s summary of this evidence), 1789,
1795, 2885-86 & 2901-02. With such a traumatic end to
the school year, the parents decided to enroll O.W. at a
private school, Fusion Academy, for the upcoming
2015-2016 school year. It is undisputed that the
parents did not notify SBISD until August 15, 2012,
that O.W. would not be returning to Ridgecrest. AR at
1522. Based on these facts, the Court must determine:
1) whether the Decision correctly determined that
SBISD violated its ChildFind duty; 2) whether the
Decision correctly determined that SBISD failed to
properly implement O.W.’s IEP; and, if so, 3) whether
the remedies awarded by the Decision were
appropriate.
II.

Legal Standard
a. Motion for Summary Judgment and the
IDEA

Under the IDEA, a party aggrieved by an
administrative decision may sue in district court. 20
U.S.C. § 1415(i)(2)(A). The district court shall receive
the administrative record, hear additional evidence at
any party’s request, and decide based on the
preponderance of the evidence. 20 U.S.C.
§ 1415(i)(2)(C). “If no party requests additional
evidence to be heard by the district court, a motion for
summary judgement is simply a procedural device for

App. 47
asking the Court to decide the case on the basis of the
administrative record.” C. G. v. Waller Indep. Sch.
Dist., No. 4:15-CV-00123, 2016 WL 3144161, at *4 (S.D.
Tex. June 6, 2016) (internal quotation marks omitted).
A district court should afford “due weight” to the
hearing officer’s decision. Teague Indep. Sch. Dist. v.
Todd L., 999 F.2d 127, 131 (5th Cir. 1993). However,
the decision is not conclusive. Id. The Court’s review,
therefore, is “virtually de novo.” Id. See also Rockwall
Indep. Sch. Dist. v. MC, 816 F.3d 329, 338 (5th Cir.
2016). Here, the only additional evidence introduced by
the parties was evidence related to O.W.’s stay-put
placement. Such evidence is not relevant to the
decision made herein. Relying on the same evidence
available to the hearing officer, the Court therefore
affords due weight to the hearing officer’s
comprehensive Decision.
b. Burden of Proof
The movant generally bears the burden of proof.
Schaffer ex rel. Schaffer v. Weast, 546 U.S. 49, 56
(2005). However, when a cause of action is statutory,
courts look first to the statute itself. Id. The IDEA’s
plain text is silent on allocating the burden of proof. Id.
In Shaffer, the Supreme Comi held that “[t]he burden
of proof in an administrative hearing challenging an
IEP is properly placed upon the party seeking relief.”
Id. at 62; See also White ex rel. White v. Ascension
Parish Sch. Bd., 343 F.3d 373, 377 (5th Cir. 2003)
(“[T]he IDEA creates a presumption in favor of a school
system’s educational plan, placing the burden of proof
on the party challenging it.”); Cypress-Fairbanks Indep.
Sch. Dist. V. Michael F., 931 F. Supp. 474, 477 (S.D.

App. 48
Tex. 1995) (“The Fifth Circuit has held that there is a
presumption in favor of the educational placement
established by a student’s IEP, and the party attacking
its terms should bear the burden of showing why the
educational setting established by the IEP is not
appropriate.”), aff’d as modified, 118 F.3d 245 (5th Cir.
1997).
Here, the parties dispute whether SBISD’s failure
to create an IEP within an appropriate time frame led
to the denial of O.W.’s right to a FAPE from August
2014 until March 2015, and whether SBISD properly
implemented O.W.’s IEP. As to these issues, the Court
finds that neither party is challenging SBISD’s IEP
itself.4 In the absence of such a challenge, the Court
holds that SBISD bears the burden to show by a
preponderance of the evidence that the Decision was
improper. See Krawietz v. Galveston Indep. Sch. Dist.,
No. 3:15-CV-203, 2017 WL 1177740, at *5 (S.D. Tex.
Mar. 30, 2017).
c. IDEA Statuary Framework
Congress enacted the IDEA to ensure that disabled
children are provided with a FAPE in the least
restrictive environment possible. See Daniel R.R. v.
State Bd. of Educ., 874 F.2d 1036, 1043-44 (5th Cir.
1989). A FAPE “must be available to all children
residing in the State between the ages of 3 and 21 ...”.

4

Though the Court feels the burden of proof rightfully belongs
with SBISD under applicable law, the decisions laid out within
this opinion are appropriate regardless of who holds the burden of
proof. If the burden falls with Defendant, Defendant amply proved
its case.

App. 49
34 C.F.R. § 300.101(a). In Texas, in order to provide a
FAPE to a student with a disability, an ARDC must
tailor the student’s education to his or her handicapped
needs by developing an IEP. Teague Independent
School District v. Todd L., 999 F.2d 127, 128 (5th Cir.
1993); R.P. ex rel. R.P. v. Alamo Heights Independent
School District, 703 F.3d 801, 805 n. 1 (5th Cir. 2012);
20 U.S.C. § 1414(d). The IEP must include a statement
of the special education related services and
accommodations the school will provide to the child.
See 20 U.S.C. § 1414(d)(1)(A). The IDEA guarantees
only a “basic floor of opportunity” for every disabled
child, consisting of “access to specialized instruction
and related services which are individually designed to
provide educational benefit to the handicapped child.”
Board of Educ. v. Rowley, 458 U.S. 176, 201 (1982). The
IDEA mandates annual review of a student’s IEP. 20
U.S.C. § 1414(d)(4)(A)(i); see also 34 C.F.R.
§ 300.324(b)(1)(i). “At the beginning of each school year,
each public agency must have in effect, for each child
with a disability within its jurisdiction, an IEP, as
defined in § 300.320.” 34 C.F.R. § 300.323(a).
A school district may violate the IDEA in two
different ways. “First, a school district, in creating and
implementing the IEP, can run afoul of the [IDEA]’s
procedural requirements.” J.W. ex rel. J.E.W. v. Fresno
Unified School District, 626 F.3d 431, 432 (9th Cir.
2010)(citingRowley, 458 U.S. at 206-07, 102 S.Ct.
3034). “Second, a school district can be liable for a
substantive violation of the IDEA by drafting an IEP
that is not reasonably calculated to enable the child to
receive educational benefits.” Id.; see also Adam J. ex
rel. Robert J. v. Keller Independent School District, 328

App. 50
F.3d 804, 809 (5th Cir. 2003). “Harmless procedural
errors do not constitute a denial of FAPE. However,
procedural inadequacies that result in the loss of
educational opportunity . . . clearly result in the denial
of FAPE.” Doug C. v. Hawaii Department of Education,
720 F.3d 1038, 1043 (9th Cir. 2013) (internal
quotations omitted); see also Adam J. ex rel. Robert J.
328 F.3d at 812.
d. ChildFind
Under the IDEA, states (typically through local
educational agencies) must first “identify, locate, and
evaluate all children with disabilities . . . to ensure that
they receive needed special-education services.” Forest
Grove Sch. Dist. v. T.A., 557 U.S. 230, 245 (2009). This
duty is known as ChildFind. Id. The state’s ChildFind
duty is only raised if the state had reason to suspect
that: 1) a student was disabled and 2) the student may
currently require special education services. See Alvin
Indep. Sch. Dist. v. A.D. ex rel. Patricia F., 503 F.3d
378, 382 (5th Cir. 2007). If the local educational agency
had reason to suspect both a disability and the need for
special education services, the court then must
determine whether the local educational agency
evaluated the student within a reasonable time after
becoming aware of behavior that likely indicated a
disability. C.P. v. Krum Indep. Sch. Dist., 4:13-cv-63,
2014 WL 4651534, at *10 (E.D. Tex. Sept. 17, 2014)
(unpublished); Dallas Indep. Sch. Dist. v. Woody, 865
F.3d 303, 320 (5th Cir. 2017) (“Woody II”) (stating that
the reasonable-time standard is appropriate). A school
district’s failure to comply with the ChildFind provision
constitutes a procedural violation of the IDEA. School

App. 51
Board of the City of Norfolk v. Brown, 769 F.Supp.2d
928, 942–44 (E.D.Va. 2010) (citing Forest Grove School
District, 557 U.S. at 245).
e. Relief under IDEA
Parties may present a complaint under the IDEA
“with respect to any matter relating to the
identification, evaluation, or educational placement of
the child, or the provision of a free appropriate public
education to such child. . . ”. 20 U.S.C. § 1415(b)(6).
Either party presenting a complaint under 20 U.S.C.
§ 1415(b)(6) may request an impartial due process
hearing. 20 U.S.C. § 1415(f)(1)(A). An aggrieved party
may generally bring a civil action. 20 U.S.C.
§ 1415(i)(2)(A).
After receiving the records of the administrative
proceedings and hearing additional evidence at the
request of any party, the court shall grant such relief
as it determines is appropriate, basing its decision on
the preponderance of the evidence. 20 U.S.C.
§ 1415(i)(2)(C). Such relief may include the retroactive
reimbursement of private school tuition. See 20 U.S.C.
§ 1412(a)(10)(C)(ii); 34 C.F.R. § 300.148(c); Sch. Comm.
of Town of Burlington, Mass. v. Dep’t of Educ. of Mass.,
471 U.S. 359, 370, 105 S. Ct. 1996, 2003, 85 L. Ed. 2d
385 (1985); Reg’l School Unit 51 v. Doe, 920 F.Supp.2d
168, 209 (D.Me.2013). The court may, in its discretion,
deny or reduce reimbursement based upon equitable
considerations. See 20 U.S.C. § 1412(a)(10)(C)(iii);
Forest Grove Sch. Dist., 557 U.S. at 246–47, 129 S.Ct.
2484; R.C. ex rel. S.K., D.H v. Keller Indep. School
Dist., 958 F.Supp.2d 718, 737-38 (N.D.Tex. 2013).
Additionally, the court may, in the exercise of the

App. 52
equitable authority granted to it under the IDEA, order
public school authorities to reimburse parents or
guardians of a disabled child for their expenditures on
private schooling when they unilaterally remove the
child from public education and place the child in
private schooling if the parents or guardians establish
that (1) the school district failed to make FAPE
available to the student; and (2) the private school
placement is appropriate. 34 C.F.R. §300.148(c);
Forence Cnty. Sch. Dis. 4 v. Carter, 510 U.S. 7, 16
(1993); Rochvall Indep. Sch. Dist. v. M.C., 816 F.3d
328, 339 (5th Cir. 2010).
III.

Analysis

a. ChildFind
The hearing officer in this case found that SBISD
violated its ChildFind duties because SBISD did not
refer O.W. for a special education evaluation until
January 15, 2015, despite the fact that by October 8,
2014, it was aware of O.W.’s disability and that general
education interventions were not working. The hearing
officer determined that SBISD was in violation of its
ChildFind duties from October 28, 2014 (the accrual
date for this suit) to January 15, 2015.5 SBISD urges
that this finding is inappropriate because the hearing
officer applied the wrong legal standard and, when
considered under the appropriate standard, SBISD’s
referral in January 2015 was timely as a matter of law.
The Court disagrees.

5

Although SBISD was in violation on October 8, 2014, the accrual
date of this suit was not until October 28, 2014.

App. 53
SBISD’s ChildFind duty began when it had reason
to suspect that O.W. 1) had a qualifying disability, and
2) required special education services based on that
disability. See Alvin Indep. Sch. Dist. , 503 F.3d at 382.
By October 8, 2014, SBISD knew of O.W.’s problems
with SBISD’s regular curriculum,6 had Dr. Wright’s
letter stating that O.W. suffered from ADHD, had Dr.
Rosin’s 2012 evaluation identifying O.W. as gifted with
various disabilities, had received Dr. Powell-Williams’
query about a special education evaluation, and had
received a request from Ms. W for a special education
evaluation. SBISD also admits within its Motion (Doc.
#42) that SBISD had conducted regular education
interventions with O.W. prior to this date.
Furthermore, given O.W.’s constant violation of the
student code of conduct due to his special needs, SBISD
was charged with expediting the evaluation process. 34
CFR § 300.354. As such, the question before this Court
is whether a four month delay in referring O.W. for a
special education evaluation was reasonable given the
information known to SBISD at that time. See Woody
II, 865 F.3d at 320 (5th Cir. 2017) (stating that the
reasonable-time standard is appropriate in relation to
referring a student for a special education evaluation
under ChildFind). Under these circumstances, such a
delay was inappropriate. SBISD had actual knowledge
(or at the very least had reason to suspect) that O.W.
needed special education services due to a qualifying
6

As laid out in the facts section, O.W. was constantly facing
disciplinary action for his conduct, had been sent to the principal’s
office five times, and was failing majority of his classes despite his
gifted intellect. These concerns would only escalate during the
remainder of October, November, and December.

App. 54
disability by October 8, 2014, and undue delay in
referring O.W. beyond this point was umeasonable.
SBISD attempts to cite Dallas Independent School
District v. Woody–which held a three month delay in
referring a student for a special education evaluation
reasonable–to suggest that its delay was also
reasonable. 178 F. Supp. 3d 443 (N.D. Tex. April 15,
2016) (“Woody I”); Doc. #42 at 20. However, SBISD
ignores the severe difference between the facts
underlying that decision and the facts underlying this
case. In Woody I, DISD began an evaluation of the
student within three months of a letter from the child’s
lawyer identifying the child as disabled, even though
the student was not attending DISD. Id. Further, as
noted by the Fifth Circuit on appellate review, this
delay was not solely attributable to the District and
was used to request and gather information on the
student in an effort to classify her and determine the
District’s obligations. See Id; Woody II, 865 F.3d at 320
(5th Cir. 2017). Here, as shown above, Plaintiff SBISD
had plenty of information by October 8, 2014, to start
a special education evaluation. Accordingly, under
these facts, a fourth month delay was unreasonable,
and the Court upholds the hearing officer’s finding that
SBISD violated its ChildFind duty.
b. Implementation
Special education and related services must be
provided in conformity with a child’s IEP. 20 U.S.C.
1401(9); Endrew F. ex rel. Joseph F. v. Douglas Cty.
Sch. Dist. RE-1, 137 S. Ct. 988, 994, 197 L. Ed. 2d 335
(2017). The hearing officer found that SBISD failed to
fully implement O.W.’s IEP as written because SBISD’s

App. 55
use of timeouts, physical restraints, and police
involvement was not allowed under the IEP and
contradicted the IEP’s specific instructions to use calm
interaction styles, minimize verbal interactions, direct
O.W. to the cooling-off area, provide more physical
space, and avoid “power struggles.” Additionally, the
hearing officer found that O.W. was denied a
commensurate school day for the last twenty days of
school based on the verbally agreed upon reduction of
class time, which was not recommended within the IEP
and done without ARDC input or approval. The Court
agrees, and finds such failure denied O.W. a FAPE.
Lack of implementation denies a child a FAPE if it
amounted to a substantial failure to provide the IEP
services. HISD v. Bobby R., 200 F. 3d 341, 348-349 (5th
Cir. 2000). A material failure is one that is more than
a minor discrepancy between the services provided and
the services required by an IEP. Van Duyn ex rel Van
Duyn v. Baker School Dist. 5J, 502 F.3d 811 (9th Cir.
2007). The failure to implement those parts of a child’s
IEP designed to assist a child with behavioral issues
can be a material failure. See Neosho R-V Sch. Dist. v.
Clark, 315 F.3d 1022 (8th Cir. 2003). Here, SBISD’s
failure denied O.W. meaningful educational benefits.
Specifically, O.W.’s IEP included a behavior
intervention plan focused on using positive behavioral
approaches. For physical aggression (e.g., throwing
objects, hitting, kicking, destroying school property),
staff were to help O.W. learn replacement behaviors
(e.g., removing himself to a cooling-off area,
implementing deep breathing, calming sequences, stop
and think). AR at 1000. Additionally, staff were to

App. 56
avoid power struggles and arguments, and instead offer
choices, frequent/movement breaks, and access to
preferred activities. Id. For verbal aggression (e.g.,
threats, profanity, obscene gestures, name calling),
staff were to teach O.W. alternative phrases, avoid
power struggles, allow frequent/movement breaks,
provide access to preferred activities and a cooling-off
area, and provide direct instruction on ways to
verbalize discontent. AR at 1002. Again, staff were to
use calm interaction styles and minimize verbal
interactions. Id. For the behavioral problem of leaving
the classroom, staff were to offer a visual schedule,
clear rules, offer choices, frequent/movement breaks,
provide access to preferred activities or a cooling-off
area, and reinforce desired behaviors. AR at 1002-03.
Again, staff were to use a calm interaction style and
redirect O.W. back to assigned areas, and remind him
of his ability to access the cooling-off area. Id. The IEP
does not state that time-outs7 or restraints would be
used as a tactic to address any of the above conduct.
Based on the record, many of these strategies were not
followed by SBISD. Most telling, sixteen of O.W.’s forty
days in the AB Program he was sent to automatic timeout, he was physically restrained at least eight times,

7

The use of time-outs must be listed on a student’s IEP if they are
to be used. See 19 Tex. Admin. Code §89.1053(g). SBISD claims it
did not use time-outs because its “take 5" or “take 10” procedures
were not time-outs. The Court disagrees. These procedures were
mandatory isolations for O.W. away from his regular setting and
other students. As such, these procedures were time-outs, and the
use of “take 5" or “take 10” violated O.W.’s IEP.

App. 57
and police were summoned on at least four occasions.8
Additionally, O.W.’s school day was shortened for the
last twenty days of school, something not contemplated
under the IEP. These actions are undisputedly
inconsistent with O.W.’s IEP. As such, the Comi agrees
with the hearing officer and finds that SBISD failed to
implement O.W.’s IEP. Further, the Court finds that
this failure was substantial and denied O.W. the
educational benefits sought under the IEP, and that
such failure denied O.W. a FAPE.
c. Remedy
The hearing officer awarded O.W. one year of
compensatory education in the form of tuition
reimbursement for SBISD’s violation of its ChildFind
duty and its failure to implement O.W.’s IEP during
the 2014-2015 school year. Additionally, the hearing
officer awarded another year of tuition reimbursement
(in relation to the year the due process hearing
remained pending) based on a finding that (1) SBISD
did not make FAPE available to the student in a timely
manner prior to the private placement; and (2) that
O.W.’s placement at Fusion was appropriate. SBISD

8

SBISD argues that such actions are allowed in emergency
situations. Though the Court does not directly take issue with this
assertion, it does take issue with the assertion that emergency
situations occurred frequently enough to justify such numerous
uses of restraints or police intervention. Either SBISD’s failure to
follow the procedures in O.W.’s IEP were causing escalations and
creating “emergency situations,” thereby denying O.W. a FAPE, or
the procedures in the IEP were inappropriate given SBISD’s
inability to prevent up to twelve emergency situations in forty
days. Either way, SBISD failed to provide O.W. a FAPE.

App. 58
challenges both of these awards. The Court will
address each in turn.
i. Compensatory Education
The relief granted by courts under the IDEA is
primarily compensatory education. Compensatory
education, however, is not defined within the IDEA and
is a judicially created remedy. It is intended as “a
remedy to compensate [the student] for rights the
district already denied . . . because the School District
violated [the] statutory rights while [the student] was
still entitled to them.” Lester H. by Octavia P. v.
Gilhool, 916 F.2d 865, 872 (3d Cir. 1990). The Court of
Appeals for the District of Columbia has stated that
compensatory education serves to “replace educational
services the child should have received in the first
place” and that such awards “should aim to place
disabled children in the same position they would have
occupied but for the school district’s violations of
IDEA.” Reid v. Dist. of Columbia, 401 F.3d 516, 518
(D.C. Cir. 2005). Federal courts began awarding
compensatory education after the Supreme Court
determined in Burlington that tuition reimbursement
was an appropriate remedy under the Education of the
Handicapped Act, 20 U.S.C. §§ 1401-1461 (1983)
(IDEA’s predecessor). 471 U.S. at 370-71, 105 S.Ct.
1996.
As the Court has found the hearing officer’s decision
in relation to SBISD’s violations of the IDEA
appropriate, the next issue before the Court is whether
a whole school year of tuition reimbursement is
appropriate based on these violations. The Court finds
that such an award was appropriate. Based on the

App. 59
accrual date, from October 28, 2014, to January 15,
2015 (seventy-eight days), O.W. was denied a FAPE
based on SBISD’s violation of its ChildFind duties.
However, due to the applicable regulatory guidelines,
the Court finds that from January 15, 2015 to March
11, 2015, SBISD was not in violation of their duties.
See 19 Tex. Admin. Code § 89.1011 (allowing forty-five
days to complete a full individual and initial evaluation
for special education and thirty calendar days from the
date of the completion of this evaluation to convene an
ARDC). Nevertheless, from March 11, 2015 to June 2,
2015 (eighty-four days), O.W. was denied a FAPE
based on SBISD’s failure to properly implement O.W.’s
IEP. In total, O.W. was denied a FAPE for 162 days, or
over five months. This equates to half of the 2014-2015
school year. Compensatory education is a remedy
meant “to place disabled children in the same position
they would have occupied but for the school district’s
violations of IDEA.” Reid, 401 F.3d at 518 (D.C. Cir.
2005). It is well documented within the record that
O.W. not only lost over five months of meaningful
educational benefits, he also regressed educationally,
behaviorally, and emotionally during these five months
due to SBISD’s violations. Accordingly, “to place [O.W.]
in the same position [he] would have occupied but for
the school district’s violations,” equity demands an
award of an entire year of compensatory education. As
such, the hearing officer’s award in this regard is
upheld.9

9

As laid out in section III.c.ii. of this order, the Court also finds
that Fusion Academy is an appropriate placement for O.W., and,
as such, tuition reimbursement as to this placement is appropriate.

App. 60
ii. Award After Placement in Fusion
Private school tuition reimbursement is a remedy
available under the IDEA where a Court finds (1) that
the public agency did not make FAPE available to the
student in a timely manner prior to the private
enrollment, and (2) the private placement was
appropriate. 34 C.F.R. § 300.148(c). It is clear from the
numerous violations of the IDEA laid out within this
Order that SBISD failed to provide O.W. with a FAPE
prior to his enrollment in Fusion. Consequently, the
next issue for the Court is whether Fusion was an
appropriate placement for O.W. The Court agrees with
the hearing officer, and finds that Fusion was an
appropriate placement for O.W. based on the record at
issue in this Motion. The record shows that although
O.W. did not receive special education services at
Fusion, he did receive an academic benefit from one-onone individualized instruction and a nonacademic
benefit from the opportunity to interact with both nondisabled and disabled peers. See 34 C.F.R. § 300.148(c)
(stating that a parental placement may be found to be
appropriate by a hearing officer or a court even if it
does not meet the State standards that apply to
education provided by the State Education Agencies
and Local Education Agencies). The evidence further
shows that the Fusion Academy staff were able to
approach and handle O.W. with the calm interaction
style sought by O.W.’s IEP. The evidence also shows
substantial benefits to O.W. since his enrollment in
Fusion. Resultantly, O.W.’s placement was appropriate
under the circumstances. As SBISD failed to make a
FAPE available to O.W. prior to his enrollment in
Fusion Academy and the Court has deemed the private

App. 61
placement appropriate, the Court likewise finds that
tuition reimbursement for the 2015-2016 school year is
appropriate and upholds the hearing officer’s decision
in this regard.
SBISD argues that if the Court finds parental
placement appropriate, it should deny or reduce its
award because O.W.’s parents did not give written
notice to the school of their intent to place O.W. at
Fusion Academy and their concerns with SBISD’s
program as required by the IDEA. See 34 C.F.R.
§ 300.148(d). However, the regulation states the cost of
reimbursement for a private school placement may be
reduced or denied if written notice was not given and/or
concerns were not expressed. See id. The Comi does not
find such a reduction appropriate under the
circumstances given SBISD’s five month failure to
provide a FAPE. O.W.’s continued regression during
this period should have provided notice to SBISD that
its program was failing O.W. Further, the Court agrees
with the hearing officer’s decision that O.W.’s return to
SBISD would likely result in physical or emotional
harm to the child given SBISD’s repeated
demonstration that they could not handle O.W.’s
educational needs appropriately, and its numerous
uses of physical restraints.
IV.

Conclusion

For the foregoing reasons, Plaintiff’s Motion for
Summary Judgment is DENIED, and the hearing
officer’s decision is upheld as explained in this Order.

App. 62
It is so ORDERED.
3/29/18
Date

/s/ Alfred Bennett
The Honorable Alfred H. Bennett
United States District Judge

App. 63

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:16-CV-2643
[Filed: March 29, 2018]
_______________________________________
SPRING BRANCH INDEPENDENT
)
SCHOOL DISTRICT,
)
)
Plaintiff,
)
)
VS.
)
)
O. W.,
)
)
Defendant.
)
_______________________________________)
ORDER
Before the Court is Defendant’s Motion for
Summary Judgment (Doc. #50). As laid out in this
Court’s March 29, 2018 Order denying Plaintiffs
Motion for Summary Judgment (Doc. #90), the hearing
officer’s decision was appropriate. Accordingly,
insomuch as Defendant’s Motion for Summary
Judgment requests that this Court uphold the hearing
officer’s decision, Defendant’s Motion is GRANTED.
However, in regard to Plaintiffs request for this Court

App. 64
to clarify an issue of law, the Court finds that this issue
is not tied to any relief sought before this Court. As
such, Plaintiffs Motion for Summary Judgment is
DENIED as to this request.
It is so ORDERED.
3/29/18
Date

/s/ Alfred Bennett
The Honorable Alfred H. Bennett
United States District Judge

App. 65

APPENDIX D

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:16-CV-2643
[Filed: September 22, 2017]
_______________________________________
SPRING BRANCH INDEPENDENT
)
SCHOOL DISTRICT,
)
)
Plaintiff,
)
)
VS.
)
)
O. W.,
)
)
Defendant.
)
_______________________________________)
ORDER
Before the Court is Defendant’s Motion for
Maintenance of Placement (Doc. #30). As detailed on
the record at the September 19, 2017 Evidentiary
Hearing on the Motion, Defendant’s Motion is
GRANTED. However, the Court finds that the Little
Keswick School in Virginia (the school Defendant
proposes as a substitute to the placement made by the

App. 66
hearing officer–Fusion Academy) is not a comparable
educational program to Fusion Academy. As such,
O.W.’s placement at the Little Keswick School would be
inappropriate on a request for a “stay-put” order during
the pendency of this appeal.1 Tindell v. EvansvilleVanderburgh Sch. Corp., 2010 WL 557058 (S.D. IN
2010) (holding that “when rigid adherence to the exact
educational program becomes an impossibility, . . .the
school district must provide educational services that
approximate” the former program). Further, the Court
finds that the newly articulated program proposed by
Plaintiff is substantially similar to the educational
program offered to O.W. at Fusion Academy–especially
with the understanding that O.W. will receive one on
one instruction at an off-campus location until O.W.
can transition to a campus within Spring Branch I.S.D.
(“SBISD”) Accordingly, the Court finds that O.W.’s
placement within the SBISD program described on the
record is the appropriate stay-put placement during the
pendency of this appeal given O.W. inability to
continue attending Fusion Academy.
For the reasons detailed on the record at the
September 19, 2017 Evidentiary Hearing and in this
Order, Defendant’s Motion for Maintenance of
Placement is GRANTED in regard to O.W.’s placement
1

If Defendant believes O.W.’s circumstances have changed enough
to justify his placement within a therapeutic boarding school,
Defendant should exhaust the administrative process before
bringing these newly articulated issues to the Court’s attention.
The Court also notes that Defendant has not made a sufficient
showing of irreparable harm if O.W. is ordered to stay-put in a
comparable educational program to Fusion Academy to justify
ignoring the appropriate administrative process.

App. 67
at the articulated education program at SBISD–which
the Court finds is a comparable education program to
Fusion Academy.2
It is so ORDERED.
9/22/2017
Date

2

/s/ Alfred Bennett
The Honorable Alfred H. Bennett
United States District Judge

As the Court held an evidentiary hearing on the request for
Maintenance of Placement, all Motions requesting extra briefing
or an evidentiary hearing on the matter are DENEID as moot
(Docs. #46, 49, 54, 61).

App. 68

APPENDIX E
DECISION
BEFORE A SPECIAL EDUCATION
HEARING OFFICER FOR
THE STATE OF TEXAS
DOCKET NO. 068-SE-1015
[Filed: October 15, 2018]
_______________________________________
OWEN W. B/N/F HANNAH W.,
)
Petitioner
)
)
v.
)
)
SPRING BRANCH INDEPENDENT )
SCHOOL DISTRICT,
)
Respondent
)
_______________________________________)
TABLE OF CONTENTS
I.

DUE PROCESS HEARING REQUEST,
ISSUES, AND BURDEN OF PROOF . . . . . . 2
A. Due Process Hearing Request and Statute
of Limitations . . . . . . . . . . . . . . . . . . . . . . . 2
B. Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
C. Proposed Remedies . . . . . . . . . . . . . . . . . . 4
D. Burden of Proof . . . . . . . . . . . . . . . . . . . . . 5

App. 69
II.

HEARING . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

III.

WITNESSES . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. Petitioner’s Witnesses . . . . . . . . . . . . . . . . 6
B. District’s Witnesses . . . . . . . . . . . . . . . . . . 7

IV.

FINDINGS OF FACT . . . . . . . . . . . . . . . . . . . 8

V.

APPLICABLE LAW, ANALYSES, AND
CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . 71
A. The IDEA and Its Implementing
Regulations. . . . . . . . . . . . . . . . . . . . . . . . 71
B. Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . 72
1.

Did the District violate its Child
Find obligations by failing to
identify Student as a child with a
disability prior to March 2015?. . . 72
a. Applicable Law. . . . . . . . . . . . . 72
b. Analysis and Conclusion . . . . . 73

2.

Did the District fail to provide a
FAPE to Student during the 201415 school year?. . . . . . . . . . . . . . . . 75
a. Applicable Law. . . . . . . . . . . . . 75
b. Analysis and Conclusion . . . . . 76

3.

Did the District fail to consider
providing Student with positive
behavioral supports and

App. 70
interventions, including
counseling?. . . . . . . . . . . . . . . . . . . 77
a. Counseling . . . . . . . . . . . . . . . . 77
b. Positive Behavioral Interventions
. . . . . . . . . . . . . . . . . . . . . . . . . 77
4.

Did the District fail to provide
Parents with prior written notice
when it refused to evaluate
Student? . . . . . . . . . . . . . . . . . . . . . 79

5.

Did the ARD committee fail to
consider Student’s PLAAFPs and
how Student’s disability affected
his involvement in the general
education curriculum?. . . . . . . . . . 79
a. Applicable Law. . . . . . . . . . . . . 79
b. Analysis and Conclusion . . . . . 80

6.

Did the District fail to provide
Parent with requisite notice when
Student was twice restrained in
January 2015? . . . . . . . . . . . . . . . . 80
a. Applicable Law. . . . . . . . . . . . . 80
b. Analysis and Conclusion . . . . . 81

7.

Did the District fail to provide
Student with a commensurate
school day? . . . . . . . . . . . . . . . . . . . 81
a. Applicable Law. . . . . . . . . . . . . 81

App. 71
b. Analysis and Conclusion . . . . . 82
8.

Did the District fail to develop an
IEP for Student? . . . . . . . . . . . . . . 83
a. Applicable Law. . . . . . . . . . . . . 83
b. Analysis and Conclusion . . . . . 84

9.

Did the District fail to implement
Student’s IEP? . . . . . . . . . . . . . . . . 85
a. Applicable Law. . . . . . . . . . . . . 85
b. Analysis and Conclusion . . . . . 85

10.

Did the District fail to educate
Student in the LRE? . . . . . . . . . . . 86
a. Applicable Law. . . . . . . . . . . . . 86
b. Analysis and Conclusion . . . . . 88

11.

Did the District fail to incorporate
recommendations from evaluations
into Student’s initial ARD
committee report to address his
educational needs?. . . . . . . . . . . . . 88
a. Applicable Law. . . . . . . . . . . . . 88
b. Analysis and Conclusion . . . . . 88

12.

Did the District fail to ever
convene an ARD committee
meeting to discuss Parent’s request
that Student be returned to the
TOTAL program and fail to issue

App. 72
prior written notice concerning
that refusal?. . . . . . . . . . . . . . . . . . 88
13.

Did the District fail to ever
convene an ARD committee
meeting or respond to Parent’s
constructive notice and request for
placement and
tuition
reimbursement at Fusion? . . . . . . 89
a. Applicable Law. . . . . . . . . . . . . 89
b. Analysis and Conclusion . . . . . 90

14.

Did the District fail to provide
Student with a FAPE during the
summer of 2015, and the 2015-16
school year, and is the District
continuing to deprive Student of a
FAPE designed to meet his unique
educational needs?. . . . . . . . . . . . . 91
a. Summer of 2015. . . . . . . . . . . . . 91
b. 2015-2016 School Year and
Beyond . . . . . . . . . . . . . . . . . . . 93
c: Analysis and Conclusion . . . . . 93

C. Remedies. . . . . . . . . . . . . . . . . . . . . . . . . . 94

VI.

1.

Compensatory Education . . . . . . . 94

2.

Tuition Reimbursement . . . . . . . . 94

CONCLUSIONS OF LAW . . . . . . . . . . . . . 101

ORDER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 103

App. 73
NOTICE TO THE PARTIES . . . . . . . . . . . . . . . . . 104
DOCKET NO. 068-SE-1015
[Filed: October 15, 2018]
_______________________________________
OWEN W. B/N/F HANNAH W.,
)
Petitioner
)
)
v.
)
)
SPRING BRANCH INDEPENDENT )
SCHOOL DISTRICT,
)
Respondent
)
_______________________________________)
BEFORE A SPECIAL EDUCATION
HEARING OFFICER FOR
THE STATE OF TEXAS
DECISION OF HEARING OFFICER
Owen W. (Student), by next friend Hannah W.
(Parent) (collectively, Petitioner) requested an
impartial due process hearing (Complaint), pursuant to
the Individuals with Disabilities Education Act (IDEA),
20 U.S.C. § 1400 et seq. The Spring Branch
Independent School District (Respondent or the
District) is the respondent to the Complaint. Petitioner
alleges that the District violated its Child Find
obligations by failing to timely identify Student as a
child with a disability prior to March 2015; failing to
provide Student with a free appropriate public
education (FAPE) during the 2014-15 school year, the
summer of 2015, and the 2015-16 school year; and

App. 74
continues to deprive Student of a FAPE designed to
meet his unique educational needs as a twice
exceptional child.1 The District denies Petitioner’s
allegations.2
The hearing officer finds that Petitioner proved the
District did not fulfill its Child Find obligation as to
Student and did not properly implement his
Individualized Education Program (IEP), thus denying
Student a FAPE for the entire 2014-2015 school year.
Petitioner proved that the appropriate placement for
Student is at Fusion Academy (Fusion), a private
school. Although Parents did not notify the District in
writing of their intention to place Student at Fusion,
returning Student to the District would have been
emotionally detrimental to him. Therefore, Parents are
to be reimbursed $50,250 in tuition and tutoring costs
for Student’s unilateral placement at Fusion for the
2015-2016 school year.3 In addition, because the
District did not provide Student a FAPE in 2014-2015,
Petitioner is awarded one school year of compensatory
education at Fusion, to be fulfilled in the 2016-2017
school year at the District’s expense.

1

Petitioner Ex. 3. A twice exceptional child is a gifted student with
a disability.
2

3

Petitioner Ex. 4.

Respondent Ex. 26 at 19-22, 47. Petitioner did not prove that an
extended school year (ESY) was necessary for Student in the
summer of 2015, so the Fusion tuition for the summer of 2015 is
not included in the tuition reimbursement amount.

App. 75
I. DUE PROCESS HEARING REQUEST,
ISSUES, AND BURDEN OF PROOF
A. Due Process Hearing Request and Statute of
Limitations
Petitioner filed the Complaint on October 28, 2015.4
Petitioner then filed an amended due process hearing
request (Amended Complaint) on February 22, 2016.5
Petitioner raised no exception to the 1-year statute
of limitations. 19 Tex. Admin. Code § 89.1151.
Therefore, the accrual date for this proceeding is
October 28, 2014.
B. Issues
At prehearing telephone conferences held on
December 7, 2015, and March 22, 2016, the issues for
this proceeding were narrowed and simplified, as set
out below.6 Petitioner prevailed on Issues 1, 2, 7, and 9.
The remaining issues were decided in the District’s
favor.
1.

4

Did the District violate its Child Find
obligations by failing to identify Student as a
child with a disability prior to March 2015?

Petitioner Ex. 5.

5

Petitioner Ex. 3. Petitioner requested leave of the hearing officer
to file the Amended Complaint. The request was granted on
February 23, 2016. See Order No. 6, issued February 23, 2016.
6

See Order No. 5, issued December 7, 2015, and Order No. 9,
issued March 22, 2016.

App. 76
2.

Did the District fail to provide a FAPE to
Student during the 2014-15 school year?

3.

Did the District fail to consider providing
Student with positive behavioral supports
and interventions, including counseling?

4.

Did the District fail to provide Parents with
prior written notice when it refused to
evaluate Student?

5.

Did the Admission, Review, and Dismissal
(ARD) committee fail to consider Student’s
present level of academic achievement and
functional performance (PLAAFP) and how
Student’s disability affected his involvement
in the general education curriculum?

6.

Did the District fail to provide Parents with
requisite notice when Student was twice
restrained in JanlUJIY 2015?

7.

Did the District fail to provide Student with
a commensurate school day?

8.

Did the District fail to develop an IEP for
Student?

9.

Did the District fail to implement Student’s
IEP?

10.

Did the District fail to educate Student in the
least restrictive environment (LRE)?

11.

Did the District fail to incorporate
recommendations from evaluations into

App. 77
Student’s initial ARD committee report to
address his educational needs?
12.

Did the District fail to ever convene an ARD
committee meeting to discuss Parents’
request that Student be returned to the
Turnaround Opportunities through Active
Learning (TOTAL) program and fail to issue
prior written notice concerning that refusal?

13.

Did the District fail to ever convene an ARD
committee meeting or respond to Parents’
constructive notice and request for Student’s
placement at and tuition reimbursement for
Fusion?

14.

Did the District fail to provide Student with
a FAPE during the summer of 2015, and the
2015-2016 school year, and is the District
continuing to deprive Student of a FAPE
designed to meet his unique educational
needs?

C. Proposed Remedies
At prehearing telephone conferences held on
December 7, 2015, and March 22, 2016, Petitioner’s
proposed remedies were identified as set out below:7
1.

7

The District should fully reimburse Parents
for all tuition and costs for Student’s
education at Fusion during the summer of
2015, including transportation costs;

See Order No. 5, issued December 7, 2015, and Order No. 9,
issued March 22, 2016.

App. 78
2.

The District should place Student at Fusion
as a private school placement consistent with
the IDEA;

3.

The District should provide an independent
counseling evaluation;

4.

The District should provide counseling
services based on the independent counseling
evaluation;

5.

The District should provide extensive
training to all staff at Nottingham
Elementary School (Nottingham) and
Ridgecrest Elementary School (Ridgecrest)
about initial evaluations, the use of Section
504 plans or Response to Intervention (RtI)
programs and placement in special
education, and the use of positive behavioral
strategies;

6.

The District should provide compensatory
and related services to address the lack of an
appropriate education program for Student
during the 2014-2015 school year;

7.

The District should fully reimburse Parents
for all tuition and costs for Student’s
education at Fusion for the 2015-2016 school
year, including transportation costs;

8.

The District should recognize and honor
Fusion as Student’s “stay put” placement
until or unless the ARD committee, including
Parents, agrees otherwise or the hearing
officer or Court orders otherwise; and

App. 79
9.

Petitioner requests any other relief the
hearing officer deems prudent to provide
Student with a FAPE.

D. Burden of Proof
The IDEA creates a presumption that a school
district’s decisions made pursuant to the IDEA are
appropriate and that the party challenging the
decisions bears the burden of proof at all times.8 A
party attacking the appropriateness of an IEP
established by a school district bears the burden of
showing why the IEP and resulting placement were
inappropriate under the IDEA.9 To prevail, Petitioner
must, therefore, establish that the District violated the
IDEA regarding Petitioner’s delineated issues.
II. HEARING
The hearing was held May 24-26, 2016, before
Sharon Cloninger, hearing officer, at the District’s
Administration Building, 955 Campbell Road, Houston,
Texas 77024. Petitioner was represented by lead
counsel Sonja D. Kerr and co-counsel Fernando
Salcedo. The District was represented by Amy Tucker,
attorney.

8

Schaffer ex rel. Schaffer v. Weast, 546 U.S. 49, 126 S.Ct. 528, 537,
163 L.Ed.2d 387 (2005); White ex rel. White v. Ascension Parish
Sch. Bd., 343 F.3d. 373, 377 (5th Cir. 2003); Teague Indep. Sch.
Dist. v. Todd L., 999 F.2d 127, 132 (5th Cir. 1993).
9

Cypress-Fairbanks Indep. Sch. Dist. v. Michael F., 118 F.3d 245,
247-248 (5th Cir. 1997), as cited in Houston Indep. Sch. Dist. v.
Bobby R., 200 F.3d 341, 347 (5th Cir. 2000); R.H. v. Plano Indep.
Sch. Dist., 607 F.3d 1003, 1010-1011 (5th Cir. 2010).

App. 80
At the close of the due process hearing, the parties
requested a July 6, 2016 deadline for filing written
closing arguments and that the decision due date be
extended from June 27, 2016, to July 29, 2016, for good
cause.10 The deadline for filing written closing
arguments subsequently was extended to July 27,
2016, and the decision due date was extended, for good
cause, to August 3, 2016.11 This decision was timely
issued.
III. WITNESSES
The following witnesses testified at the hearing and
are listed here for ease of reference when reading the
Findings of Fact.
A. Petitioner’s Witnesses

10

1.

Father

2.

Natalia Femandez12

See Order No. 13, issued May 31, 2016.

11

See Order No. 14, issued June 27, 2016, and Order No. 15, issued
July 7, 2016.
12

Ms. Fernandez is an Administrative Intern for the District’s
System of Care, designed to better respond to disciplinary issues
with students. She has a Master’s degree in Spanish Literature
and a Bachelor of Science degree in Psychology. The System of
Care provides a “care coach” to work with counselors, assistant
principals, and teachers to arrive at alternative ways to support
students with disciplinary issues so as not to respond in a punitive
way. If the supports do not work, the student may be referred to
the TOTAL program. Tr. at 702-703,705 (Fernandez).

App. 81
3.

Sherrie Folger,
Nottingham

Assistant

Principal,

4.

Ahmad Hemandez13

5.

Rebecca Lee Lazarou, Head of School, Fusion
Academy–Galleria

6.

Brent Pitt14

7.

Felecia Powell-Williams15

8.

Lizette Ridgeway16

9.

JoAnna Snider Anderson17

13

Mr. Hernandez is Student’s teacher at Fusion, certified in every
topic through eighth grade and certified in English as a Second
Language. Tr. at 222-223 (Hernandez).
14

Mr. Pitt is a manager in TEA’s Division of Federal and State
Education Policy. Tr. at 276 (Pitt).
15

Dr. Powell-Williams, Ed.D., LPC-S, RPT/S, was designated as an
expert witness in clinical counseling. Tr. at 152 (Powell-Williams).
Her curriculum vitae is at Petitioner Ex. 17 at 3-5.
16

Ms. Ridgeway is a manager in TEA’s Division of Program
Monitoring and Intervention. One of her duties is to oversee
special education program monitoring, including nonpublic day
school placements. Tr. at 268 (Ridgeway).
17

Dr. Snider-Anderson, who holds a doctorate in psychology, is the
clinical supervisor for the diagnostic clinic at the Monarch
Institute. She is certified to administer the Autism Diagnostic
Observation Schedule (ADOS), considered in the clinical
community to be the gold standard for diagnosing Autism
Spectrum Disorder. She has training in applied behavioral
analysis (ABA), which is significant for creating treatment plans

App. 82
10.

Jan Teater, Coordinator
Education with the District18

11.

Joni Warren19

12.

Robbie Wright20

for

Special

B. District’s Witnesses
1.

Mother

for children identified as having Autism Spectrum Disorder. Tr. at
33-34, 36, 69 (Snider-Anderson).
18

Ms. Teater holds a B.S. in Elementary Education, a Master’s
degree in Special Education, and a principal certification. She was
designated as an expert in behavior management and educational
programming. Tr. at 920-921 (Teater).
19

Ms. Warren did not testify in person. Her deposition is in
evidence. She has been the District’s Director of Special Education
since July 1, 2015, and was previously the Special Education
Compliance Coordinator in the Alief Independent School District
for 7 years where she was responsible for ensuring that children
with special needs were placed in nonpublic schools when they
needed those services. Petitioner Ex. 28 at 10, 13, 14 (Warren
deposition).
20

Dr. Wright testified as an expert witness in child psychiatry. In
May 2004, Dr. Wright received her M.D. from the University of
Texas Medical Branch in Galveston, Texas. In 2009, she completed
her psychiatry training at the Baylor College of Medicine in
Houston, Texas. She has been in private practice since 2009,
providing psychiatric evaluation, assessment, and treatment of
adults, adolescents, and children with mental health disorders. Tr.
at 302-303 (Wright); Petitioner Ex. 9 at 7-10.

App. 83
2.

Fabiana Bezerra21

3.

Cynthia Frederick22

4.

Nydia Martir23

5.

Kristin Murphy24
IV. FINDINGS OF FACT

Based upon the evidence and argument of the
parties, the hearing officer makes the following
findings of fact:
Background
1.

Student resides with Parents within the
boundaries of the District.

21

Ms. Bezerra, Licensed Specialist in School Psychology (LSSP), is
a facilitator for special education programs with the District. She
is certified by the International Board of Certification as an autism
specialist and is certified by the National Association of School
Psychologists. Tr. at 782-783 (Bezerra). She was designated as an
expert in school psychology, evaluation, educational programming,
social skills development, and behavior management. Tr. at 786787 (Bezerra).
22

Ms. Frederick is a speech-language pathologist with the District
and was designated as an expert in speech-language pathology. Tr.
at 511-512, 516 (Frederick).
23

Ms. Martir was Student’s special education teacher at
Ridgecrest. Tr. at 629-630 (Martir).
24

Ms. Murphy is an LSSP employed by the District. She was
designated as an expert in school psychology, educational
evaluations, educational programming, social skills development,
and behavior management. Tr. at 562-563, 568 (Murphy).

App. 84
2.

The District is a recipient of federal funds and
must comply with the IDEA, including
developing and implementing an appropriate
IEP for Student, designed to ensure services and
placement in the LRE, and reasonably
calculated to confer meaningful educational
benefit.

3.

Student has experienced self-regulation and
adjustment difficulties since he was a toddler.25

4.

Student attended pre-kindergarten in 2006-2007
at the Stringfellow School in Coppell, Texas; in
2007-2008 at Emmanuel Episcopal School
(Emmanuel) in Houston, Texas; in 2008-2009 at
Westside Montessori School (Westside) in
Houston, Texas; and received speech therapy for
articulation issues through the District from
about 2006 until being released in May 2009.
Parents were asked to remove Student from
Emmanuel and Westside due to Student’s
significant impulse control problems, aggression,
and oppositional behaviors.26

5.

In 2009, when Student was 4 years old, Cathy
Guttentag, Ph.D., Licensed Psychologist,
identified him as a child with a Very Superior
Intelligence (WPPSI-III Full Scale IQ=137, 99th

25

26

Petitioner Ex. 7 at 1.

Petitioner Ex. 1; Petitioner Ex. 7 at l; Petitioner Ex. 12 at 2;
Petitioner Ex. 15 at 8; Respondent Ex. 20 at 3; Respondent Ex. 29
at 5.

App. 85
percentile) and diagnosed him to
Oppositional Defiant Disorder (ODD).27

have

6.

In 2009, Dr. Guttentag recommended that
Student begin kindergarten and that Parents
seek to have him placed in the Gifted and
Talented program. She concluded Student is an
extremely bright child who is likely to show
better behavior and attention when he is
working at a level that is appropriately
challenging and interesting for him. She said his
projects and assignments should be
individualized to increase the depth and
complexity of learning activities. She recognized
that Student might have difficulty handling the
behavioral demands of public school
kindergarten, such as complying with school
rules, respecting the teacher, refraining from
aggressive behavior towards other children and
adults, and following task directions.28

7.

In 2009, Student began kindergarten at
Nottingham, a District elementary school,29 and
was aggressive towards other children.30 He
attended private schools for first through fourth

27

Petitioner Ex. 7 at 2; Respondent Ex. 29 at 4-12; see also
Petitioner Ex. 7 at 4.
28

Respondent Ex. 29 at 9-10.

29

Respondent Ex. 20 at 2.

30

Petitioner Ex. 12 at 3; Respondent Ex. 29 at 1.

App. 86
grades and did not return to Nottingham until
fifth grade.
8.

Parents paid for Student to attend first and
second grade at Rainard, a private school for
gifted children, located in the District; and third
and fourth grade at The New School in the
Heights (The New School), a private school for
children with social-emotional challenges,
located in the Houston Independent School
District.31

9.

By the time Student began third grade, Susana
A. Rosin, Ph.D., clinical psychologist, had
identified him as a child with Attention Deficit
Hyperactivity Disorder (ADHD), a Mood
Disorder, and ODD, as well as being a gifted
student.32

10.

From third grade forward, Student has been
under the care of a Dr. Robbie Wright, a
psychiatrist, and Dr. Felecia Powell-Williams, a
clinical counselor.33

11.

Dr. Wright has seen Student as a patient
sometimes monthly and sometimes quarterly
since 2012. In March 2012, she initially
diagnosed him with Anxiety Disorder, not
otherwise specified (NOS), with rule-out

31

Petitioner Ex. 1; Respondent Ex. 20 at 3; Respondent Ex. 23.

32

Respondent Ex. 4 at 11.

33

Tr. at 303 (Wright); Tr. at 154-155 (Powell-Williams).

App. 87
diagnoses of ADHD, OCD, and pervasive
developmental disorder (PPD). In a rule-out
diagnosis, a doctor suspects but does not have
enough information to arrive at that diagnosis.
After a comprehensive evaluation, she diagnosed
him in April 2012 with Mood Disorder, NOS;
ADHD, NOS; Anxiety Disorder, NOS; and a
History of ODD. Student was her patient when
he attended Rainard, The New School, fifth
grade in the District, and he remains her patient
now that he is attending Fusion.34
12.

Dr. Wright’s 2012 psychiatric evaluation of
Student–then age 7 and in second grade–
revealed that Student had attempted to harm
himself at Rainard and had made a suicidal
statement.35

13.

Dr. Powell-Williams was the clinical director at
The New School, a therapeutic school, when
Student attended there. The New School was
available for students who need a therapeutic
setting including teachers and staff who help
students struggling with certain diagnostic
difficulties such as ADHD, depression, autism,
attachment issues, trauma, and ODD.36

34

Tr. at 303-305, 308, 309, 314 (Wright); Petitioner Ex. 9 at 2, 5;
Petitioner Ex. 30 at 5.
35

Respondent Ex. 29 at 3.

36

Tr. at 152-154 (Powell-Williams); Petitioner Ex. 17 at 3-5.

App. 88
14.

Dr. Powell-Williams was Student’s counselor at
The New School. She worked with Student daily,
either in individual or group therapy sessions;
met with Parents; and provided teachers with
resources to better accommodate Student in the
classroom.37

15.

At The New School, when Student was in a
classroom with other students, the
sound/movement/change/transitions seemed to
overwhelm him. He would put his head down
and not do his work because of being
overstimulated. When he was removed from the
classroom to spend one-on-one time with a
teacher, he was attentive, was aware of what he
needed (with breaks), and was able to take steps
to integrate with some of his classmates during
certain settings of the day. Student also had a
lot of anxiety around separation from Mother
and around being alone in a room. When he was
anxious, his behaviors became disruptive.38

16.

At The New School, Student was with six or
eight other students at times, but if the external
stimuli became too overwhelming, he did one-onone work with his teacher or had a shortened
school day, with his parents available, until he
could slowly integrate back into the classroom.
Shortening the days was very helpful for him.

37

Tr. at 154-156 (Powell-Williams).

38

Tr. at 160, 164-165 (Powell-Williams).

App. 89
He was able to work up to full days, but not
every day of the week.39
17.

On May 16, 2014, Student took the Stanford test
at The New School, and scored in the following
percentiles: 75 in Total Reading, 79 in
Vocabulary, 69 in Comprehension, 18 in Math
Procedures, and 84 m Spelling.40

18.

Student’s 2013-2014 report card from The New
School indicates he passed all fourth grade
academic subjects but that he only sometimes
met most behavioral requirements and that he
did not work well without supervision, accept
comments on performance from others, or
organize his materials and assignments. The
report card indicates that his ability to
demonstrate physical control and speak only at
appropriate times without interrupting students
and teachers improved from not being able to do
so during the first semester to sometimes being
able to do so during the second semester.41

19.

Parents re-enrolled Student, then age 10, at
Nottingham at the beginning of fifth grade for
the 2014-2015 school year. Student began the
school year in the general education setting; was
moved to the District’s TOTAL program from

39

Tr. at 189, 193 (Powell-Williams).

40

Respondent Ex. 24 at 2.

41

Tr. at 217 (Powell-Williams); Petitioner Ex. 8; Respondent Ex. 24
at 1.

App. 90
January 26, 2015, through March 13, 2015; and
on March 23, 2015, was placed in the Adaptive
Behavior classroom at Ridgecrest, a centralized
program away from Student’s home campus,42
where he finished the school year.
20.

Since the summer of 2015, Student has attended
school at Fusion, a private school.43

21.

Fusion has been open nationwide for 25 years
and recently opened in Houston. The Houston
campus has 51 students and 21 teachers and is
a year-round school. Fusion provides one-on-one
education with one student and one teacher in a
classroom. Classes last for 50 minutes with a 10minute break between classes. Students do their
homework at school and do not take homework
home. Fusion is accredited through AdvancED,
which is recognized by the TEA, uses the Texas
Essential Knowledge and Skills (TEKS)
curriculum, and follows TEA requirements for
high school graduation. Fusion takes a social,
emotional, and academic approach to
education.44 Classes are held between 7:30 a.m.
and 8:30 p.m. Monday through Thursday, with
Friday as a mastery day for students who
missed class earlier in the week or are having

42

Petitioner Ex. 1; Petitioner Ex. 16 at 22.

43

Petitioner Ex. 1; Petitioner Ex. 37 at 7.

44

Tr. at 415-417, 419-421, 484-486 (Lazarou).

App. 91
trouble with a particular concept.45 A special
education coordinator is on campus.46
Issue 1:
Did the District violate its Child Find obligations
by failing to identify Student as a child with a
disability prior to March 2015?
22.

When Mother registered Student for school in
August 2014, she provided Nottingham staff
with a note from Student’s psychiatrist, Dr.
Wright, in hopes that a Section 504 meeting (or
Student would be expedited. Dr. Wright advised,
“I have evaluated [Student] and he is diagnosed
with ADHD, Combined Type. He would benefit
from 504 accommodations. Please feel free to
send any paperwork you need completed on his
behalf by fax to 713-622-7381.” 47

23.

After having been in a classroom at The New
School with one or two teachers for between four
and six students, Mother thought Student might
have difficulty transferring to a general
education classroom at Nottingham with 20 or

45

Tr. at 421 (Lazarou).

46

Tr. at 423 (Lazarou).

47

Tr. at 742, 769-771 (Mother); Petitioner Ex. 9 at 6; Petitioner Ex.
37 at 1.

App. 92
so students, so
accommodations.48

sought

Section

504

24.

Mother did not request special education
services at the beginning of the school year
because she did not know Student was eligible
for special education.49

25.

At the beginning of the school year, teachers
gave their students a handbook that explains
how parents can request special education
testing if they feel their child needs to be
evaluated.50

26.

Assistant Principal Sherrie Folger received Dr.
Wright’s letter within the first 2 weeks of school.
She is aware that a child with ADHD can be
identified for special education and related
services. She was not particularly concerned by
Dr. Wright’s letter, because there are many
students at Nottingham with ADHD who do not
receive special education services.51

27.

At the beginning of the school year, Mother did
not share Dr. Wright’s 2012 psychiatric
evaluation with the District, in which Dr.
Wright diagnosed Student with Mood Disorder,

48

Tr. at 749 (Mother); Tr. at 156 (Powell-Williams); Tr. at 309, 349,
352 (Wright); Petitioner Ex. 9 at 6.
49

Tr. at 742 (Mother).

50

Tr. at 927 (Teater).

51

Tr. at 73, 82, 103-104 (Folger); Petitioner Ex. 9.

App. 93
NOS; ADHD, NOS; Anxiety Disorder, NOS; and
a History of ODD.52
28.

On August 25, 2014, the first day of school,
Nottingham Principal Roy Moore conferenced
with Mother regarding violent pictures Student
had drawn during a classroom activity: images
of murder, death, “Fuck u Jesus,” “Nhatzees are
the shit,” and swastikas.53

29.

On August 26, 2014, the second day of school,
Student left the classroom without permission.54

30.

On August 26, 2014, administrators were called
to the classroom because Student was holding
up his middle finger, cussing, and refusing to
follow directions. When Principal Moore and
Assistant Principal Folger went into the
classroom, Student was sitting on a bookshelf.
When asked to come down and put his shoes on,
Student stated, “All I see in here is a fat bitch
and a retard.” Student told the principal, “Shut
the fuck up, you black bastard.” After being
asked multiple times to put his shoes on and
come out of the classroom, Student stated, “OK,
I’ll put my shoes on and come out so you can
leave me the fuck alone.” While in Principal
Moore’s office, Student continued to make racial

52

Petitioner Ex. 9 at 2; Respondent Ex. 29 at 1-3; see also
Petitioner Ex. 9 at 5.
53

Respondent Ex. 19 at 3.

54

Respondent Ex. 1 at 26.

App. 94
slurs such as “Don’t ever put a blackboard in
this office because it’s black enough already. You
need a whiteboard;” stood on chairs; and crawled
on the furniture. When a teacher entered the
classroom to speak with Principal Moore,
Student told her to “Shut the fuck up, bitch!”
and “You’re a skank.” Other behaviors during
this time including taking mints from Principal
Moore’s desk without permission, throwing a
pen and pencil at Assistant Principal Folger two
times, and continuing to make remarks such as
“Fuck both of you,” “You bitch, you fucking
bitch,” and “This school sucks balls.”55
31.

During the first 2 days of school at Nottingham,
Mother talked a lot with Principal Moore and
Assistant Principal Folger. She had expected a
spike in Student’s behavior because he
transferred to Nottingham from The New
School, a therapeutic school, had difficulty with
transitions, and struggled with depression.
Mother told Nottingham staff that Student had
been diagnosed with ODD, Mood Disorder,
Anxiety, and Depression.56

32.

On August 26, 2014, Principal Moore had
Mother sign regular release of records and
confidential records release forms. He also asked

55

Petitioner Ex. 10 at 12; Respondent Ex. 19 at 3.

56

Tr. at 744, 746 (Mother).

App. 95
Mother to provide the school with copies of
Student’s evaluations and medical records.57
33.

On August 29, 2014, Mother signed a release
form permitting Nottingham staff to obtain
Student’s records from The New School,
including academic history, medical reports,
vision/hearing records, speech/language records,
and behavior plan/psychological records, for the
purpose of educational planning.58

34.

In August 2014, Student was highly motivated
to get kicked out of Nottingham so he could go
back to The New School. Mother and
Nottingham staff made it clear to Student that
he would not be going back to The New School
and his misbehavior needed to stop.59

35.

Early in the school year, Mother arranged for
Dr. Powell-Williams to be available to talk to
school staff including signing a release so that
school staff could speak with her at any time.
Dr. Powell-Williams spoke with school staff via
telephone, offered strategies to manage Student,
and disclosed triggers that disrupted his ability
to function.60

57

Tr. at 771-772 (Mother); Tr. at 104 (Folger); Respondent Ex. 19
at 3.
58

Tr. at 105 (Folger); Respondent Ex. 21.

59

Tr. at 744, 747 (Mother); Petitioner Ex. 37 at 1.

60

Tr. at 772-773 (Mother); Petitioner Ex. 37 at 1.

App. 96
36.

Dr. Powell-Williams was concerned about
whether Student could be successful in public
school. After school started, she spoke with
Principal Moore about her concerns and
provided ideas for ways Student could transition
into the new environment. She told Principal
Moore about Student’s sensory issues,
difficulties with interpersonal relationships, and
social and cognitive difficulties, and suggested
some interventions that might work.61

37.

Before attending fifth grade at Nottingham,
Student had difficulty transitioning to Rainard
and The New School. At The New School, Dr.
Powell-Williams was on site and saw Student
regularly when he struggled; teachers walked
him through situations and helped him calm
down; he had a shortened school day; Mother
was on campus, available to check in with
Student and help him calm down. Mother did
not think the transition to Nottingham would be
easy, but Student had made such progress at
The New School that she thought public
elementary school should be tried before Student
went into middle school.62

38.

On September 8, 2014, Student refused to follow
directions in music class. He would not remain
seated on the floor with the other students,
rolled around the room in a rolling chair after

61

Tr. at 158-160, 167 (Powell-Williams).

62

Tr. at 748 (Mother).

App. 97
being asked to sit in one place, and rolled over to
the door and walked out of the classroom
without permission. Administrators were called
and found Student sitting alone in the cafeteria.
Student stated “Music sucks,” and chose to sit in
the office until music class was over.63
39.

On September 8, 2014, in their fifth
conversation since the beginning of the school
year, Assistant Principal Ms. Folger spoke with
Mother regarding Student’s misbehaviors:
cursing, racial slurs, violent drawings, throwing
pens at administrators, showing his middle
finger to the class, failing to follow instructions,
leaving class without permission, and yelling
obscenities, all of which were disruptive to the
teaching and learning environment.64

40.

On September 11, 2014, administrators were
called to the classroom after Student refused to
follow the teacher’s redirection. Student was at
the teacher’s desk with his hands on the
teacher’s laptop computer, pushing keys and
messing up the ActivBoard. Student walked
away from the computer and jumped up on the
counter to sit down. When the teacher asked
Student to sit in a chair, Student said, “No! Fuck
you!” Assistant Principal Folger gave Student
the choice of remaining quietly in the classroom

63

Petitioner Ex. 10 at 12; Petitioner Ex. 35 at 1-3; Respondent Ex.
19 at 3.
64

Petitioner Ex. 10 at 12; Respondent Ex. 19 at 3.

App. 98
or leaving the classroom, and Student replied,
“I’m not going to do either one!” Assistant
Principal Folger touched Student’s arm and he
jumped to the floor and walked out of the
classroom to the office. The back of Student’s
shirt that covered his shorts was wet; Student
said he had been sitting in a sink. When he
entered the office, he sat on a couch then moved
to a chair when asked not to sit on the couch
with wet clothes. A few minutes later, Student
left the office without permission, stating, “I’m
going to the library.” He walked quickly away
from staff members to the library where a class
was having a lesson with the librarian. Student
pulled a book off the shelf in the back of the
library. Mother was called to take Student home
for the rest of the day. Student collected his
belongings and went into the office repeating,
“No more school! No more school!”65
41.

On September 16, 2014, Mother signed a “Notice
and Consent for Initial Section 504
Evaluation.”66

42.

On September 19, 2014, Student was referred to
the office after disrupting the classroom by
playing with the computer and ActivBoard
during the teacher’s lesson, throwing crayons at

65

Petitioner Ex. 10 at 11-12; Respondent Ex. 19 at 2-3.

66

Respondent Ex. 15 at 8.

App. 99
the teacher, and walking out of the classroom
without permission.67
43.

Student was referred to the office a second time
on September 19, 2014, this time for teasing
another student, calling her a “bitch,” and telling
her to shut up. Student told the class that the
student was ugly and, if they looked at her, they
would turn to stone. Student was given a 1-day
in-school suspension for the misbehavior.68

44.

In a September 21, 2014 response to the
teacher’s email about the September 19, 2014
incidents asking for ideas for helping Student
pay attention and focus more during class,
Mother suggested talking to Student quietly and
privately about options before a situation arose;
using a casual tone of voice with as little
emotion as possible; or giving Student a job or
responsibility related to assisting the teacher.69

45.

Mother was frequently at Nottingham,
sometimes up to five times per week. Many
times she would sit with Student at lunch to
help him reset before he attempted to make
friends and to problem solve with him to aid him
in the transition back to class.70

67

Petitioner Ex. 10 at 11; Petitioner Ex. 33 at 8; Respondent Ex. 19
at 2.
68

Petitioner Ex. 10 at 11; Respondent Ex. 19 at 2.

69

Petitioner Ex. 33 at 8; Petitioner Ex. 33a at 1.

70

Tr. at 749 (Mother); Petitioner Ex. 37 at 1.

App. 100
46.

On September 22 or 23, 2014, Mother had lunch
in the cafeteria and spoke with Brice Barbier,
one of Student’s teachers. She offered to supply
him with books or articles that might help with
Student’s behavior. Mr. Barbier told her that if
he needed that type of information, he would ask
the special education department.71

47.

On September 23, 2014, Mother filled out a
Family History Form for the District, which
indicated she believed Student’s disruptive and
impulsive behavior, and failure to follow
directions, stemmed from anxiety and
undiagnosed PDD, NOS.72
a. The Family History Form informed the
District that, for 2.5 years, Student had been
taking medication for anxiety, depression,
ADHD, and sleep problems.73
b. On the Family History Form, Mother listed
Student’s strengths as “curiosity, sense of
humor, and want to change.”74

48.

71

By the beginning of October 2014, Student’s
behaviors were severely interrupting the

Petitioner Ex. 37 at 1.

72

Petitioner Ex. 10 at 23; Respondent Ex. 20 at 3. PDD is a broad
category used when a patient has some features consistent with
Autism Spectrum Disorder. Tr. at 304.
73

Petitioner Ex. 10 at 23; Respondent Ex. 20 at 4.

74

Petitioner Ex. 10 at 25; Respondent Ex. 20 at 5.

App. 101
teaching and learning of students on a daily
basis. His vulgar language was heard by the
other students. He spent each day drawing
graphic cartoons, some of which contained
content regarding death, murder, and racism.
Student frequently exhibited defiance, verbal
aggression, and physical aggression at school.
His behaviors were unpredictable, occurred 4 out
of 5 days per week, and included making
obscene gestures, failing to follow directions, and
eloping from class. Pursuant to the District’s
Student Code of Conduct, Student was removed
from the classroom daily.75
49.

By October 2014, Mother and Dr. PowellWilliams both had reported to the District that
Student was highly anxious and feared rejection,
and that his “acting out” occurs when he feels
scared.76

50.

Student slept a lot in the classroom. Mother told
Assistant Principal Folger that Student slept in
class as a coping mechanism.77

51.

At the beginning of the school year, Mother did
not tell Assistant Principal Folger that Student

75

Respondent Ex. 18 at 1.

76

Respondent Ex. 18 at 1.

77

Tr. at 112 (Folger).

App. 102
had a history of hitting teachers at his previous
schools.78
52.

Mother began to suspect Student had an
undiagnosed condition. He had behavioral
problems before transferring to Nottingham, but
now he was more “shut down;” social
interactions were worse; he was more
overwhelmed by the loudness of the school; Mr.
Barbier said Student wanted to crawl into small
spaces; and Student’s anxiety was very high
related to sensory issues. Mother thought
Student needed an autism evaluation.79

53.

Student’s behavior was more severe than
Mother had seen in a year.80

54.

Based on information from Mother and Principal
Moore, and her ongoing therapy with Student,
Dr. Powell-Williams determined that Student
was beginning to regress at Nottingham and she
asked Principal Moore if the District was going
to conduct a special education evaluation of
Student to determine the best placement for
him.81

78

Tr. at 113 (Folger).

79

Tr. at 743-744 (Mother).

80

Tr. at 747 (Mother).

81

Tr. at 192, 196-197, 199-200 (Powell-Williams). Dr. PowellWilliams did not testify as to when the conversation occurred.

App. 103
55.

By October 1, 2014, the District had attempted
to help Student by having multiple meetings
with Mother; applying positive and negative
reinforcements; using frequent redirections and
warnings; speaking by telephone with Dr.
Powell-Williams; collaborating with the SPIRAL
staff; and imposing consequences.82

56.

After multiple requests to both Mother and The
New School, Mother provided the District with
Student’s private clinical evaluation conducted
by Dr. Rosin, clinical psychologist, in 2012.83

57.

On October 1, 2014, the District requested the
assistance of a Licensed Specialist in School
Psychology (LSSP) for the Section 504 meeting
to be held October 8, 2014. The District needed
the LSSP’s assistance in reviewing Dr. Rosin’s
evaluation.84
a. According to the evaluation, Dr. Rosin found
Student, then age 7, to be intellectually
gifted with diagnostic impressions of ADHD,
ODD, and Mood Disorder, NOS.85 She
explained that Student’s diagnostic picture is
a complex one and that, while Student’s

82

Tr. at 89-90 (Folger); Respondent Ex. 4, Respondent Ex. 15;
Respondent Ex. 18 at 1. SPIRAL is part of the District’s Gifted and
Talented program. Petitioner Ex. 15 at 8.
83

Respondent Ex. 4; Respondent Ex. 18 at 1.

84

Petitioner Ex. 7; Respondent Ex. 18.

85

Petitioner Ex. 7 at 12; Respondent Ex. 4 at 9, 11.

App. 104
ultimate diagnoses might not have been clear
at the time, it would be very important to
continue to treat his self-regulation and
affect modulation difficulties both
pharmacologically and through
psychotherapy to provide symptomatic
relief.86
b. During the evaluation, Student appeared to
Dr. Rosin to be a highly kinesthetic learner,
in that he often touched or explored objects
while speaking with her, and appeared to
seek this type of tactile stimulation
throughout the evaluation time.87 Student’s
lowest Woodcock-Johnson III subtest score
(18th percentile or low average range for
grade) was on a listening task that required
him to simultaneously listen to and follow a
set of multi-step directions of increasing
levels of complexity.88
c. Dr. Rosin noted that Student consistently
displayed signs of impulsivity and selfregulation difficulties throughout the course
of the 5-hour evaluation.89

86

Petitioner Ex. 7 at 10.

87

Petitioner Ex. 7 at 4.

88

Petitioner Ex. 7 at 7.

89

Petitioner Ex. 7 at 9-10.

App. 105
d. Dr. Rosin concluded that Student is an
intellectually gifted child of exceptional
verbal and perceptual reasoning abilities,
and overall very superior intelligence. Dr.
Rosin found no evidence of learning
disabilities.90
58.

On October 1, 2014, Student received a day of
in-school suspension for yelling from the back of
the classroom, “I don’t give a shit about your
crappy grades. I couldn’t give a fuck about
getting a zero,” as the teacher was presenting an
assignment to the class.91

59.

On October 6, 2014, Student refused to leave the
classroom and go to music class with the rest of
the students. The teachers asked administrators
for assistance because Student was noncompliant and unresponsive to questioning.
When Assistant Principal Folger entered the
classroom, Student was sitting at his desk with
his head down. After multiple requests and
counting to five, Student eventually stood up
and walked to the office. He remained there
until music class was over. He then returned to
the classroom and went to sleep.92

60.

In a second incident on October 6, 2014, Student
received a 1-day out-of-school suspension for

90

Petitioner Ex. 7 at 9-10.

91

Petitioner Ex. 10 at 11; Respondent Ex. 19 at 2.

92

Petitioner Ex. 10 at 11; Respondent Ex. 19 at 2.

App. 106
leaving the cafeteria without permission and
returning to the classroom. The teacher followed
him to say he could not do that. Student
responded, “I can do what I want. I don’t have to
listen to you because it’s not your room, you
didn’t pay for it.” Student took his spiral
notebook (which is what he had left the cafeteria
to get) and called the teacher a “fucking bitch.”93
61.

Between the first day of school and the first
Section 504 meeting for Student, on October 8,
2014, Assistant Principal Folger did not provide
Parents with information about Child Find, but
did provide them with information about Section
504 accommodations.94

62.

Prior to the Section 504 meeting in October
2014, Nottingham had a team of people working
with Student in an attempt to de-escalate him
and help him be successful in the general
education setting. They collaborated with
Parents; worked on finding out what incentives
would get him to complete his work; had private
conversations with Student about what he
thought could help him be successful at school;
attempted to refer Student to District’s
Children’s Co-Location Program at Mental
Health and Mental Retardation Authority of
Harris County (MHMRA) for counseling, but
Mother rejected the idea; and looked at getting

93

Petitioner Ex. 10 at 11; Respondent Ex. 19 at 2.

94

Tr. at 90 (Folger).

App. 107
recommendations through the District’s System
of Care. Staff focused more on Student’s
behavior than on academics because Student
was a Gifted and Talented child.95
63.

By the October 2014 Section 504 meeting,
Assistant Principal Folger believed the District
had not exhausted all of the regular education
interventions for Student.96

64.

Prior to the Section 504 meeting, no Section 504
accommodations were in place for Student.97

65.

On October 8, 2014, the District held an initial
Section 504 meeting for Student and determined
he met eligibility for Section 504 services. The
meeting notes reflect that Student has medical
diagnoses of ADHD, anxiety, and ODD. The
notes also state that Student was failing all
content; participated in class when he was
awake and present; cursed the teacher out daily;
sometimes stood on his chair and shouted; had
some friends but called other students names;
and had left the classroom and cafeteria without
permission. Meeting notes state that behavior
interventions had been inconsistent. Principal
Moore reported that parents of other students
had called the school concerned about what their
children were seeing and hearing from Student.

95

Tr. at 107-108, 111-112-115 (Folger); Respondent Ex. 17.

96

Tr. at 114 (Folger).

97

Tr. at 99 (Folger).

App. 108
Student’s Parents asked to be copied on emails
every day to be aware of Student’s behaviors for
the day and also requested copies of his work.98
66.

During the October 2014 Section 504 meeting,
Mother requested a special education
evaluation99 to determine if Student has Autism
Spectrum Disorder. Phillip Chapman, LSSP, did
not believe that an evaluation was warranted
and instead recommended a Tier II (targeted
group interventions) Behavior Intervention Plan
(BIP), so Mother’s request was declined.100

67.

Assistant Principal Folger does not recall
Mother requesting a special education
evaluation during the October 8, 2014 Section
504 meeting or the LSSP in attendance telling
Parents they should not have Student evaluated
for special education. Such a request and reply
are not in the minutes of the meeting.101

68.

The District did not give Parents prior written
notice of refusal to conduct the requested special

98

Petitioner Ex. 10 at 8-10, 17; Respondent Ex. 15 at 1, 1a, 2-3.

99

Tr. at 368-369 (Father); Petitioner Ex. 13 at 3; Respondent Ex.
13 at 1a.
100

Tr. at 754 (Mother); Tr. at 363 (Father); Petitioner Ex. 37 at 2;
see Petitioner Ex. 16 at 11 for description of a Tier II behavior
plan.
101

Tr. at 91-92; 131-132 (Folger).

App. 109
education evaluation and Parents did not know
they could dispute the refusal.102
69.

Mother requested the special education
evaluation because Student was struggling with
more issues than anxiety and she thought he
might be on the autism spectrum. Also, she had
heard that the District had a program for
students with autism; she hoped Student would
be eligible for that program and possibly receive
more support.103

70.

Parents did not receive special education
information from the District before Student
began fifth grade at Nottingham. They did not
know they could have requested a special
education evaluation before Student began fifth
grade. They were not aware that they could have
asked the District for a special education
evaluation of Student when he, attended
Rainard, a private school located in the District,
and had behavioral problems.104

102

Tr. at 363-364 (Father). The hearing officer notes that the
failure to provide prior written notice occurred before the October
28, 2014 accrual date for this proceeding.
103

Tr. at 750 (Mother). The District has a program for high
functioning students with autism. Tr. at 617 (Murphy). The record
is silent as to whether Student, who is eligible for special education
services as a child with Emotional Disturbance but not autism,
would be permitted to participate in the District’s program.
104

Tr. at 361-363 (Father).

App. 110
71.

On October 20, 2014, Student refused to line up
with the other students in the cafeteria, instead
telling the teacher he was not interested in what
she was saying. He looked at her and said,
“Peace. I’m out. Going to smoke some weed and
get doped up because I smoke out every day.”
Student then left the cafeteria and sat in a chair
in the hallway. The principal was called to get
Student.105

72.

On November 4, 2014, Student received a 1-day
in-school suspension for not following directions,
mocking the teacher, calling the teacher a
“fucking bitch,” and yelling, “What the fuck did
I do?” before leaving the classroom to go to the
office.106

73.

On November 6, 2014, after sleeping in class for
most of the morning, Student got all of his work
done.107

74.

During the fall of 2014, Student participated
briefly in SPIRAL, the District’s Gifted and
Talented program, 1 day per week.108

75.

On November 7, 2014, Mother and Student
signed a form declining all Gifted and Talented

105

Petitioner Ex. 10 at 13; Petitioner Ex. 35 at 4; Respondent Ex.
19 at 1-2.
106

Petitioner Ex. 10 at 13; Respondent Ex. 19 at 1.

107

Petitioner Ex. 33 at 14.

108

Petitioner Ex. 15 at 8.

App. 111
services for Student. The reason for the decision,
initiated by Parent, was that transitions and the
bus ride to the SPIRAL program were too hard
for Student, who was not ready for enrichment
classes until his grades improved and
stabilized.109
76.

On November 8, 2014, Student slept in class all
but 2 hours of the day, yet managed to get all of
his work done.110

77.

On November 10, 2014, Student was very
disruptive, refused to do any work, and teased a
classmate until she cried.111

78.

On November 24, 2014, Student played with the
teacher’s computer and ActivBoard during
instruction, threw paper clips at other students,
took his shoes off, and crawled under the
cabinet. He did not follow teacher’s
redirections.112

79.

In a second incident on November 24, 2014,
Student called another student “bitch” at recess.
He refused to sit down and walked away from
the teachers. He got locked out and came back
and started climbing the wall outside the
gymnasium. Administrators were called to

109

Petitioner Ex. 10 at 13; Respondent Ex. 22.

110

Petitioner Ex. 33 at 15.

111

Petitioner Ex. 33 at 16.

112

Petitioner Ex. 10 at 13; Respondent Ex. 19 at 1.

App. 112
retrieve Student. Student served a 1-day out-ofschool suspension as a result of his
misbehavior.113
80.

During the fall semester of 2014, Student’s
anxiety was very high. He complained of
stomach aches, and was generally unwilling to
go to school. He often went several days without
sleeping at night and it did not seem to correlate
with sleeping at school. Sometimes he would
sleep day and night and again, there was no
correlation. Student was also having difficulty
with emotional regulation. He was chewing his
shirt collar and sleeve.114

81.

Chewing on clothing is not uncommon for
children on the autism spectrum in moments of
heightened anxiety.115

82.

While Student was at Nottingham, Dr. PowellWilliams saw him biweekly or weekly,
depending on what was going on at the time.116
a. She was concerned that he was not in a small
classroom setting, and that he was becoming

113

Petitioner Ex. 10 at 13; Respondent Ex. 19 at 1.

114

Petitioner Ex. 37 at 4.

115

Tr. at 184 (Powell-Williams).

116

Tr. at 170 (Powell-Williams).

App. 113
more anxious, more
unwilling to comply.117

withdrawn,

and

b. Student was beginning to regress in the
sense that he was losing some of the skills
that he had attained at The New School such
as social/peer interaction, being able to be
proud of his work, and being more admiring
of himself and his capabilities while relying
on less positive reinforcement from others.118
c. Student’s verbal aggression and physical
aggression were primitive responses, which
he also exhibited when he first started at The
New School.119
d. Student had a hard time describing his
thoughts and feelings through words. While
at The New School, he worked hard to be
able to use his words.120
83.

By November 2014, Mother had toured three
other schools in search of an option for Student’s
2015-2016 school year. While certain that
Student was not being educated and knowing
Student would not pass the fifth grade, Mother
felt Student could survive until Parents could

117

Tr. at 170 (Powell-Williams).

118

Tr. at 170 (Powell-Williams.

119

Tr. at 170-171 (Powell-Williams).

120

Tr. at 170-171 (Powell-Williams)

App. 114
make a decision
placement.121

regarding

an

alternate

84.

Before the winter break, Student told Mother
that, at least twice, he woke up in the classroom
by himself with the lights out. The teacher had
left him there and taken the class to lunch. He
woke up by himself in the dark and ate at his
desk. He told Mother he liked the quiet.122

85.

After the District declined Mother’s October 8,
2014 request for a special education evaluation,
and Parents suspected Student was on the
autism spectrum, Parents made an appointment
with the Monarch Diagnostic Clinic (Monarch),
an outside evaluator, and an evaluation of
Student was completed in early December 2014.
Parents paid $2,430.00 for the evaluation.123
a. The Monarch team completed an
Independent Educational Evaluation (IEE)
on December 2, 2014.124
b. The Monarch team’s primary diagnosis of
Student was Autism Spectrum Disorder,
without accompanying language or
intellectual impairments, Level One, which is

121

Petitioner Ex. 37 at 3.

122

Petitioner Ex. 37 at 4.

123

Tr. at 364-366 (Father); Petitioner Ex. 12; Petitioner Ex. 24 at
1-2; Petitioner Ex. 37 at 2.
124

Petitioner Ex. 12; Petitioner Ex. 24; Respondent Ex. 3.

App. 115
the milder end of the ·spectrum.125 Children
on the higher end of the spectrum might not
be identified until they are between 8 and 10
years old. The Monarch team felt that
Student’s deficits in cognitive flexibility,
social functioning, and emotional behavior
regulation were greater than for individuals
who only have ADHD or ODD or mood
issues, and that the deficits were better
explained within the context of an Autism
Spectrum Disorder diagnosis.126
c. A number of tests, including the Autism
Diagnostic Observation Schedule-Second
Edition (ADOS-2), were administered during
the IEE.127 Student’s Academic Skills cluster
score was in the High Average range and no
learning disability was identified.128 While
Student’s Math Facts Fluency score was in
the 20th percentile, it was not low enough to
identify a learning disability.129 The
evaluator concluded that Student is highly
intelligent, evidencing a full scale IQ of

125

Tr. at 40, 42-43, 62 (Snider-Anderson).

126

Tr. at 36, 55-57, 59-60 (Snider-Anderson).

127

Petitioner Ex. 12 at 6; Respondent Ex. 3 at 6.

128

Tr. at 42 (Snider-Anderson); Petitioner Ex. 12 at 10.

129

Petitioner Ex. 12 at 9-10.

App. 116
120.130 Based on numerous other tests, the
evaluator also concluded “[Student] is
continuing to present with many symptoms
consistent with his previous diagnostic
classifications, but his deficits in cognitive
flexibility, social functioning, and emotional
and behavioral regulation appear to be
greater than those typically seen in
individuals with those diagnoses and are
consistent with a diagnosis of Autism
Spectrum Disorder.”131
d. Student’s fifth-grade homeroom and
Language Arts/Social Studies teacher,
Jeanne Breidenthal, completed a Teacher
Report Form for the Monarch team using the
Achenbach Child Behavior Checklist. She
stated that Student was “defiant” and “gets
pleasure from bothering and being mean to
adults and other students,” and that he
“makes extremely racist remarks to adults
and kids,” threatens others, and uses foul
language. She stated he typically draws or
sleeps during class. Behaviors she noted that
were clinically significant were
withdrawal/depressed behaviors, rule
breaking, and aggressive behaviors. Ms.
130

Petitioner Ex. 12 at 7; Petitioner Ex. 15 at 13-15; Respondent
Ex. 3 at 7.
131

Petitioner Ex. 12 at 11-14, 18; Respondent Ex. 3 at 11-14,18. Dr.
Wright described the ADOS-2, used by Monarch, as the “gold
standard” for evaluating for Autism Spectrum Disorder. Tr. at 339,
343 (Wright).

App. 117
Breidenthal said Student was performing
somewhat below grade level in Writing and
far below grade level in Reading, Social
Studies, Science, and Math.132
e. The evaluator noted that, “[Student’s]
challenges in emotional regulation and
coordination with others continued to derail
his ability to fully access learning
opportunities” and his “challenges with selfregulation, social coordination, and academic
consistency have continued.”133
f. The Monarch team concluded that individual
instruction would continue to be important
for aiding Student in attaining scholastic and
interpersonal success.134
g. Recommendations included establishing selfregulation and self-awareness objectives,
such as strategies for calming himself when
angry, upset, or anxious; becoming aware of
his affect and working with others to identify
and monitor his negative moods; learning to
transition more flexibly and adapt to
situations when prompted by an adult;
learning and using tools to help him pay
attention, stay focused, and control his body;

132

Tr. at 49-51, 53 (Snider-Anderson); Petitioner Ex. 12 at 14-15;
Respondent Ex. 3 at 14-15.
133

Petitioner Ex. 12 at 3; Respondent Ex. 3 at 3.

134

Petitioner Ex. 12 at 18; Respondent Ex. 3 at 18.

App. 118
and thinking about his goals throughout the
day and evening, rating himself, and
listening to what adults think about his
progress. Suggested social and relationship
development objectives included paying
attention to adults and doing what they ask;
learning to wait and take turns; and thinking
about how to talk and act so the person he is
with will stay connected to him. Suggested
academic objectives included regularly
practicing skills adults tell him he should
improve, and putting forth his best efforts on
all tasks, even those that seem too hard,
recognizing that he does not have to always
be right while learning.135
h. Monarch’s written IEE report was not
completed until February 2015, when Mother
provided the IEE report to the District.136
86.

Dr. Wright agrees with Monarch’s determination
that Student has Autism Spectrum Disorder.
She explained that the autism diagnosis
captures the array of diagnoses Student received
from multiple professionals prior to the Monarch
evaluation. His dysregulation, anxiety, sensory
issues, delays in speech, and poor social
communication make sense under the autism
diagnosis. Student’s ability to make eye contact
and hold a conversation, as described in Dr.

135

Petitioner Ex. 12 at 19-32; Respondent Ex. 3 at 19-32.

136

Petitioner Ex. 14.

App. 119
Rosin’s report, does not negate the autism
diagnosis. She described Student’s diagnosis as
Autism Spectrum Disorder High Functioning,
because Student is verbal and gifted.137
87.

Dr. Powell-Williams’s working diagnosis of
Student is that he is on the autism spectrum
with secondary diagnoses around depression and
anxiety. She agrees with the Monarch IEE that
a child can be on the autism spectrum and also
have depression, anxiety, and ODD.138

88.

Dr. Powell-Williams does not disagree with the
diagnoses of Dr. Guttentag and Dr. Rosin. But
over a period of time, Student has shown more of
a manifestation within the diagnosis on the
autism spectrum. The ODD, the ADHD, and the
anxiety disorders are secondary, which is not
uncommon for children who are on the autism
spectrum.139

89.

On January 9, 2015, while in the gymnasium,
Student hit the coach in the back with his
jacket, saying later that he hit her because he
was angry that she asked him to follow
directions. Administrators and District police
warned Student that hitting a teacher is an
assault and the criminal process had changed for

137

Tr. at 311-312, 330, 338, 346-348 (Wright); Respondent Ex. 4 at
3, 4.
138

Tr. at 156-157 (Powell-Williams).

139

Tr. at 187 (Powell-Williams).

App. 120
Student now that he was 10 years old. Student
was suspended for 2 days.140
90.

On January 13, 2015, Student was physically
aggressive towards his teacher, Ms. Breidenthal,
twice in the classroom, kicking her and hitting
her with closed fists.141 During this incident, the
teacher and Student had words. Student
threatened to “murder” her; the teacher
responded “I dare you.” Assistant Principal
Folger entered the classroom and restrained
Student twice to prevent him from hitting Ms.
Breidenthal anymore. District police were called.
Student was suspended for 3 days. The next day,
Ms. Breidenthal pressed felony charges; the
charges were dismissed in June 2015.142

91.

Ms. Murphy, the District’s expert witness in
behavior management, believes it was not
appropriate for police to be called to intervene
with Student in the classroom at Nottingham,
but did not explain why.143

140

Tr. at 401-402 (Father); Petitioner Ex. 10 at 13; Respondent Ex.
19 at 1.
141

Petitioner Ex. 10 at 13; Respondent Ex. 13 at 30; Respondent
Ex. 19 at 1.
142

Tr. at 405 (Father); Tr. at 774 (Mother); Petitioner Ex. 10 at 13;
Petitioner Ex. 33 at 21-23; Petitioner Ex. 37 at 4; Respondent Ex.
19 at 1. Ms. Breidenthal confirmed to Assistant Principal Folger
that she had made the “I dare you” comment. Petitioner Ex. 37 at
5.
143

Tr. at 608 (Murphy).

App. 121
92.

Dr. Powell-Williams was surprised by the
January 13, 2015 incident between Student and
his teacher, because Student had worked so
diligently on personal boundaries and respecting
the boundaries of others when he was at The
New School.144

93.

By January 13, 2015, Student had five out-ofschool suspensions totaling 8 days and three inschool suspensions covering 3 days. In addition
to the 11 days of suspension, there were a
number of days when Parents were called
because Student was excessive in his behavior,
and other days when Mother checked him out of
school.145

94.

Student’s Section 504 committee met on January
15, 2015.
a. The review meeting was held because
Student had been suspended from school for
hitting and kicking Ms. Breidenthal.146
b. All committee members, including Parents,
agreed upon a special education referral.147
c. Two placement options were offered pending
completion of the Full and Individual

144

Tr. at 172 (Powell-Williams).

145

Tr. at 101-102 (Folger); Respondent Ex. 19.

146

Petitioner Ex. 13 at 23; Respondent Ex. 14.

147

Petitioner Ex. 13 at 23; Respondent Ex. 14.

App. 122
Evaluation (FIE): Student could be moved to
another teacher’s classroom at Nottingham,
with a “shadow” adult, or Student could
attend the TOTAL program on a different
campus as a behavior intervention, not as a
disciplinary placement.148
d. The committee acknowledged that Mother
had requested a special education evaluation
in October 2014, which the District
declined.149
95.

Student’s Section 504 committee met again on
January 23, 2015, and decided Student would be
transitioned to the TOTAL program beginning
January 26, 2015.
a. Parents provided consent for the District to
conduct an FIE of Student in the areas of
autism, emotional disturbance, other health
impairment, speech, and learning
disability.150
b. The committee agreed that Student’s special
education assessments would begin once he

148

Tr. at 138 (Folger); Petitioner Ex. 13 at 23; Respondent Ex. 14.

149

Tr. at 751 (Mother); Petitioner Ex. 13 at 3-4, 23; Petitioner Ex.
37 at 5; Respondent Ex. 13 at 1a; Respondent Ex. 14.
150

Respondent Ex. 30 at 1, 3, 19.

App. 123
transitioned from Nottingham to the TOTAL
program.151
96.

On January 23, 2015, Mother signed a receipt
stating she had received a Notice of Procedural
Safeguards, but she did not have a chance to
read the information before signing the
receipt.152

97.

In Assistant Principal Folger’s opinion, Student
was timely referred for a special education
evaluation.153

98.

The FIE report completed on February 24, 2015,
identified Student as a child with an Emotional
Disturbance who is eligible for special education
services.154
a. Members of the multidisciplinary team who
evaluated student included Ms. Frederick,
Ms. Murphy, and Susan Munsterman, M.Ed.,
Educational Diagnostician.155

151

Tr. at 139 (Folger); Petitioner Ex. 13 at 8-9, 15; Respondent Ex.
13 at 1-1a, 9-10.
152

Tr. at 934-935 (Teater); Tr. at 937-939 (Mother); Respondent Ex.
30 at 4.
153

Tr. at 123-124 (Folger).

154

Respondent Ex. 2; Petitioner Ex. 15; see also Respondent Ex. 1
at 1, 19, 25.
155

Petitioner Ex. 15 at 27.

App. 124
b. According to the FIE, Student had failed the
second 9-weeks grading period in Language
Arts, Math, and Social Studies.156
c. The FIE stated that, by the date of the
report, Student had 14 disciplinary
infractions including: (1) refusal to follow
adult directions; (2) profanity; (3) verbal
threats; (4) leaving class without permission;
(5) touching the teacher’s instructional
materials without permission; and
(6) physical aggression toward adults.157
d. The team looked for all areas of disability in
addition to autism, other health impairment,
speech impairment, emotional disturbance,
and a learning disability, as listed in the
parental consent form.158
e. Because Parents raised concerns that
Student might be exhibiting characteristics
consistent with Autism Spectrum Disorder,
the FIE multidisciplinary team administered
the Autism Spectrum Rating Scales (ASRS).
The team assessed Student’s emotional and
behavioral functioning using the Behavior
Rating Inventory of Executive Function
(BRIEF), observed him in the TOTAL
classroom, and obtained a self-report of his

156

Respondent Ex. 2 at 10.

157

Respondent Ex. 2 at 19.

158

Tr. at 517 (Frederick).

App. 125
behaviors using a standardized behavior
rating scale (BASC2-SRP).159
f. The multidisciplinary team concluded that
Student did not meet the criteria for Autism
Spectrum Disorder because the assessment
data did not indicate verbal or nonverbal
communication needs or the presence of
restricted, repetitive patterns of behavior
interests, or activities negatively impacting
Student’s educational functioning. The
multidisciplinary team found that Student is
best described as a child with poor emotional
and behavioral regulation who meets criteria
for Emotional Disturbance.160
g. The FIE team found Student to meet special
education eligibility for Emotional
Disturbance due to inappropriate feelings or
behaviors under normal circumstances.
“Normal circumstances” means there has
been no significant trauma in Student’s life
over a long period of time that would cause
the difficulty with emotional and behavioral

159

160

Petitioner Ex. 15 at 20-24.

Tr. at 596, 627-628 (Murphy); Petitioner Ex. 15 at 3, 7, 16-17,
25-26; Respondent Ex. 2 at 25-26. While much evidence was
presented regarding Student’s Autism Spectrum Disorder
diagnosis, the appropriateness of the FIE and hence, the
multidisciplinary team’s finding that Student is eligible for special
education services as a child with an Emotional Disturbance but
not autism, is not at issue in this proceeding.

App. 126
regulation; the team ruled out sociological
and physical problems.161
h. The multidisciplinary team concluded that
the intensity and severity of Student’s
emotional and behavioral deficits appear to
be the primary cause of his educational
difficulties and intensive intervention is
necessary.162
i. Having worked with Student in the Adaptive
Behavior program at Ridgecrest from March
through May 2015, Ms. Bezerra, a certified
autism specialist, believes the FIE team
correctly determined Student meets the
criteria for Emotional Disturbance rather
than falling on the autism spectrum.163
j. Ms. Murphy believes Student is not on the
autism spectrum because Student did not
exhibit restricted or repetitive behaviors in
the educational setting that were impairing

161

Tr. at 557, 597-598 (Murphy).

162

Tr. at 596, 627-628 (Murphy); Petitioner Ex. 15 at 3, 7, 16-17,
25-26; Respondent Ex. 2 at 25-26. While much evidence was
presented regarding Student’s autism spectrum diagnoses, the
appropriateness of the FIE and hence, the multidisciplinary team’s
finding that Student is eligible for special education services as a
child with an Emotional Disturbance and not autism, is not at
issue in this proceeding.
163

Tr. at 837 (Bezerra).

App. 127
his learning,
historically.164

either

currently

or

k. Ms. Frederick is certain that the
multidisciplinary team reached the correct
conclusion when determining that Student
does not fall on the autism spectrum. She
does not believe that Student’s social deficits
are related to autism. Student’s receiving
speech articulation therapy at the age of 3 is
irrelevant in determining whether he is on
the autism spectrum.165
l. When autism is one of the suspected areas of
disability, Ms. Frederick looks at how the
child is using language and communication
across multiple contacts. Her assessment of
Student involved his interaction with peers
and adults in the TOTAL program, where
four students were in the classroom.166 She
observed Student’s verbal and nonverbal
communication for about 3 hours per day on
2 separate days and also observed Student
transitioning to the playground.167
164

Tr. at 574-576, 580 (Murphy). The FIE team did not administer
the ADOS paired with the Autism Diagnostic Review Revised,
which Ms. Murphy described as the “gold standard” for autism
evaluations. Tr. at 578 (Murphy). The Monarch team administered
the ADOS to Student. Petitioner Ex. 12 at 6, 12-14.
165

Tr. at 527-528, 556-557, 559 (Frederick).

166

Tr. at 518, 541 (Frederick); see Respondent Ex. 2.

167

Tr. at 535-536, 540 (Frederick).

App. 128
m. While Student is capable of using pragmatic
language, he might not do so in a volatile,
stressful or emotionally-charged situation.
Failure to use pragmatic language in an
emotionally-charged situation does not
necessarily mean that Student is on the
autism spectrum.168 Ms. Frederick observed
Student kicking and yelling at a teacher
three or four times, for about a minute per
time, and said he probably was not using
appropriate language at the time to explain
why he was upset. She did not observe
Student in an extended altercation and did
not ask for any of his language samples from
those situations.169
n. Mr. Barbier, Student’s teacher in the
Nottingham general education classroom
before Student was moved to the TOTAL
program, reported to Ms. Frederick that
Student exhibited average receptive and
expressive language skills.170
o. The scores on Student’s standardized
language assessment are not consistent with
those of a child with autism. Student
received an above-average score on the

168

Tr. at 550, 556 (Frederick).

169

Tr. at 551-552 (Frederick).

170

Tr. at 520 (Frederick).

App. 129
nonliteral language subtest and an average
score on the pragmatic language subtest.171
p. As part of the FIE, Ms. Munsterman
observed Student in the TOTAL classroom on
February 6, 2014, during yoga class. Initially,
Student was asleep. He woke up and
appropriately participated in the class. She
did not see Student engaged in any academic
tasks, thus did not observe his reactions
when the demand of school work completion
was placed on him.172
q. In conducting her portion of the FIE, Ms.
Murphy reviewed Student’s records from The
New School, spoke with Dr. Wright, and
administered the Vineland Adaptive
Behavior Scales, Second Edition; the
Behavior Assessment System for Children
completed by Parents, two classroom
teachers, and Student; Autism Spectrum
Rating Scales; and the Behavior Rating
Inventory of Executive Function, Incomplete
Sentence Blank.173
r. Ms. Murphy observed Student doing
Language Arts and Math activities in the
TOTAL classroom. During Math, he was
working with a preferred adult, and he was

171

Tr. at 520-521, 523, 525 (Frederick).

172

Petitioner Ex. 15 at 15-16.

173

Tr. at 310, 589-591 (Murphy); see Respondent Ex. 2 at 1-2.

App. 130
having some difficulty getting through the
assignment, so the adult was prompting him.
Ms. Murphy observed little engagement,
some sleeping, some work refusal, and not a
lot of work production by Student. His
teachers were decreasing the work demands
as a primary means of keeping him calm and
it did keep the aggression down.174
s. Ms. Murphy determined that Student “still
demonstrates a persistent pattern of
inattention, hyperactivity, impulsivity, angry
and irritable mood, and argumentative,
defiant behavior which is consistent with his
previous diagnoses of ADHD and ODD.”175
t. Ms. Murphy’s recommendations as contained
in the FIE take into account Student’s ADHD
diagnosis. She recommended that a smaller
student/teacher ratio, more structure, and
routine such as offered in the Adaptive
Behavior program would benefit him.176
u. In order to help the FIE team identify
Student’s problematic behaviors within the
school setting, Student’s classroom teachers
completed standardized behavior rating
scales (BASC/2-TRS). Scores fell within the
clinically significant range in the following

174

Tr. at 569-570 (Murphy).

175

Respondent Ex. 2 at 25.

176

Tr. at 572 (Murphy); Respondent Ex. 2 at 26-27.

App. 131
areas: Hyperactivity (the tendency to be
overly active, rush through work or activities,
and act without thinking); Aggression (the
tendency to act in a physically or verbally
hostile manner that is threatening to others);
Conduct Problems (the tendency to engage in
rule-breaking behavior); Atypicality (the
tendency to behave in ways that are
immature or considered odd); Withdrawal
(the tendency to evade others to avoid social
contact); and Social Skills (significant
difficulty with the skills necessary to
successfully interact with peers and
adults).177
v. According to the FIE report, examples of
items Student’s teachers endorsed as
problematic were: bothers other children
when they are working; acts without
thinking; has poor self-control; does not wait
to take turn; argues when denied own way;
loses temper too easily; defies teachers; calls
other children names; threatens to hurt
others; annoys others on purpose; breaks the
rules; disobeys; sneaks around; uses others’
things without permission; gets into trouble;
picks at things (nails, clothing); acts
strangely; refuses to join group activities;
avoids other children; and has trouble
making new friends.178

177

Petitioner Ex. 15 at 19-20.

178

Petitioner Ex. 15 at 20.

App. 132
w. According to the FIE, school staff reported
that when working with Student one-on- one,
he can be personable and enjoyable to talk
with. School staff reported that Student has
significantly more problems with his social
and behavioral functioning in larger
environments.179
x. The
FIE
multidisciplinary
team
recommended that the ARD committee
consider eligibility for special education for
Student in the area of Emotional
Disturbance, noting that Student had
developed some friends at school, responds
appropriately to praise and rewards, and is
creative and enjoys drawing. The
multidisciplinary team stated Student would
need a highly-structured predictable
environment with significant amounts of
positive individual attention and immediate
feedback regarding behavioral performance;
regular opportunities for physical movement
throughout the day (“brain breaks”); direct
instruction in the areas of self-regulation and
control by teaching, modeling, and practicing
coping strategies and replacement behaviors
to increase prosocial behaviors in the
educational setting, starting with
replacement behaviors for physical
aggression, verbal aggression, and leaving
his assigned area without permission, as
these pose a significant safety risk to Student
179

Petitioner Ex. 15 at 19.

App. 133
and others; a safe place to cool off; and social
skills instruction with a focus on effectively
resolving peer conflict and compromising
with others. The multidisciplinary team also
made recommendations to address Student’s
executive dysfunction.180
y. The FIE team recommended: (1) a highlystructured, predictable environment with
positive individual attention with
opportunity for physical movement; (2) direct
instruction in the areas of self-regulation and
behavioral control; (3) a safe place to cool off;
(4) social skills instruction; and
(5) accommodations to assist with executive
functioning.181
z. The FIE recommendations and Monarch’s
recommendations are essentially the same.
The majority of the recommendations from
Monarch are about emotional and behavioral
regulation and social skills development as
are the FIE recommendations.182
aa. Ms. Murphy’s recommendations did not
include the use of restraints because they are
not a form of behavior management, but

180

Petitioner Ex. 15 at 26-27. Drawing seems to soothe Student.
Tr. at 360 (Father); Petitioner Ex. 2.
181

Respondent Ex. 2 at 26-27.

182

Tr. at 584 (Murphy).

App. 134
rather to be used to protect the child or
someone else.183
99.

A Functional Behavior Assessment (FBA) for
Student was completed on March 4, 2015.
a. The FBA stated Student left the classroom
without permission when demands or
requests were made, consequences were
imposed, or Student was subjected to
correction or redirection.184 Starting in
August 2014, Student left the classroom
without permission two or three times per
day for between 10 minutes and 45 minutes
at a time.185
b. According to the FBA, Student had engaged
in verbal aggression at least once per day for
1 or 2 minutes at a time since the first day of
school. Responses that seemed to decrease
the behavior included avoiding power
struggles, giving Student frequent breaks to
read or draw, and a reinforcement system
with short-term goals.186
c. According to the FBA, Student had engaged
in physical aggression at least one or two

183

Tr. at 611 (Murphy); Tr. at 721 (Fernandez).

184

Petitioner Ex. 16 at 29-30, 36-37; Respondent Ex. 1 at 26.

185

Petitioner Ex. 16 at 29; Respondent Ex. 1 at 26.

186

Petitioner Ex. 16 at 31-32, 36; Respondent Ex. 1 at 28.

App. 135
times per week, for 5 minutes at a time, since
the first day of school.187
100.

Formal and informal data collected between
August 2014 and March 2015 suggested
concerns with Student’s emotional and
behavioral regulation.188

101.

From August 2014 to March 2015, Student had
14 referrals for noncompliance, profanity and
threats, leaving class without permission,
touching the teacher’s materials without
permission, and physical aggression.189

102.

An ARD committee meeting was held on March
11, 2015, to consider the FIE and FBA, among
other things. The ARD committee determined
that Student met eligibility criteria for special
education with the primary disability of
Emotional Disturbance.190 Because Student’s
behavior impedes his own learning or that of
others, a BIP was developed to modify the
Student Code of Conduct for Student.191
a. The ARD committee determined that
Student’s disability affected his progress in

187

Petitioner Ex. 16 at 32-35; Respondent Ex. 1 at 29.

188

Respondent Ex. 1 at 25.

189

Respondent Ex. 1 at 25.

190

Petitioner Ex. 16 at 1-2.

191

Petitioner Ex. 16 at 1-2.

App. 136
all general education curriculum classes192
and proposed placement in the Adaptive
Behavior program at Ridgecrest.
b. Mother expressed concern about yet another
transition for Student but ultimately agreed
with Student’s placement at Ridgecrest
because Ms. Teater, a District Coordinator
for Special Education, assured her that it
was the best placement for Student, that he
would get what he needed, and he would
improve a lot. Mother deferred to Ms.
Teater’s judgment because Ms. Teater is an
educator.193
c. Parents wanted assurances that Ridgecrest
staff could handle Student without police
involvement, because Student had been so
traumatized by his interaction with police at
Nottingham and bringing police in would not
de-escalate a situation. Ms. Murphy assured
Parents that the special education teachers
at Ridgecrest are highly trained and that
police intervention would not be necessary
but that a gym teacher might be called in to
assist if things got out of control.194

192

Respondent Ex. 1 at 3.

193

Tr. at 756 (Mother).

194

Tr. at 757-758 (Mother). Mother refers to TOTAL program staff
in her testimony, but apparently meant Ridgecrest staff. Student’s
FIE contained no statement that he was traumatized by
interaction with police on January 13, 2015, at Nottingham. At

App. 137
103.

A preponderance of the evidence establishes that
the District was aware of Student’s ADHD,
Combined Type diagnosis as early as August
2014.

104.

A preponderance of the evidence establishes that
by October 1, 2014, the District was aware of Dr.
Rosin’s diagnoses of Student as a child with
ADHD, Mood Disorder, and ODD, as well as
being gifted.

105.

A preponderance of the evidence establishes that
Mother’s request for a special education
evaluation, due to her suspicion that Student
has Autism Spectrum Disorder, was made and
rejected at Student’s Section 504 committee
meeting on October 8, 2014.

106.

A preponderance of the evidence establishes
that, by the October 28, 2014 accrual date for
this proceeding, the District should have
suspected that Student had areas of disability
that had not been evaluated and for which he
might be eligible for special education and
related services.

107.

A preponderance of the evidence establishes that
despite being aware of Student’s medical
diagnoses no later than October 1, 2014, the
District did not evaluate Student in all areas of
suspected disability until February 2015 and did

Ridgecrest, Ms. Bezerra was with Student twice when police were
present and did not observe him to be anxious. Once, he was in his
seat drawing or reading. Tr. at 810-812 (Bezerra).

App. 138
not offer him special education and related
services until March 23, 2015.
108.

The District did not timely refer Student for a
special education evaluation.

Issue 2:
Did the District fail to provide a FAPE to Student
during the 2014-15 school year?
109.

Student was in the general education classroom
at Nottingham from August 24, 2014, to January
25, 2015; was moved to the TOTAL program
from January 26, 2015, to March 13, 2015, as a
behavioral intervention while the District
completed his FIE; and, on March 23, 2015, after
Spring Break, was placed in the Adaptive
Behavior program at Ridgecrest, where he
finished the school year. Student has not
returned to the District for school.

110.

The general education classroom at Nottingham
was not appropriate for Student due to the class
size, overstimulation, and unrealistic
expectations placed on him as a student.
Student was expected to be at school on time, to
be able to sit quietly in the classroom with his
peers, and to be able to receive instruction like
the other students. Student cannot do that
successfully.195

111.

By November 2014, Father believed that
Parents were not always notified when Student

195

Tr. at 172-173 (Powell-Williams).

App. 139
got in trouble and that Student’s teachers had
given up on him.196
112.

By January 2015, before leaving Nottingham,
Student had failing grades and excessive
absences due to his resistance to attending
school, as well as multiple in-school and out-ofschool suspensions for verbal aggression,
physical aggression, and eloping from the
classroom.197

113.

From September 9, 2014, through January 22,
2015, Student was absent 20 times and tardy
nine times.198

114.

On January 23, 2015, Student’s Section 504
committee decided, with Parents’ approval, that
he would move to the TOTAL program effective
January 26, 2015.
a. Of concern were Student’s failing grades and
excessive absences, as well as multiple outof-school suspensions and his recent physical
aggression towards teachers.199

196

Petitioner Ex. 22 at 137-138.

197

Tr. at 714,716 (Fernandez); Petitioner Ex. 13 at 8-9, 15;
Respondent Ex. 2 at 10; Respondent Ex. 13 at 1-1a, 9-10;
Respondent Ex. 19.
198

199

Petitioner Ex. 35 at 5.

Tr. at 714, 716 (Fernandez); Petitioner Ex. 13 at 8-9, 15;
Respondent Ex. 13 at 1-1a, 9-10.

App. 140
b. The committee completed a re-evaluation
that included a number of academic and
behavioral accommodations such as daily
communication with Parents.200
c. The committee created a BIP identifying
target behaviors as: (1) complete assigned
tasks with no more than three verbal
prompts; (2) use appropriate school language
instead of profanity, threats, or other forms
of verbal aggression; and (3) when
emotionally escalated, access a safe place to
cool down.201
d. The BIP was put in place before Student
went to the TOTAL program to make sure
Student was as supported as possible
knowing that Nottingham staff had observed
an increase in his misbehavior.202
e. An initial transition plan was developed for
Student to attend the TOTAL program for
full days beginning on January 26, 2015,
with Mother on campus, as a way for Student
to stay in school.203
200

Petitioner Ex. 13 at 18-21; Petitioner Ex. 33 at 24-26;
Respondent Ex. 13 at 12-13; see Petitioner Ex. 15 at 8-9.
201

Petitioner Ex. 13 at 18-21; Petitioner Ex. 33 at 24-26;
Respondent Ex. 13 at 12-13; see Petitioner Ex. 15 at 8-9.
202

203

Tr. at 725-726 (Fernandez).

Tr. at 607 (Murphy); Petitioner Ex. 13 at 16; Respondent Ex. 13
at 10, 17.

App. 141
f. Parents were concerned that moving Student
to the TOTAL program would be disruptive
and tough on him, but did not want to send
Student back to Nottingham even with a
different teacher because Student had been
traumatized by the incident of physical
aggression with Ms. Breidenthal and Parents
felt he was in a cycle in which the escalating
behavior would continue if he returned to
Nottingham.204
g. Mother asked the Section 504 committee if,
instead of going to the TOTAL program,
Student could have a teacher work one-onone with him at home. The Section 504
committee rejected the suggestion.205
115.

Student attended the TOTAL program from
January 26, 2015, to March 13, 2015.
a. Formally, the District’s TOTAL program is a
disciplinary alternative education program
(DAEP) for elementary school students.
TOTAL is a therapeutic environment to help
students get back on track with their
behavior.206

204

Tr. at 372, 379 (Father); Tr. at 752 (Mother); Petitioner Ex. 37
at 5.
205

206

Tr. at 774 (Mother).

Tr. at 704, 726 (Fernandez); Petitioner Ex. 13 at 2; Respondent
Ex. 13 at 1a.

App. 142
b. Until the FIE could be completed, Student’s
Section 504 plan, including a BIP, remained
in place.207
c. Parents were not aware that, in the TOTAL
program, Student would sometimes spend
time in an isolation room.208 The isolation
room is a small office with a window where
students may go with a teacher when a
lighter environment was needed or the
student needed to work without being
distracted by others. The isolation room is a
place for students to take a break from what
is happening in the classroom and is not
necessarily punitive. The teacher could have
been referring to the small office when
stating in Student’s February 11, 2015
progress note that Student was in the
“isolation room, left at 11:00 a.m.” and that
he spent the entire day there on February 4,
2015, and again on February 24, 2015. 209
d. The behavior chart was not being used
properly when “isolation room” was written
at the top. The purpose of the chart was for
the teacher’s assessment of Student and his

207

Respondent Ex. 13 at 2, 14-16.

208

Tr. at 379 (Father); Respondent Ex. 25 at 5.

209

Tr. at 706, 708, 710, 713; Petitioner Ex. 40; Respondent Ex. 25
at 5 (Fernandez).

App. 143
self-assessment to match, so he could become
more self-aware of his behavior.210
e. In the beginning, in the TOTAL program,
Student mainly slept because he was very
stressed and traumatized. The TOTAL
classroom was in a building next to the
District police station, and Student was very
scared about being that close to the police
building.211
f. A school police officer could be called in when
there was an emergency, but TOTAL staff
did not want to do that because Mother had
expressed that Student was very anxious and
TOTAL staff was concerned about how he
would feel if he saw a police officer in
uniform.212
g. When Student was at the TOTAL program,
he had access to the TEKS curriculum
through work sent over by the Nottingham
teachers.213

210

Tr. at 719-721 (Fernandez); Petitioner Ex. 40.

211

Petitioner Ex. 37 at 6.

212

Tr. at 717 (Fernandez).

213

Tr. at 716-717 (Fernandez).

App. 144
h. In the TOTAL program, Student was allowed
not to complete assignments, which was not
appropriate for Student.214
i. While Student was challenging at the
beginning of his time in the TOTAL
classroom, by the end, he began to bond with
the teacher; he was able to do a significant
amount of work, and his grades went from
F’s to A’s and B’s.215
j. As of March 11, 2015, Student’s report card
for the third 9-weeks grading period reflected
failing grades.216 On March 26, 2015, the
District issued a correction to Student’s
grades for the third 9-weeks period, during
which time Student was at the TOTAL
program, showing grades ranging from 85 to
100.217
k. Student was allowed to call Mother when he
was in the TOTAL classroom.218
l. In a February 23, 2015 email to school
personnel, Mother stated that since starting
in the TOTAL program, Student had begun

214

Tr. at 606 (Murphy).

215

Respondent Ex. 13 at 17; Petitioner Ex. 37 at 6.

216

Respondent Ex. 1 at 25.

217

Petitioner Ex. 19 at 1-2.

218

Tr. at 719 (Fernandez).

App. 145
sleeping through the night in his own bed
and there was an immediate improvement in
his mood and anxiety level. She
acknowledged there had been some tough
days but said the improvement was a big
change from the first semester.219 In addition,
Student stopped chewing his clothes as
much, and began to exhibit much less
anxiety and depression.220
m. The TOTAL facilitator and Student’s teacher,
Darlene Evans, followed Student’s Section
504 modifications. She had an opportunity to
work with him in a positive behavioral RtI
environment. Student demonstrated a
decrease in negative verbal responses toward
others, increased engagement in movement
opportunities, and positive social patterns
during structural movement activities in a
small setting with reduced antagonists.
Student began to engage appropriately with
classmates and family members, and slept
less in class due to increased physical
activity opportunities at school. Student
participated in Restorative Justice
(Commìnity, Healing, and Accountability)
Circles to address specific needs for
behavioral growth and development. Ms.
Evans described Student as a “bright,
creative young boy who will function

219

Petitioner Ex. 33 at 32; Petitioner Ex. 37 at 6.

220

Petitioner Ex. 37 at 6.

App. 146
successfully in a small group environment
with specially trained individuals to meet his
specific needs for social engagement.”221
116.

As of March 2015, Student had been tardy nine
times and absent 21 times since the beginning of
the school year,222 missing only 1 day of school in
the TOTAL program.

117.

On March 11, 2015, the ARD committee met and
determined Student was eligible for special
education as a child with an Emotional
Disturbance. The committee decided he would be
placed at the Adaptive Behavior special
education program at Ridgecrest, effective
March 23, 2015.223 Student moved a third time
in the 2014-2015 school year, this time to the
Adaptive Behavior program at Ridgecrest.
a. When a student first enters the Adaptive
Behavior program, teachers establish
structure by giving the student behavioral
feedback at least every 15 minutes. Instead
of using punishment to shape behavior,
teachers try to develop relationships with
students by talking about things the students
enjoy.224

221

Petitioner Ex. 20; Petitioner Ex. 33 at 43. Ms. Evans’s letter is
dated June 11, 2015.
222

Respondent Ex. 1 at 25.

223

Petitioner Ex. 37 at 6.

224

Tr. at 924-925 (Teater).

App. 147
b. Ridgecrest staff did not conduct a written
reinforcement inquiry of Parents to identify
what reinforcements were motivating to
Student. Conducting the survey is good
practice but not a requirement.225
c. Student had difficulty following directions.
However, on good days, Student did well
academically and mingled with his peers
very well. He loved to draw and read.226
d. Ridgecrest staff was aware that Student had
been identified as Gifted and Talented, but
none of his teachers were affiliated with the
Gifted and Talented program. No written
curriculum was in place to address Student’s
Gifted and Talented potential in any of his
academic areas at Ridgecrest.227 None of the
other students in the Adaptive Behavior
classroom at Ridgecrest had been identified
as Gifted and Talented.228
e. To be successful, Student needs a low
student/teacher ratio and a lot of one-on-one
attention. On average, at Ridgecrest, there

225

Tr. at 847-848 (Bezerra).

226

Tr. at 631 (Martir).

227

Tr. at 846-847, 902, 906 (Bezerra).

228

Tr. at 908 (Bezerra).

App. 148
were two students per adult throughout the
day.229
f. Sometimes at Ridgecrest, Student and
teacher had a one-on-one lesson because
Student needed to be more academically
challenged due to his cognitive skills.230
g. On at least one occasion, Student’s teacher at
Ridgecrest sat with him during a Social
Studies research assignment and offered
instruction at a level higher than that offered
to the other students. Student then worked
with another fifth grader on a project,
enriching the language of the project based
on what he had researched with the
teacher.231
h. Ms. Martir communicated by telephone with
Mother every day to inform her of Student’s
behavioral progress.232
i. Student did not do well in the Adaptive
Behavior program at Ridgecrest. Student’s
anxiety increased. He dreaded school and
tried to avoid going. He had stomach

229

Tr. at 829-830 (Bezerra); Tr. at 640 (Martir).

230

Tr. at 830 (Bezerra).

231

Tr. at 906-907 (Bezerra).

232

Tr. at 671 (Martir). Student’s behavioral issues and
consequences, including being restrained eight times, are detailed
under “Issue 3” in this Decision.

App. 149
problems. His sleeplessness came back, and
he picked at his skin and ears until they
bled.233
j. After some time at Ridgecrest, Student was
so regressed in his therapy that it was
difficult for him to desire to learn or even go
to school. It was unrealistic for him to do any
work because he was so fragile after certain
experiences he had. For him to physically be
at school was a job in itself for the day. He
would have to feel safe and comfortable being
there before he could invest in doing more.234
k. Due to Student’s heightened anxiety, a 20day plan was implemented for the end of the
school year, in which Student would attend
school from 9 a.m. until the end of the day.235
l. On or about May 17, 2015, after the
shortened school day was implemented,
Mother spoke with the special education
coordinator and the special education
diagnostician. She requested that Student
return to the TOTAL program for the
remainder of the school year. Ms. Teater, one
of the District’s special education
coordinators, and Ms. Fernandez,

233

Petitioner Ex. 37 at 6.

234

Tr. at 200-201, 203 (Powell-Williams).

235

Tr. at 384 (Father); Petitioner Ex. 37 at 7. More detailed
information is under “Issue 7” in this Decision.

App. 150
Administrative Intern for the District’s
System of Care, advised that could not be
done because Student was now a special
education student and the TOTAL program
is a general education program.236 In
addition, Ms. Teater told Mother that
Student was receiving more intensive
support in the Adaptive Behavior
classroom.237 The District would not return
Student to the TOTAL program, a DAEP for
elementary school students, because his
behavior was being addressed at
Ridgecrest.238
m. Student’s school day was shortened to 3
hours for the final 11 days of the school year.
n. Due to Student’s increased anxiety, Dr.
Powell-Williams recommended that he finish
the school year on May 29, 2015, and not
attend June 1-3, 2015. 239
o. Student’s last day at Ridgecrest was May 29,
2015.240

236

Tr. at 357-358 (Teater); Tr. at 380 (Father); Tr. at 758-759
(Mother); Petitioner Ex. 37 at 7.
237

Tr. at 930-931 (Teater).

238

Tr. at 932 (Teater).

239

Petitioner Ex. 37 at 7.

240

Tr. at 648 (Martir).

App. 151
p. Out of 40 days in Ms. Martir’s classroom,
Student exhibited at least one of the targeted
behaviors on 33 of the 40 days. The highest
behavior level he ever achieved was Level 1,
the lowest behavioral level.241
q. Student did not complete the fifth grade
curriculum, even though Ms. Martir taught
every fifth grade subject.242 Student
nevertheless mastered his academic IEP
goals.243
118.

In the fourth 9-weeks grading period, Student
was absent 12 days and tardy 7 days. 244

119.

Grades are one measure of Student’s educational
progress.245

120.

At the end of fifth grade, Student had passing
grades in all subjects except Math, in which he

241

Tr. at 680, 683 (Martir); At Level 1, students are taught about
rules, expectations, how to access help, what kind of replacement
behaviors to use, and how to negotiate needs and wants with the
teacher. Often children new to the program have difficulty with
self-regulation and need a very structured, specialized program.
IEP behavioral goals might be difficult for a child with selfregulation issues but are written to be met over 36 weeks. Tr. at
807-808,819 (Bezerra).
242

Tr. at 683-684 (Martir).

243

Tr. at 631-632 (Martir).

244

Respondent Ex. 26 at 9.

245

Tr. at 904 (Bezerra).

App. 152
had a 64 average. He had a 70 average in Math
for the fourth 9-weeks grading period,
considered to be an inadequate level of
comprehension and application.246
121.

In a June 1, 2015 progress report, Student’s
special education teacher, Ms. Martir, reported
that progress was sufficient at that time for
Student to reach his academic goals by the next
annual ARD committee meeting date of March
11, 2016.247

122.

By the end of the year, Student had not met the
behavior goals set out in his IEP.248 In a June 1,
2015 progress report, Ms. Martir reported that
progress was not sufficient at that time for
Student to reach his behavior goals by the next
annual ARD committee meeting date of March
11, 2016.249

123.

By the end of fifth grade, Student exhibited
overall unsatisfactory conduct, showing slow
progress of improvement.250

246

Tr. at 904-905 (Bezerra); Petitioner Ex. 19 at 3; Respondent Ex.
5 at 1; Respondent Ex. 26 at 9.
247

Respondent Ex. 8 at 1-2.

248

Respondent Ex. 12 at 39.

249

Tr. at 903 (Bezerra); Respondent Ex. 8 at 2-3.

250

Respondent Ex. 5 at 2-3; Respondent Ex. 26 at 9.

App. 153
124.

Petitioner proved by a preponderance of the
evidence that the District did not provide
Student a FAPE during the 2014-2015 school
year. The District did not timely fulfill its Child
Find duty as to Student. Student, who is Gifted
and Talented, had a failing Math grade at the
end of the year and had not completed the fifth
grade curriculum; was not expected to achieve
his behavioral IEP goals by the next annual
ARD committee meeting; and was only at school
3 hours per day for most of the month of May, in
contradiction to the full day required by his IEP.

Issue 3:
Did the District fail to consider providing Student
with positive behavioral supports and
interventions, including counseling?
Counseling
125.

On August 27, 2014, the District attempted to
refer Student to MHMRA, due to his
deteriorating classroom behavior, but Mother
would not sign the referral.251 The District made
no further attempts to provide Student with
counseling services.

126.

Dr. Powell-Williams had recommended that
Parents follow-up with the MHMRA suggestion
in order to have a long-term plan to assist
Student.252

251

Respondent Ex. 17.

252

Tr. at 183 (Powell-Williams).

App. 154
127.

The FIE multidisciplinary team did not
recommend providing counseling to Student as
a related service and the ARD committee did not
consider providing Student with counseling as a
related service.253

Nottingham
128.

The Section 504 Individual Services and
Accommodation Plan included with the October
2014 Section 504 meeting notes stated that
Student had a BIP. The BIP was not included in
the meeting notes.254
a. The BIP developed at the October 2014
Section 504 meeting was a Success Chart
that identified three target behaviors for
improvement; Student had input in
developing the Success Chart and agreed
with the behaviors chosen to be targeted.255
b. From November 3, 2014, through midJanuary 2015, Student’s teacher at
Nottingham used the Success Chart to
motivate Student to complete his work, not
curse, and not leave the classroom without
the teacher’s permission. If he earned seven
“smiles” in a day, he could have his choice of
the reward of drawing or sketching for 10

253

Petitioner Ex. 16; Respondent Ex. 1; Respondent Ex. 2.

254

Petitioner Ex. 10 at 19-20; Respondent Ex. 15 at 4.

255

Tr. at 120-121 (Folger).

App. 155
minutes; 10 extra minutes of computer time,
in the library if possible; or 10 extra minutes
of reading time.256
129.

While at Nottingham, Student was allowed a lot
of flexibility, given his situation, the behaviors
he was exhibiting, and Nottingham staffs daily
collaboration with Parents. By the end of the fall
semester, Student was no longer held to the
standards of District’s Student Code of
Conduct.257

130.

As of December 2014, Student was participating
in weekly group social skills building sessions at
school.258

131.

As of December 2014, Student was attending
weekly counseling sessions with his private
therapist, Dr. Powell-Williams. He and Parents
had seen Dr. Powell-Williams since 2013.259

TOTAL program
132.

While in the TOTAL program from January 26,
2015, through March 13, 2015, Student worked
toward accomplishing four academic/behavioral
goals: (1) refraining from using inappropriate
verbal and physical behavior, including

256

Respondent Ex. 13 at 24-29.

257

Tr. at 100 (Folger).

258

Petitioner Ex. 12 at 2.

259

Petitioner Ex. 12 at 2; Petitioner Ex. 17 at 1.

App. 156
gesturing, language, and touching (Be Nice);
(2) complying with classroom rules/procedures
(3) staying in assigned area; and (4) completing
modified work.260
133.

To assist Student in reaching the four goals, the
following activities were followed with respect to
each of the goals: (1) remove Student from
activity; (2) teacher turn/Student turn in 10minute increments, and persistent reminder of
the rule with removal of the distraction or
activity after the third reminder; (3) provide
choice of seating with minimal distractions and
antagonists; and (4) provide modified work with
10-minute time for completion, provide timer,
and verbally remind Student of what is next.261

134.

During the week of January 26-30, 2015,
Student stayed in his assigned area for 3 of the
days, but met none of the other goals. On
January 29, 2015, he slept most of the day and
on January 30, 2015, did not receive credit for
staying in his assigned area, due to sleeping.262

135.

During the week of February 2-6, 2015:
a. Student’s daily progress for the first goal
varied from a high of 86 percent on February
2, 2015, to a low of 29 percent on February 3,

260

Respondent Ex. 25.

261

Respondent Ex. 25.

262

Respondent Ex. 25 at 1-2.

App. 157
2015, when he stabbed his teacher’s left palm
with a pencil, leaving an indentation.
Student’s daily progress for the second goal
varied from 33 percent to 100 percent.
Student’s daily progress for the third goal
ranged from 33 percent to 90 percent.
Student’s daily progress for the fourth goal
ranged from 28 percent to 56 percent.263
b. On February 4, 2015, Student spent all day
in the isolation room.264
c. Progress notes indicate that the more
movement Student engaged in, the more
work he completed.265
d. Student went for the “wow” factor in line
formation sometimes, telling his teacher that
the acting out was worth the consequences.266
136.

During the week of February 9-13, 2015:
a. Student’s overall daily averages ranged from
0 percent (when he would not record his
progress then lost the progress sheet) to 74
percent.267

263

Respondent Ex. 25 at 3-4.

264

Petitioner Ex. 40 at 1.

265

Respondent Ex. 25 at 3-4.

266

Respondent Ex. 25 at 3-4.

267

Respondent Ex. 25 at 6.

App. 158
b. On February 10, 2015, he called his teacher
a “stupid bitch” and wrote an apology letter
stating, “I am sorry I called you a stupid
bitch even if it’s true.” On that same day, he
drew a picture, wrote the teacher’s name on
it, then glued it to the punching bag and
began punching the picture. Also on
February 10, 2015, Student threw a pencil at
the teacher’s right cheek from about 8 feet
away.268
c. On his first day at the TOTAL program,
Student was unable to jump rope with both
feet together; Student could now jump rope
with feet together seven consecutive times.
For the first time, he drew a picture with
someone smiling; the person was jumping
rope. On the same page, he drew a person
with an angry face who was doing school
work/writing.269
137.

For the week of February 16-20, 2015, Student’s
overall daily averages toward meeting the four
behavior/academic goals ranged from 16 percent
to 96 percent.270

138.

For the week of February 23-27, 2015:

268

Respondent Ex. 25 at 6.

269

Respondent Ex. 25 at 6.

270

Respondent Ex. 25 at 8-10.

App. 159
a. Student’s overall daily averages toward
meeting the four behavior/academic goals
ranged from 19 percent on February 27,
2015, when he slept from 8 a.m. until noon,
to 52 percent on February 24, 2015, when he
spent time in isolation.271
b. On February 24, 2015, Student spent all day
in the isolation room. When he was supposed
to be in isolation, he climbed on top of a
bookcase then sat on top of a storage box
instead, finally moving to a chair in the
isolation room after about 15 00minutes.272
c. His drawings this week were less violent.273
d. He did not always stay in his assigned area:
he emptied a cubby box on the counter,
climbed inside it to sit, then stood on the
counter grinning and displaying the peace
sign.274
139.

For the week of March 2-6, 2015:
a. Student’s overall weekly average toward
meeting the four behavior/academic goals
was 50 percent.275

271

Respondent Ex. 25 at 11-13.

272

Petitioner Ex. 40 at 2.

273

Respondent Ex. 25 at 11-13.

274

Respondent Ex. 25 at 11-13.

275

Respondent Ex. 25 at 14-16.

App. 160
b. On March 5, 2015, Student was sent home at
10:30 a.m. after he chased and grabbed
another boy, stating he wanted to hurt him;
kicked his teacher; threw a full water bottle
at his teacher; called his teacher a “bitch;”
and refused to write an apology letter.276
140.

For the week of March 9-13, 2015, Student’s
final week in the TOTAL progrom:
a. Student’s overall weekly average toward
meeting the four behavior/academic goals
was 44 percent.277
b. Student began chewing on his shirt sleeve, a
behavior he had not displayed since his first
week in the TOTAL program.278
c. He was dismissed early on March 12, 2015,
due to aggression toward a classmate.279

Ridgecrest
141.

Student attended school in the Adaptive
Behavior classroom at Ridgecrest from March
23, 2015, through May 29, 2015, missing the last
week of school, which ended June 3, 2015, upon

276

Respondent Ex. 25 at 14-16.

277

Respondent Ex. 25 at 17-19.

278

Respondent Ex. 25 at 17-19.

279

Respondent Ex. 25 at 17-19.

App. 161
the advice of Dr. Powell-Williams due to his
heightened anxiety.280
142.

The Adaptive Behavior program addresses
student’s relationships with other people by
trying to build strong relationships with the
teaching staff, having project-based activities
with the other children, and addressing
inappropriate interactions.281

143.

The Adaptive Behavior program is a positive
behavior program with individualized strategies
and resources.282

144.

The March 11, 2015 ARD committee determined
that Ridgecrest staff would manage Student’s
behavior by providing: clearly defined limits;
frequent reminders of rules; positive
reinforcement; frequent eye contact/proximity
control; frequent breaks; private discussion
about his behavior; supervision during
transition activities; and a cooling-off area.
Ridgecrest staff was to follow Student’s BIP and
consult with an LSSP to assist with the BIP.283

145.

Ms. Bezerra was the sole LSSP for the Adaptive
Behavior unit and was there 3 days per week for
some part of the day. When she interacted with

280

Petitioner Ex. 37 at 7; Respondent Ex. 26 at 9.

281

Tr. at 823-824 (Bezerra).

282

Tr. at 820 (Bezerra); Tr. at 639 (Martir).

283

Respondent Ex. 1 at 8.

App. 162
Student, he was mostly cooperative. Except for
when he was in crisis, he was a student like any
other.284
146.

If there was no physical aggression for a specific
number of consecutive days, at the end of the
day, Student would be allowed to go into a
treasure box supplied by Mother. If he earned a
certain number of points, he would be allowed to
call Mother using FaceTime with a school iPad,
which worked for Student.285

147.

Drawing is a reinforcer as well as a calming
strategy for Student. He was allowed to draw
during the 10-minute reinforcement time at the
end of each 35-minute class period, if he had
done what he was supposed to do, or sooner, if
he finished his work for the class. But even
when he acted out, he was allowed to draw or
read during the Take Five or Take Ten timeouts.286

148.

After Mother expressed concern about the
paraprofessional with whom Student had issues,
Ms. Bezerra modeled to the paraprofessional
how to make requests and how to redirect
Student.287

284

Tr. at 789-790 (Bezerra).

285

Tr. at 639 (Martir).

286

Tr. at 894-897 (Bezerra); Tr. at 638 (Martir

287

Tr. at 790-791 (Bezerra).

App. 163
149.

Student’s Behavioral Management Plan
Progress Summary Report (Report), covering
from the plan start date of March 23, 2015,
through May 29, 2015, showed that Student met
behavioral goals on 23 of the 49 days he was at
Ridgecrest, with 8 absences.288
a. According to the Report, Student complied
with classroom rules, such as following
directions and staying on task, between 7174 percent of the time over the 40-day
period.289
b. Neither Student’s IEP goals nor his FBA
contain a baseline percentage to measure
against his performance for each goal over
the course of his time at Ridgecrest.290
c. In March 2015, Student scored 72 percent on
all three of his IEP goals.291
d. According to the Report, by the end of the
year, Student scored 74.5 percent overall on
the IEP goal of expressing anger

288

Tr. at 801, 872-873 (Bezerra); Respondent Ex. 9 at 8. The 1 day
on which the session was not completed is not counted, leaving 40
days counted. Tr. at 805 (Bezerra).
289

Respondent Ex. 9 at 8.

290

Tr. at 877-879 (Bezerra); Respondent Ex. 1 at 6, 26-29.

291

Tr. at 874-875 (Bezerra); Respondent Ex. 9 at 8.

App. 164
appropriately, not quite reaching the goal
related to verbal aggression.292
e. According to the Report, by the end of the
year, Student scored 75.6 percent overall on
reaching the IEP goal of remaining in his
designated area. Student’s assigned area was
2.5 feet around the perimeter of his desk,
marked with tape. If Student left the
assigned area without permission, he would
be redirected to stay in the area, as a way of
teaching him the rules.293
f. According to the Report, by the end of the
year, Student scored 80 percent overall on
the IEP goal of choosing a replacement
behavior when angry or frustrated as relates
to his physical aggression goal.294
g. Using the 72 percent achievement rate for
March 2015 as a baseline, the data shows
Student was making progress toward

292

Tr. at 805-806 (Bezerra); Respondent Ex. 9 at 8.

293

Tr. at 805-806, 852-854 (Bezerra); Tr. at 640 (Martir);
Respondent Ex. 9 at 8; Petitioner Ex. 41.
294

Tr. at 805-806 (Bezerra); Respondent Ex. 9 at 9. Ms. Bezerra
explained that the goal could not be 100 percent because Student
was new to the Adaptive Behavior program and it would not be fair
to expect 100 percent of his behavior to be correct. Tr. at 815
(Bezerra). She also said you must teach a child replacement
behaviors before a crisis, although you might model the behaviors,
such as taking a deep breath, during the crisis. Tr. at 817-818
(Bezerra).

App. 165
mastering his IEP goals by the time he left
Ridgecrest in May 2015.295
h. According to the Report, Student verbally
threatened peers and adults on 11 of the
scored 40 days; moved out of his assigned
area without teacher permission on 15 days;
and physically attacked peers or adults on 7
days.296
i. According to the Report, Student had 24 inclass incidents and seven office referrals
during the 40-day period.297
150.

At Ridgecrest, Student’s teacher, Ms. Martir,
tracked his behavior in 15-minute increments
throughout the day, with the possibility of him
earning four points per hour or 28 points for the
7-hour day.298

151.

Ms. Martir used an impulse control system,
beginning with redirection, then a warning,
followed by two warnings, and time-out. If a
student refuses to go to time-out, the student is
subject to automatic time-out, then to automatic

295

Tr. at 876 (Bezerra); Respondent Ex. 9.

296

Tr. at 806 (Bezerra); Respondent Ex. 9 at 9. Ms. Bezerra said
Student never physically attacked another child. The goal is
written to include peers so as to address physical aggression in its
totality. Tr. at 806 (Bezerra).
297

Respondent Ex. 9 at 9.

298

Respondent Ex. 10.

App. 166
isolation; then to office referral, which means
that the administrator would come into the room
and try to use calming techniques to de-escalate
the student. When the student is ready to start
his time, he goes to re-entry.299
152.

Over his 40 days at Ridgecrest, Student was
sent to automatic time-out on 16 days, for what
could have been more than one time per day.
The time-out desk is inside the classroom next to
the windows and is not a separate room.300

153.

On March 23, 2015, Student’s first day in the
special education classroom at Ridgecrest, he
engaged in name calling, cursing, backtalk,
disobedience, leaving his seat without
permission, and off-task behavior for 3 hours.301

154.

On March 24, 2015, Ms. Martir emailed Ms.
Bezerra, the LSSP assigned to Ridgecrest, and
asked for intervention or strategy suggestions,
noting that Student was having a rough time
adjusting, had been verbally aggressive with
teachers, had not responded to positive
reinforcement, and was sleeping in class.302

299

Tr. at 673, 676 (Martir); see also Tr. at 802 (Bezerra).

300

Tr. at 662, 666 (Martir); Respondent Ex. 9-8.

301

Petitioner Ex. 41 at 290-292.

302

Petitioner Ex. 41 at 293; Respondent Ex. 12 at 1.

App. 167
155.

Student’s BIP included with his IEP does not
state that restraints would be used.303

156.

Ms. Martir verbally informed Parents that
restraints would be used in the classroom, but
did not inform them in writing. Parents claim
they were not aware until after the fact that
restraints would be used on Student at
Ridgecrest.304

157.

Restraints may be used when there is an
imminent risk of harm to the student or
others.305

158.

Having minimal or maximum restraints during
the year is normal for students in the Adaptive
Behavior unit.. The main goal of restraints is to
keep the child safe from himself and from
hurting peers or staff members. One of Student’s
behaviors is physical aggression, so if he was
physically aggressive and was hurting himself or
others, Ms. Martir restrained him.306

159.

Dr. Powell-Williams does not recommend
restraints for Student. Restraints can be very
difficult for Student, due to his sensory issues.
He is going to feel trapped and unable to feel in
control of his body. He will react by fighting to

303

Tr. at 660 (Martir).

304

Tr. at 653 (Martir); Tr. at 382 (Father).

305

Tr. at 887 (Bezerra); Tex. Educ. Code § 37.0021(d).

306

Tr. at 642, 653, 656, 659 (Martir); Tr. at 887 (Bezerra).

App. 168
free himself and escape; those restraining him
will probably maintain the restraint.307
160.

Ms. Martir provided Mother with a Written
Summary of Restraint Use (First Summary)
dated March 26, 2015. The First Summary
stated that Student was restrained twice
between 9 a.m. and 12:14 p.m. on March 24,
2015, after kicking, punching, and biting both
her and the other classroom teacher, Veronica
Caballero. The restraints were prompted due to
imminent serious physical harm to Student or
others and imminent serious property
destruction.308 According to the First Summary,
Ms. Martir notified Parent of the restraint via
telephone call on March 24, 2015.309

161.

Ms. Martir provided Mother with a second
Written Summary of Restraint Use (Second
Summarys) on March 26, 2015.310 According to
the Second Summary, the two-person side body
support was performed on Student four times
between the hours of 10:30 a.m. and 1:15 p.m. on
March 25, 2015, by Ms. Martir and Ms.
Caballero.311 The Second Summary states that

307

Tr. at 173-174 (Powell-Williams).

308

Respondent Ex. 11 at 1-4; Petitioner Ex. 41 at 295.

309

Respondent Ex. 11 at 4.

310

Respondent Ex. 11 at 5-8.

311

Respondent Ex. 11 at 6.

App. 169
Student was sent to automatic time-out at 10:15
a.m. on March 25, 2015, after threatening to kill
both teachers. During time-out, he tried to choke
himself and began banging his head on the
counter and floor. When the teachers tried to
keep him safe, he kicked and punched them in
the arms and abdominal area. The first restraint
was performed after physical aggression
occurred multiple times.312 Student was
restrained due to the threat of imminent serious
physical harm to himself and the teachers, and
the imminent threat of serious property
destruction.313 Ms. Martir spoke with Mother
about the restraint at 3:15 p.m. on March 25,
2015.314
162.

For an hour beginning at 7:58 a.m. on March 26,
2015, and for 105 minutes beginning at 11:20
a.m. that day, Student engaged in name calling,
cursing, leaving his seat without permission,
and failure to follow directions in the classroom.
He served time-out three times and used the
replacement behavior of reading for 5 minutes.315

163.

In incidents lasting 80 minutes early in the
morning and for an hour at lunch time on March
27, 2015, Student pushed and shoved his

312

Petitioner Ex. 41 at 294; Respondent Ex. 11 at 6.

313

Respondent Ex. 11 at 6.

314

Respondent Ex. 11 at 8.

315

Petitioner Ex. 41 at 300-301.

App. 170
teachers, called them names, used profanity,
engaged in backtalk, and failed to follow
directions. He fell asleep in class. In the
morning, he was asked five times between 8:38
a.m. and 9:30 a.m. if he was ready to serve his
time in time-out before he said he was ready; in
the afternoon, he was asked at least twice before
stating he was ready.316
164.

Student was placed in a 10-minute time-out on
March 30, 2015, for name calling, cursing, and
failing to follow directions.317

165.

Beginning at 12:39 p.m. on March 31, 2015,
Student was sent to time-out for cursing and
failing to follow directions. He did not finish
serving the 5-minute and 10-minute timeouts
until 2:28 p.m., after refusing to cooperate,
sleeping for 40 minutes, continuing to use
profanity all afternoon, and being told five times
that if he did not complete the time-outs, he
would not be allowed to get on the bus to go
home.318

166.

For 90 minutes of class time on April 1, 2015,
Student engaged in name calling, cursing,
disobedience, and did not follow directions.319

316

Petitioner Ex. 41 at 303-304.

317

Petitioner Ex. 41 at 296.

318

Petitioner Ex. 41 at 297.

319

Petitioner Ex. 41 at 298-299, 304-305.

App. 171
167.

Over a 3-hour period beginning at 8:10 a.m. on
April 2, 2015, Student engaged in verbal
aggression. After being asked 10 times from 10
a.m. to 11:30 a.m. if he was ready to serve 10
minutes in time-out, he stated he was ready.320

168.

On April 7, 2015, Ms. Martir prepared a third
Written Summary of Restraint Use (Third
Summary). According to the Third Summary, a
bear hug restraint was used on Student from
11:22 a.m. to 11:23 a.m. on April 6, 2015, after
Student punched Ms. Caballero in the abdomen.
The restraint was performed to prevent
imminent serious harm to Student or others.
Ms. Martir notified Parent of the April 6, 2015
restraint that same day, by telephone.321

169.

On April 7, 2015, Ms. Martir prepared a fourth
Written Summary of Restraint Use (Fourth
Summary). According to the Fourth Summary,
Ms. Caballero performed a bear hug on Student
from 11:59 a.m. to 12:03 p.m. on April 6, 2015,
after Student stated he hated the school and
charged at Ms. Martir with a closed fist, starting
to kick. The restraint was performed due to the
imminent threat of serious physical harm to
Student and others. Ms. Martir notified Parent
of the restraint via telephone on April 6, 2015.322

320

Petitioner Ex. 41 at 306-307.

321

Respondent Ex. 11 at 9-11; Petitioner Ex.41 at 308-309.

322

Respondent Ex. 11 at 12-14; Petitioner Ex. 41 at 308-309.

App. 172
170.

Beginning at 8:56 a.m. on April 7, 2015, Student
engaged in 3 hours of cursing, off task behavior,
being out of his seat, and failure to follow
directions in the classroom.323

171.

On April 8, 2015, Student slept in the classroom
for 92 minutes.324

172.

On April 9, 2015, Student fell asleep in class,
engaged in backtalk, was disobedient, and failed
to follow directions. He was initially asked at
8:05 a.m. to start time-out. He did not agree that
he was ready for time-out until 12:31 p.m., after
having been asked 19 times in approximately
10-minute increments.325

173.

Beginning at 7:44 a.m. on April 10, 2015,
Student failed to follow directions and was given
a warning. When he still did not follow
directions, he was given a time-out. Student was
asked 11 times between 8 a.m. and 9:35 a.m. if
he was ready to serve the time-out. At 9:36 a.m.,
Student said he was ready and he served a total
of 15 minutes of time-out.326

174.

In an email sent at 10:57 a.m. on April 13, 2015,
Ms. Martir reported that Student was currently

323

Petitioner Ex. 41 at 311.

324

Petitioner Ex. 41 at 312.

325

Petitioner Ex. 41 at 313.

326

Petitioner Ex. 41 at 314.

App. 173
on FaceTime with Mother and was having a
great day.327
175.

Beginning at 11:20 a.m. on April 14, 2015,
Student engaged in name calling, cursing, off
task behavior, left his seat without permission,
disobeyed, and failed to follow directions.328

176.

Beginning at 7:40 a.m. on April 17, 2015,
Student used profanity and engaged in physical
teasing, almost hitting another student with his
swinging backpack, then swung a chair behind
him, endangering other students.329

177.

For 206 minutes beginning at 8:25 a.m. on April
27, 2015, Student engaged in cursing and
backtalk, off-task behavior, disobedience, and
failure to follow directions. He slept in class
from 8:43 a.m. until 9:25 a.m. During time-out,
he kicked the wall twice and stepped on the iPad
three times, showed his middle finger to the
teacher, and told her to “Go die in a fire.”330

178.

In an April 30, 2015 email exchange, Ms. Martir
and Ms. Bezerra discussed arranging a
conference with Parents, noting that the idea of
having weekly conferences had not materialized

327

Petitioner Ex. 41 at 315-316.

328

Petitioner Ex. 41 at 317.

329

Petitioner Ex. 41 at 318.

330

Petitioner Ex. 41 at 319-320.

App. 174
because Mother was not available.331 Although
Mother was not available on the suggested dates
for weekly meetings, she had numerous
meetings with Ms. Teater, Ms. Martir, other
teachers at Ridgecrest, and the LSSP.332
179.

Over a 17-minute period on May 4, 2015,
Student directly refused a teacher’s request and
engaged in verbal aggression.333

180.

On May 7, 2015, Ms. Martir prepared a fifth
Written Summary of Restraint Use (Fifth
Summary). According to the Fifth Summary, Ms.
Martir and Ms. Caballero performed a two-man
side partner restraint on Student from 8:47 a.m.
to 8:49 a.m. on May 5, 2015, after Student
charged with closed fists toward Ms. Martir.
Prior to the restraint, an administrator who had
been called into the room while Student was still
escalating used Mandt techniques to help
Student regain control. Student did not choose to
keep his hands to himself. On May 5, 2015, Ms.
Martir notified Parent of the restraint via
telephone call. During the altercation, District
police were called. The District police officer
asked Student if he wanted to go to jail and if he
remembered why he had been placed in the
police car last time, referring to the January 13,
2015 incident at Nottingham. Student replied it

331

Respondent Ex. 12 at 23.

332

Tr. at 759-760 (Mother); Tr. at 831-832 (Bezerra).

333

Petitioner Ex. 41 at 323.

App. 175
was for hitting a teacher. The police officer
asked Student if he was in control or if the
teachers were and Student responded, “The
teachers are very stupid and don’t let me do
what I want.”334
181.

The police officer’s interaction with Student was
not a positive behavioral intervention.335

182.

During Student’s time at Ridgecrest, a gym
teacher was called in at least once to assist the
special education teachers with Student’s
behavior, and police were brought in at least
four times.336

183.

Student reacted to police interventions with
heightened anxiety manifested by picking at his
ears until they were bloody and oozing; chewing
on his shirt; having to sleep with one of Parents
at night; having to have a Parent in the
bathroom with him when he took showers;
eating a lot; gaining weight; and being agitated.
While he had exhibited those behaviors prior to
police interventions, the behaviors were
intensified after police interventions.337

334

Petitioner Ex. 18 at 9-12; Respondent Ex. 11 at 15-18; Petitioner
Ex. 41 at 324.
335

Tr. at 884 (Bezerra).

336

Tr. at 757-758, 774 (Mother); Tr. at 882-884 (Bezerra).

337

Tr. at 775, 777 (Mother).

App. 176
184.

After Student’s interaction with the police officer
on May 5, 2015, Mother met with Ridgecrest
staff and a 20-day plan was developed for
Student.338

185.

On May 6, 2015, Mother and Ridgecrest staff
agreed that Student was approved for late
arrival in a 20-day plan to begin on May 7, 2015.
He would arrive at 9 a.m. and leave at the
regular time, and begin the day with 15 minutes
of physical activities such as walking the track,
shooting hoops, and drinking water, to help him
“wake up” for the instructional day ahead.339
Once he accumulated 10 stickers for no physical
aggression, he would be given a special
reward.340

186.

Ms. Bezerra notified Ms. Martir via email on
May 6, 2015, that the 20-day plan for Student
had been approved.341

187.

On May 7, 2015, Ms. Martir prepared a sixth
Written Summary of Restraint Use (Sixth
Summary). According to the Sixth Summary,
Ms. Martir and Ms. Caballero placed Student in
a bear hug restraint from 8:40 a.m. to 8:42 a.m.
on May 6, 2015, after Student used profanity,

338

Tr. at 916 (Bezerra).

339

Tr. at 822, 825-826, 916 (Bezerra); Petitioner Ex. 41 at 325-326;
Respondent Ex. 12 at 24-25.
340

Respondent Ex. 12 at 25; Petitioner Ex. 41 at 326.

341

Respondent Ex. 12 at 24; Petitioner Ex. 41 at 325-326.

App. 177
threatened to kill Ms. Martir, then charged at
Ms. Martir. Verbal redirection, calming
techniques, reduced verbal interaction, and
providing choices were unsuccessfully used to
de-escalate the situation. Ms. Martir spoke with
Mother about the restraint at 3:15 p.m. on May
6, 2015.342
188.

On May 7, 2015, Ms. Martir prepared a seventh
Written Summary of Restraint (Seventh
Summary).343 According to the Seventh
Summary, Student was placed in a bear hug
from 8:50 a.m. to 8:52 a.m. on May 6, 2015, after
he kept repeating “I will kill you, Ms. Martir,”
then charged at her. He also swung his chair at
other students in the classroom. Attempts to deescalate the situation were not successful. At
some point, Father arrived. Father was notified
of the restraint in person. Student was relaxed
when he sat next to Father. Student cleaned up
his area where he had thrown papers and his

342

Tr. at 884 (Bezerra); Petitioner Ex. 18 at 1-4; Respondent Ex. 11
at 19-22; Petitioner Ex. 41 at 324, 327-328. The first page of the
Sixth Summary states the restraint was on “04/06/2015.” The rest
of the summary references a May 6, 2016 incident. The date on the
first page appears to be in error.
343

Petitioner Ex. 18 at 5-8; Respondent Ex. 11 at 23-25. The first
page of the summary states the incident occurred on “03/24/2015”
and the second page states the incident occurred on “05/06/2015.”
May 6, 2015, appears to be the correct date.

App. 178
chair. Student went home with Father at about
10:20 a.m.344
189.

For 50 minutes beginning at 2:15 p.m. on May 7,
2015, Student engaged in abusive language,
disorderly conduct, bullying, disobedience,
disrespect to staff, threats of violence and
intimidation, physical assault, and an attempt to
cause injury. He told Ms. Martir, “I will bring a
knife tomorrow and kill you.” When Ms. Martir
asked Student what would calm him down, he
replied, “To kill you both.” He punched Ms.
Caballero in the abdomen and bit her on a
knuckle of her left hand. The teachers placed
him in a restraint. He did not respond positively
to directives to calm down or to Ms. Martir’s
statement that the teachers were there to help
him, and that the teachers would let go of him if
he was safe towards others and himself. Because
he was not exhibiting enough self-control to ride
the bus home, Mother picked him up from
school.345

190.

For 186 minutes beginning at 10:50 a.m. on May
8, 2015, Student engaged in abusive language,
disrespected staff, disobeyed, and fell asleep in
class. Beginning at 11 a.m., Student was asked
13 times if he was ready to start time-out; at

344

Respondent Ex. 11 at 24-26; Petitioner Ex. 41 at 327-331.

345

Petitioner Ex. 41 at 332-333.

App. 179
1:08 p.m., he said he was ready and he
completed 15 minutes of time-out.346
191.

On May 11, 2015, Ms. Martir prepared an eighth
Written Summary of Restraint Use (Eighth
Summary). According to the Eighth Summary,
Student was placed in. a bear hug restraint from
2:10 p.m. to 2:12 p.m. on May 8, 2015, after he
kicked and punched Ms. Martir and Ms.
Caballero, and bit Ms. Martir on the forearm.
Attempts to de-escalate the situation prior to the
restraint were not successful. Attempts included
reminding Student that if he had no incidents of
physical aggression, Mother would buy him
books at the book fair and Ms. Caballero asking
him what the teachers could do to make it better
for him a nd remindi ng hi m t ha t
accommodations were in place for him. Student
responded, “I don’t know why you don’t
understand that no matter what you have
[planned], I will ruin your life.” He then charged
Ms. Martir with a right closed fist and kicked
Ms. Caballero. On May 8, 2015, Ms. Martir
notified Parent in person of the restraint.347

192.

For 73 minutes beginning at 9:23 a.m. on May
13, 2015, Student engaged in cursing and
backtalk, off-task behavior, left his seat without

346

Petitioner Ex. 41 at 334-335.

347

Respondent Ex. 11 at 27-30; Petitioner Ex. 41 at 336, 338.

App. 180
permission, disobeyed, and failed to follow
directions.348
193.

For 55 minutes beginning at 2:30 p.m. on May
14, 2015, Student engaged in abusive language,
bullying, obscenity, racial slurs, threats of
violence, intimidation, and physical assault. Ms.
Martir attempted to de-escalate the situation by
asking Student to use appropriate school words,
telling him the teachers were there to protect
him and guide him from harm, and telling him
to make a good choice or he would be guided out
for his safety (after Student put his finger in an
electrical socket). Student told Ms. Martir, “I
will cut your throat with a knife and let you
bleed to death.” Student calmed down after he
was guided away for his safety, and served 15
minutes in time-out.349

194.

Over a 30-minute period beginning at 11:01 a.m.
on May 19, 2015, Student engaged in pushing
and shoving, cursing and backtalk, off-task
behavior, disobedience, and failure to follow
directions. When Ms. Martir told him there were
strategies he could use to relax, he asked to
read. Ms. Caballero walked to Student’s area to
get a book, and discovered that the books he had
brought from home were inappropriate for school
because they contained profanity and “had the
middle finger” on several pages. Student chose

348

Petitioner Ex. 41 at 337.

349

Petitioner Ex. 41 at 339-340.

App. 181
an appropriate book, read for 5 minutes then
took his chair to time-out for 10 minutes.350
195.

Over a 105-minute period beginning at 9:12 a.m.
on May 22, 2015, Student engaged in backtalk,
disobeyed, and failed to follow directions. Ms.
Caballero gave Student an assignment and he
told her, “I’m not doing it” and placed his head
down and went to sleep. Between 9:35 a.m. and
10:51 a.m., Student was asked eight times if he
was ready to go to time-out. At 10:53 a.m.,
Student picked up his head and said he was
ready to start his time. He successfully served
15 minutes of time-out.351

196.

Student likes boundaries but the boundaries
imposed as part of the Adaptive Behavior
program at Ridgecrest may have been excessive
for him, leading to heightened anxiety and
increases in behaviors such as picking at his
ears until they bled, chewing on his shirt, and
overeating.352

197.

At Ridgecrest, Student, who is very smart and
verbal, was provided positive feedback such as “I
like the way you are doing this,” which Ms.
Bezerra believes was encouraging to him.353

350

Petitioner Ex. 41 at 341.

351

Petitioner Ex. 41 at 342.

352

Tr. at 778-779 (Mother).

353

Tr. at 828 (Bezerra).

App. 182
198.

While Student was at Ridgecrest, Ms. Bezerra
administered the Reading and Math sections of
the State of Texas Assessments of Academic
Readiness (STAAR) test to him. During the
reading assessment, Student slept for an hourand-a-half. Student would not wake up to take
the test, so Ms. Bezerra gave him a mint candy
and encouraged him by saying, “You took a long
time sleeping, but I think if you choose to take
the assessment you’re going to do great.” Once
he woke up, he completed the test in about an
hour. He did not sleep during the Math
assessment, and completed the test.354

199.

In March 2015, Student received a satisfactory
score on the Reading portion of the STAAR test.
In April 2015, Student received a satisfactory
score on the Science portion of the STAAR test
and no standards were established on the Math
portion of the test.355

200.

Student’s behavioral data indicates he was
responding to behavioral interventions at
Ridgecrest, with the possibility of continued
progress over time.356

201.

Petitioner established by a preponderance of the
evidence that the District did not offer Student
the related service of counseling after the

354

Tr. at 828, 845-846 (Bezerra).

355

Respondent Ex. 6; Respondent Ex. 16 at 10.

356

Tr. at 831, 912 (Bezena); Tr. at 646 (Martir); Tr. at 926 (Teater).

App. 183
October 28, 2014 accrual date. But neither the
FIE multidisciplinary team nor the Monarch
team recommended counseling as a related
service so it is not surprising that the ARD
committee did not consider counseling as a
related service.357
202.

Petitioner did not prove by a preponderance of
the evidence that the District failed to consider
providing Student with positive behavioral
supports and interventions. The behavioral goals
in Student’s IEP consisted solely of positive
behavioral supports.358

Issue 4:
Did the District fail to provide Parents with prior
written notice when it refused to evaluate
Student?
203.

After Mother’s request for a special education
evaluation of Student was declined at the
October 8, 2014 Section 504 meeting, the
District did not provide Parents with prior
written notice of its refusal to evaluate
Student.359

204.

The alleged violation occurred before the
October 28, 2014 accrual date for this
proceeding.

357

Respondent Ex. 2; Petitioner Ex. 12.

358

Respondent Ex. 1 at 2, 8.

359

Respondent Ex. 11 at 1-4.

App. 184
Issue 5:
Did the ARD committee fail to consider Student’s
PLAAFPs and how Student’s disability affected
his involvement in the general education
curriculum?
205.

In developing Student’s IEP, the March 11, 2015
ARD committee considered Student’s PLAAFPs
in Reading, Written Expression, Math, Science,
Social Studies, and behavior.360
a. Student did not participate in State
assessments while attending private schools
from second through fourth grades. In
benchmark testing conducted in the fall of
2014, Student passed Reading with a
benchmark of 70 percent, failed Math with a
benchmark of 48 percent, and failed Science
with a benchmark of 68 percent.361
b. In January 2015, Student took the Stanford
Achievement Test at school, with resulting
scores that showed his Spelling, Social
Science, and Science Skills were very strong;
that he had a solid foundation in listening
and problem solving; and that he needed
support in his total Reading skills.362

360

Respondent Ex. 1 at 2, 19.

361

Petitioner Ex. 13 at 15; Petitioner Ex. 15 at 10; Respondent Ex.
13 at 9.
362

Respondent Ex. 7.

App. 185
206.

According to the PLAAFPs, Student was
demonstrating grade-level ability in academic
subjects; positive behavioral signs, such as
developing some friendships, responding
appropriately to praise and rewards, and
enjoying drawing; and a need to extinguish
physical aggression, verbal aggression, and to
stay in his assigned area.363

207.

The ARD committee determined that Student’s
disability affected his progress in all general
education curriculum classes.364

208.

The ARD committee decided that Student’s
verbal and physical aggression in the general
education setting created a negative effect on the
general education classroom, disrupting the
instructional process.365

209.

The ARD committee found that placement in the
general education classroom would have
prevented Student from achieving all goals in
his IEP because Student needs small group
instruction in a highly-structured behavior
setting in order to succeed.366

210.

Petitioner did not prove by a preponderance of
the evidence that the District failed to consider

363

Respondent Ex. 1 at 2.

364

Respondent Ex. 1 at 3.

365

Respondent Ex. 1 at 11.

366

Respondent Ex. 1 at 11.

App. 186
Student’s PLAAFPs or how Student’s disability
affected his involvement in the general
education curriculum.
Issue 6:
Did the District fail to provide Parents with
requisite notice when Student was twice
restrained in January 2015?
211.

On January 13, 2015, Assistant Principal Folger
was called to Ms. Breidenthal’s classroom where
she twice pulled Student back to prevent him
from hitting his teacher. She did not file a report
of restraint because she is not required to do so
for a child who is not in special education.367

212.

The District did not provide Parents with notice
when Student was twice restrained in January
2015.

213.

Petitioner proved that the District did not
provide Parents with notice after Student was
restrained twice on January 13, 2015, but did
not prove that such notice was required, given
that Student’s placement was in a general
education setting with Section 504
accommodations and not in special education.

Issue 7:
Did the District fail to provide Student with a
commensurate school day?
214.

367

Beginning March 23, 2015, Student spent his
instructional day in the Adaptive Behavior

Tr. at 131 (Folger).

App. 187
program at Ridgecrest, with 1800 minutes (30
hours) of instruction per week.368
215.

By May 2015, Mother was ready to pull Student
out of Ridgecrest due to escalating behavioral
issues. Ms. Teater suggested a shorter school
day, which had worked for Student during times
of crisis at The New School, for the last 20 days
of school. Mother agreed with the plan. Ms.
Teater explained to Mother that the ARD
committee would have to approve the change.
The change was made, with Student at school
from 9 a.m. to the end of the day, without an
ARD committee meeting ever being held.369

216.

The 20-day plan was developed by Mother, Ms.
Teater, and Ms. Bezerra as a way to help
Student be successful for the remainder of the
school year given all that was happening and
following Student’s interaction with a campus
police officer the previous day. Student was
already coming to school later than the other
students and not being counted tardy or absent.
He also had been picked up before the end of the
day on several days for different reasons. Ms.
Martir supported the shortened school day
plan.370

368

Petitioner Ex. 16 at 15.

369

Tr. at 761-764, 775-776 (Mother); Respondent Ex. 12 at 24-25,
28, 30. There is conflicting evidence as to whether Student’s school
day be.gan at 9 a.m. or at 9:55 a.m.
370

Tr. at 898-899 (Bezerra); Tr. at 641-642 (Martir).

App. 188
217.

On the 20-day plan, Student did not receive the
same number of hours of education per day as
the other students in the Adaptive Behavior
classroom or general education classrooms in the
District.371

218.

On May 18, 2015, following a long conversation
with Mother, Ms. Teater, Coordinator for Special
Education, notified Ms. Martir and others via
email that Student would attend school from 9
a.m. to noon in order to “survive” the last 11
days of school, and that Mother would be
available to remain on campus with him. Ms.
Teater noted that a brief ARD committee
meeting would be necessary to officially institute
the change.372

219.

On Monday, May 18, 2015, Mother mentioned to
Ms. Martir that she believed the District was
arranging an ARD committee meeting to be held
on May 22, 2015. 373

220.

On Thursday, May 21, 2015, Ms. Martir and
others were notified via email that the ARD
committee meeting would be scheduled for the
following Monday or Tuesday, May 25 or 26,
2015.374

371

Tr. at 899 (Bezerra).

372

Tr. at 761-763 (Mother); Tr. at 899 (Bezerra); Respondent Ex.
12 at 32.
373

Respondent Ex. 12 at 33.

374

Respondent Ex. 12 at 34.

App. 189
221.

The ARD committee meeting was canceled on
Thursday, May 28, 2015, and was never held, so
Student’s 20-day plan and later, the 3-hour
school day, were never approved by the ARD
committee.375

222.

Petitioner proved by a preponderance of the
evidence that the District failed to offer Student
a commensurate school day for at least the last
20 days of the 2014-2015 school year.

Issue 8:
Did the District fail to develop an IEP for
Student?
223.

An IEP was developed for Student at a March
11, 2015 ARD committee meeting.376

224.

In developing the IEP, the ARD committee
considered Student’s FIE, teachers’ information,
medical and health records, Parents’
information, school records, and classroom
observations.377

225.

In developing the IEP, the ARD committee
considered Student’s PLAAFPs in Reading,
Written Expression, Math, Science, Social
Studies, and behavior.378

375

Tr. at 822, 869-871 (Bezerra); Respondent Ex. 12 at 38.

376

Petitioner Ex. 16 at 4-10; Respondent Ex. 1 at 4-19.

377

Respondent Ex. 1 at 20.

378

Respondent Ex. 1 at 2, 19.

App. 190
226.

The IEP included goals for Reading, Writing,
Math, Science, and Social Studies.379

227.

The IEP included a BIP to address Student’s
verbal aggression, physical aggression, and
leaving the classroom without permission.380

228.

Student’s behavior goals included choosing
replacement behaviors to use when he was
angry or frustrated; expressing anger
appropriately, without using threats, profanity,
or name calling; and remaining in his designated
area.381

229.

A number of accommodations were included in
the IEP including altering assignments,
adapting instructions, and managing Student’s
behavior, as well as for taking the STAAR
test.382

230.

The LRE section of the March 2015 ARD
committee report concluded that Student
received both academic and nonacademic benefit
from the TOTAL program and the general
education setting as a whole, but committee
members were concerned that Student’s verbal
and physical aggression in the general education
setting created a negative effect on the general

379

Respondent Ex. 1 at 4-6.

380

Respondent Ex. 1 at 31-34.

381

Respondent Ex. 1 at 6-7, 31-34.

382

Petitioner Ex. 16 at 9-1 O; Respondent Ex. 1 at 8-9, 19, 40.

App. 191
education classroom,
instructional process. 383

disrupting

the

231.

Placement in the general education classroom
would have prevented Student from achieving
all of the goals in his IEP because Student needs
small group instruction in a highly-structured
behavior setting.384

232.

Student’s IEP prevented him from participating
with his peers at meals, and in Fine Arts,
athletics and regular transportation, stating he
requires a more restrictive environment for
success in the educational setting.385

233.

The ARD committee recommended that Student
attend a centralized program at Ridgecrest in a
self-contained environment with frequent and
intense behavioral interventions away from his
home campus beginning on March 23, 2015.386

234.

Student was to attend Ridgecrest for the
duration of the 2014-2015 school year and the
Adaptive Behavior program at Spring Forest
Middle School (Spring Forest) for the 2015-2016
school year.387

383

Respondent Ex. 1 at 11.

384

Respondent Ex. 1 at 11.

385

Respondent Ex. 1 at 13.

386

Respondent Ex. 1 at 16-17, 19.

387

Respondent Ex. 1 at 39.

App. 192
a. At Spring Forest, the District could offer a
small ratio of students to teachers, but not
exclusively one-on-one instruction such as
Student currently receives at Fusion.388
b. On June 1, 2015, Mother was invited to tour
the Adaptive Behavior classroom at Spring
Forest, where Student would be attending in
the fall of 2015.389
c. After the Amended Complaint was filed in
February 2016, Parents toured the Adaptive
Behavior program at Shadow Oaks Middle
School (rather than at Spring Forest) and
determined the program would not meet
Student’s unique behavioral, emotional, and
social needs or his academic needs as a
Gifted and Talented student with “very
superior” intelligence.390
235.

388

The ARD committee developed five measurable
annual IEP goals for Student in academic areas,
with corresponding objectives, to be completed
by March 11, 2016, the next annual ARD
committee meeting date.391

Tr. at 392 (Father).

389

Respondent Ex. 12 at 36. The record is silent as to whether
Mother toured the Spring Forest Adaptive Behavior classroom.
390

Tr. at 391 (Father); Petitioner Ex. 33 at 46, 48, 49; Respondent
Ex. 27 at 2.
391

Respondent Ex. 1 at 4-6.

App. 193
a. The FIE, considered by the ARD committee
in developing Student’s IEP, noted that
despite Student’s above-average intelligence,
he had produced limited work all school year
and, as of February 2015, had failing grades.
The FIE goes on to state that Student has
difficulty initiating and completing work
independently and he struggles to keep his
academic work and materials organized.392
b. Student’s academic IEP goals for Reading,
Writing, Math, Science, and Social Studies
were to be implemented by general education
teachers and special education teachers and
the methods of evaluation were to include
data collection and work samples, with
progress reports concurrent with the
issuance of report cards.393
236.

On March 11, 2015, the ARD committee
developed three measurable annual IEP goals
related to Student’s behavior, with
corresponding objectives, to be completed by
March 11, 2016, the next annual ARD committee
meeting date.394

392

Respondent Ex. 2 at 25.

393

Respondent Ex. 1 at 4-6.

394

Respondent Ex. 1 at 6-7.

App. 194
a. There was no baseline
behavioral goals.395

for

Student’s

b. Student’s IEP goals related to behavior were
to be implemented by special education
teachers and the methods of evaluation were
to include data collection (point sheets), with
progress reports issued concurrently with
report cards.396
237.

Student’s IEP provided for no related services.397

238.

A preponderance of the evidence establishes that
the District devised an appropriate IEP for
Student in accordance with relevant law
although the academic goals could have been
more challenging given Student’s status as a
Gifted and Talented child.398

Issue 9:
Did the District fail to implement Student’s IEP?
239.

In a June 1, 2015 progress report, Ms. Martir,
reported that progress was sufficient at that
time for Student to reach his academic goals by

395

Respondent Ex. 1.

396

Respondent Ex. 1 at 6-7.

397

Respondent Ex. 1 at 4-7.

398

See 34 C.F.R. § 300.324(a)(iv) regarding the requirement to
meet a child’s academic needs.

App. 195
the next annual ARD committee meeting date of
March 11, 2016.399
240.

At the end of fifth grade, Student had passing
grades in all subjects except Math, in which he
had a 64 average. For the fourth 9-weeks
grading period, his Math average was 70,
considered to be an inadequate level of
comprehension and application.400

241.

By the end of the year, Student had not met the
behavior goals set out in his IEP.401 In a June 1,
2015 progress report, Ms. Martir reported that
progress was not sufficient at that time for
Student to reach his behavior goals by the next
annual ARD committee meeting date of March
11, 2016.402
a. By the end of fifth grade, Student’s overall
conduct was unsatisfactory, showing slow
progress toward improvement.403
b. While it was represented to Parents that
Student had made some behavioral
improvement at Ridgecrest, Parents did not

399

Respondent Ex. 8 at 1-2.

400

Tr. at 904-905 (Bezerra); Petitioner Ex. 19 at 3; Respondent Ex.
5 at 1; Respondent Ex. 26 at 9.
401

Respondent Ex. 12 at 39.

402

Tr. at 903 (Bezerra); Respondent Ex. 8 at 2-3.

403

Respondent Ex. 5 at 2-3; Respondent Ex. 26 at 9.

App. 196
agree with that assessment. Father saw
Student come home from Ridgecrest every
day saying how much he hated it; had to drag
him kicking and screaming to school in the
morning; he and Mother were called to the
school “all the time;” and there were
incidents with Student at Ridgecrest in
which the campus police were involved.404
242.

Student’s behavioral data was collected and
input by Ridgecrest staff for computation of
charts and trend lines.405
a. One of Student’s target behaviors was verbal
threats to peers and adults. There was a high
incidence of the behavior on March 24, 2015;
not a single incidence of the behavior from
April 7-21, 2015; and a spike in the behavior
on May 8, 2015. The trend line shows
Student was having a lesser frequency of
verbal threats to peers and adults.406
b. Regarding Student’s target behavior of
leaving his assigned area without teacher
permission, the trend line was going up, not
showing a diminishment in the behavior. But
Ms. Bezerra believes the trend line could

404

Tr. at 382 (Father).

405

Tr. at 871-872 (Bezerra); Respondent Ex. 9; Respondent Ex. 9A.

406

Tr. at 795-796 (Bezerra); Respondent Ex. 9A at 2.

App. 197
have been skewed by Student’s behavioral
incident on May 8, 2015. 407
c. Target behavior of physically attacking peers
and adults: high incidence on March 24,
2015, and May 8, 2015, but overall, the trend
line is down. Between April 7, 2015, and May
4, 2015, there was no incident of physical
aggression at all.408
243.

Student’s episode duration decreased from crisis
behavior for 2 hours and 25 minutes on his first
day at Ridgecrest and 3 hours and 14 minutes on
his second day, down to about 7 minutes for the
next incident which did not occur until a month
later. The frequency of incidents increased in
May, but they were about 2 minutes each.409

244.

Student’s IEP did not include the use of
restraints. Under, the “Strategies/Supports/
Interventions to prevent or decrease behavior,”
avoiding power struggles and providing more
space are recommendations that are not
consistent with the use of restraints.410

245.

Ridgecrest staff initially followed Student’s FBA
and BIP adopted by the ARD committee and
then analyzed how Student was responding to

407

Tr. at 796-797 (Bezerra); Respondent Ex. 9A at 3.

408

Tr. at 797 (Bezerra); Respondent Ex. 9A at 4.

409

Tr. at 816-817 (Bezerra).

410

Tr. at 615-616 (Murphy); see Respondent Ex. 1 at 31.

App. 198
the behavioral interventions. For Student,
Ridgecrest staff, with approval of Mother,
devised a 20-day plan for ending the school year.
So for Student, there were at least three written
plans plus ongoing discussions and
adjustments.411
246.

Under the 20-day plan, which was not
considered or approved by an ARD committee,
Student did not begin school until 9 a.m. and
was not provided a commensurate school day, as
required by his IEP.

247.

Petitioner proved by a preponderance of the
evidence that Student’s IEP was not fully
implemented and, in fact, was modified without
approval of the ARD committee.

248.

Petitioner proved by a preponderance of the
evidence that, despite his Gifted and Talented
status, Student did not make meaningful
academic progress in the fifth grade. He did not
complete the fifth grade curriculum, finished the
year with a failing Math grade, and was barely
passing two other classes.

249.

A preponderance of the evidence establishes that
the District’s failure to fully implement
accommodations and modifications on a regular
basis was more than de minimis.412 Student was
subjected to time-outs even though time-outs

411

Tr. at 820-821 (Bezerra).

412

Bobby R., 200 F.3d at 349.

App. 199
were not listed in his IEP, as required if they are
to be used. Also, Student was not provided a
commensurate school day for the last 20 days of
school.
Issue 10:
Did the District fail to educate Student in the
LRE?
250.

At the March 11, 2015 meeting, the ARD
committee determined that the potential
harmful effects of removing Student from the
general education curriculum included a lack of
opportunity for appropriate role models and
diminished access to a full range of curriculum.
The ARD committee anticipated harmful effects
from removing Student from the general
education setting, but decided the benefits
outweighed anticipated harmful effects.413

251.

Prior to the March 11, 2015 ARD committee
meeting, Student had received Section 504
accommodations, general education classroom
core instructional interventions (Tier I), and had
attended the TOTAL program, all of which
provided an instructional day in the general
education setting. The ARD committee
determined that these efforts to modify and
supplement Student’s participation in the
general education setting were not sufficient.414

413

Petitioner Ex. 16 at 13.

414

Petitioner Ex. 16 at 11.

App. 200
252.

Members of the March 11, 2015 ARD committee
were concerned that Student’s presence in the
general education classroom was creating a
negative effect due to Student’s ongoing
behaviors including verbal and physical
aggression. The ARD committee addressed those
concerns by considering a change of placement
in order to eliminate any continued disruption to
the instructional process in the general
education classroom.415

253.

The March 11, 2015 ARD committee decided
Student required specialized instruction not
available in the general education classroom,
including access to small group instruction in a
highly-structured behavior setting to accomplish
the IEP with specialized instruction,
methodology, or content. After considering
educating Student in a general education setting
with supplementary aids and services, this
option was rejected because Student’s
behaviors/needs are such that he requires a
structured/specialized environment for
implementation of the IEP and BIP and/or
Student and/or other students would not benefit
satisfactorily from instruction in the general
education classroom.416

254.

The ARD committee decided that Student would
be placed in an Adaptive Behavior classroom at

415

Petitioner Ex. 16 at 11.

416

Petitioner Ex. 16 at 12.

App. 201
Ridgecrest, in a centralized program away from
his home campus.417
255.

Student’s placement in the Adaptive Behavior
classroom at Ridgecrest prevented him from
participating with students without disabilities
in nonacademic activities including meals,
athletics/Fine Arts, regular transportation, and
general education routines such as homeroom
assignments and study hall. The ARD committee
determined Student’s placement was necessary
because he required a more restrictive
environment in order to be successful in an
educational setting.418

256.

According to Student’s IEP, from March 23,
2015, to June 3, 2015, Student’s instructional
day in the Adaptive Behavior classroom at
Ridgecrest, a centralized program away from
Student’s home campus would consist of 1800
minutes per week, with courses in Fine Arts,
Health Fitness, Language Arts, Math, Science,
and Social Studies.419

257.

Petitioner did not prove by a preponderance of
the evidence that the District failed to educate
Student in the LRE. The ARD committee
appropriately considered placement options

417

Petitioner Ex. 16 at 16.

418

Petitioner Ex. 16 at 13-14.

419

Petitioner Ex. 16 at 15.

App. 202
before arriving at the decision to place Student
at Ridgecrest.
Issue 11:
Did the District fail to incorporate
recommendations from evaluations into Student’s
initial ARD committee report to address his
educational needs?
258.

At the March 11, 2015 meeting, the ARD
committee discussed the differences between the
FIE and the private outside evaluation (i.e.
Monarch’s diagnosis of Autism Spectrum
Disorder) and the similarities in the
recommendations for intervention (emotional
and behavioral regulation).420

259.

The FIE considered by the ARD committee
included information from previous evaluations
of Student, including a June 2, 2007 FIE
completed by the Coppell Independent School
District, due to concerns related to speech
articulation; Dr. Rosin’s May 11, 2012
psychological evaluation; Dr. Wright’s August 7,
2014 letter to Nottingham staff; and Monarch’s
evaluation conducted on December 2, 2014.421

260.

A preponderance of the evidence establishes that
the District considered recommendations from
outside evaluations but did not incorporate all of
those recommendations.

420

Petitioner Ex. 16 at 19.

421

Respondent Ex. 2 at 2-3.

App. 203
261.

The ARD committee was required to consider
outside evaluations but was not required, under
the law, to incorporate recommendations from
those outside evaluations.422

Issue 12:
Did the District fail to ever convene an ARD
committee meeting to discuss Parent’s request
that Student be returned to the TOTAL program
and fail to issue prior written notice concerning
that refusal?
262.

On or about May 17, 2015, Mother requested
that Student be returned to the TOTAL program
for the remainder of the school year. Ms. Teater,
one of the District’s special education
coordinators, and Ms. Fernandez,
Administrative Intern for the District’s System
of Care, advised that could not be done because
Student was now a special education student
and the TOTAL program is a general education
program.423

263.

In addition, Ms. Teater told Mother that Student
was receiving more intensive support in the
Adaptive Behavior classroom.424 She said the
District would not return Student to the TOTAL
program, a DAEP for elementary school

422

34 C.F.R. § 300.502(c)(1).

423

Tr. at 357-358 (Teater); Tr. at 380 (Father); Tr. at 758-759
(Mother); Petitioner Ex. 37 at 7.
424

Tr. at 930-931 (Teater).

App. 204
students, because his behavior was being
addressed at Ridgecrest.425
264.

Parents did not request an ARD committee
meeting to discuss returning Student to the
TOTAL program.

265.

The District did not, on its own, convene an ARD
committee meeting to discuss Mother’s request
that Student be returned to the TOTAL
program.426

266.

The District was not required to issue prior
written notice to Parents for not convening an
ARD committee meeting to discuss Student’s
possible return to the TOTAL program.427

Issue 13:
Did the District fail to ever convene an ARD
committee meeting or respond to Parents’
constructive notice and request for placement and
tuition reimbursement at Fusion?
267.

In March 2015, while touring the TOTAL
program with Ms. Fernandez, Mother asked
about the possibility of an outside placement for
Student because that is something that Dr.
Powell-Williams had told her could be done. Ms.
Fernandez told Mother that an outside

425

Tr. at 932 (Teater).

426

Tr. at 413 (Father).

427

Tex. Educ. Code § 37.004(a)(c); 19 TAC §§ 89.1011(b),
89.1050(e)(2).

App. 205
placement was something the District could do
legally.428
268.

In May 2015, before Student’s school day at
Ridgecrest was shortened, Mother mentioned
outside placement for Student to Ms. Teater in
an informal meeting and Ms. Teater told her
“We don’t like to do that.”429 Ms. Teater does not
recall having the conversation with Mother.430

269.

Mother did not know that if Parents wanted the
District to pay for Student to attend a nonpublic
day school, they had to notify the District in
writing.431

270.

In response to Ms. Martir’s suggestion that
Student obtain Math tutoring over the summer,
Parents placed Student at Fusion.

271.

Over the summer of 2015, while Student was
attending Fusion, Mother spoke with Ms.
Fernandez who told her the District could move
Student back to a general education setting in
the fall and work with him there. But Mother
was not willing to have Student, who was happy

428

Tr. at 765 (Mother).

429

Tr. at 765, 776 (Mother).

430

Tr. at 933 (Teater).

431

Tr. at 776 (Mother).

App. 206
and doing well at Fusion, return to the
District.432
272.

Over the summer of 2015, Mother told Ms.
Fernandez–but did not put it in writing that she
would hire an attorney to pursue private school
placement for Student. She believes Ms.
Fernandez must have communicated the
information to someone at the District, because
about 2 days later, the principal of Spring Forest
sent her an email. However, the email was in
Mother’s junk email folder and she did not see it
until about a month later.433

273.

Parents decided not to send Student to the
Spring Forest Adaptive Behavior program given
the failure of Ridgecrest’s Adaptive Behavior
program for Student and how well Student was
doing at Fusion.434

274.

On August 14, 2015, Mother notified the Spring
Forest counselor via email that Student would
not be attending school there in the fall. The
email did not state that Student would be
attending Fusion in the fall or that Parents
wanted tuition reimbursement for Student’s
unilateral placement at the private school.435

432

Tr. at 767 (Mother).

433

Tr. at 766-768 (Mother); Tr. at 723-724 (Fernandez).

434

Tr. at 388, 391-392 (Father).

435

Tr. at 388 (Father); Petitioner Ex. 33 at 44.

App. 207
275.

In August 2015, although they had been
provided with a Notice of Procedural Safeguards
on January 23, 2015, Parents were not aware
that they could have requested an ARD
committee meeting to discuss having the District
pay for Student’s placement at Fusion.436

276.

The list of possible placements contained in the
ARD document provided to Parents includes
nonpublic day schools.437

277.

Except for a statement in the ARD committee
report, the District did not inform Parents of the
possibility of Student being placed in a
nonpublic day school.438

278.

Had Parents known about TEA’s list of approved
nonpublic day schools, they might have looked
into whether any of those schools could have
worked for Student.439

279.

The ARD committee would consider a nonpublic
day school placement if the District was not able
to meet the educational needs of a student at
school.440

436

Tr. at 389 (Father).

437

Tr. at 935 (Teater); Respondent Ex. 1 at 12.

438

Tr. at 358-359, 933, 935 (Teater); Tr. at 371, 386 (Father);
Respondent Ex. 1 at 12.
439

Tr. at 388 (Father); Petitioner Ex. 28.

440

Petitioner Ex. 28 at 16, 64 (Warren deposition).

App. 208
280.

The nonpublic day school arrangement/setting
provides special education and related services
through a contractual agreement between the
District and a nonpublic day school for special
education. The District submits required,
related information to TEA. TEA determines the
number of contract students reported in fulltime equivalents and pays state funds to the
District according to the formula prescribed by
law.441

281.

If the District was not providing FAPE to a child
and was considering nonpublic day school
placement, either the administrator of the ARD
or coordinator would provide the approved list to
parents.442

282.

For the 2015-2016 school year, Fusion did not
qualify as a nonpublic day school because it is a
private school that was not on the TEA list of
approved nonpublic day schools.443

283.

If a nonpublic day school is not on the TEA list,
a school district may request that the school be
considered for approval.444

441

Petitioner Ex. 29a.

442

Petitioner Ex. 28 at 31 (Warren deposition).

443

Tr. at 271-272 (Ridgeway); Petitioner Ex. 28 at 64, 75-76
(Warren deposition, referencing Deposition Ex. 1); Petitioner Ex.
29 at 30-40; see TEA Nonpublic School Review Process, Petitioner
Ex. 29 at 42-56.
444

Tr. at 271-272 (Ridgeway).

App. 209
284.

TEA makes payments to school districts for
students placed by that district in a nonpublic
day school. The formula is 1.7 times the adjusted
allotment for that school district, with adjusted
allotments typically being about $5,500. TEA
only provides funding for students placed in
approved facilities. To Mr. Pitt’s knowledge,
TEA has never paid for placement at a nonpublic
day school that was not on the approved list.445

285.

Another requirement for funding is that TEA
must approve the IEP for the student placed in
the nonpublic day school. TEA’s guidance is
designed to ensure that nonpublic day schools
comply with the IDEA and provide students a
FAPE.446

286.

If the District refuses nonpublic school
placement for a student, that refusal should be
explained to parents in prior written notice.447

287.

There is no evidence that Parents requested in
writing that Student be placed at Fusion at the
District’s expense prior to filing the Complaint
on October 28, 2015, in which reimbursement for
summer 2015 tuition at an unnamed private
school is one of the requested remedies.

445

Tr. at 277, 279, 284 (Pitt).

446

Tr. at 282-284 (Pitt).

447

Petitioner Ex. 28 at 24 (Warren deposition).

App. 210
288.

There is no evidence that Parents requested in
writing that Student be placed at Fusion at the
District’s expense prior to filing the Amended
Complaint on February 22, 2016, in which
tuition reimbursement for Student’s placement
at Fusion is one of the requested remedies.

289.

As of the May 2016 due process hearing dates,
the District had not convened an ARD
committee meeting to discuss Student’s
placement at Fusion or tuition reimbursement
for his placement there.

290.

A preponderance of the evidence establishes that
Mother’s August 2015 email notifying the
District that Student would not be attending
school at Spring Branch in the fall was too vague
to constitute written notification that Student
would be unilaterally placed at Fusion and that
Parents would seek tuition reimbursement.

291.

A preponderance of the evidence establishes that
Petitioner’s requested remedy of tuition
reimbursement for Student’s placement at an
unnamed private school, as set out in the
Complaint, does not constitute a written
notification that Student would be unilaterally
placed at Fusion and that Parents would seek
tuition reimbursement.

292.

A preponderance of the evidence establishes that
Petitioner’s requested remedy of tuition
reimbursement for Student’s placement at
Fusion, as set out in the Amended Complaint,
does not constitute a written notification that

App. 211
can be resolved by the ARD committee as the
proposed remedy is before the hearing officer.
293.

A preponderance of the evidence establishes that
the District was not required to convene an ARD
committee meeting to address Mother’s August
2014 email or the remedies proposed in the
Complaint and Amended Complaint.

Issue 14:
Did the District fail to provide Student with a
FAPE during the summer of 2015, and the 20152016 school year, and is the District continuing to
deprive Student of a FAPE designed to meet his
unique educational needs?
Summer of 2015
294.

At the March 11, 2015 meeting, the ARD
committee discussed Extended School Year
(ESY) services, and both Parents and school
committee members decided not to recommend
ESY services.448

295.

The District did not provide Student with ESY
services for the summer of 2015.

296.

At the end of the year at Ridgecrest, Ms. Martir
expressed concern to Parents that Student was
behind in Math and recommended that he get
Math help over the summer, which is what led
Parents to Fusion.449

448

Petitioner Ex. 16 at 15.

449

Tr. at 386 (Father); Tr. at 765-766 (Mother).

App. 212
297.

On June 8, 2015, Student started summer school
at Fusion, a one-on-one private school. Parents
enrolled him for summer school because they
were worried that going back to school in the fall
might be difficult for him after spending a
summer at home, given the traumatic school
year Student had in the District. Student has a
friend of similar temperament who had success
at Fusion, and Student had no problems during
one-on-one lessons with tutors.450

298.

A student qualifies for ESY services if “the
student has exhibited, or reasonably may be
expected to exhibit, severe or substantial
regression” in one or more critical areas
addressed in the student’s current IEP goals and
objectives “that cannot be recouped within a
reasonable period of time.”451

299.

There is no evidence that Student would exhibit
or be expected to exhibit severe or substantial
regression in a critical area of his IEP over the
summer or that such regression could not be
recouped within a reasonable period of time if he
was not provided ESY services in the summer of
2015.

300.

A preponderance of the evidence establishes that
the District did not fail to provide Student with
a FAPE in the summer of 2015.

450

Petitioner Ex. 37 at 7.

451

19 TAC § 89.1065(2).

App. 213
2015-2016 School Year
301.

Parents’ enrollment of Student at Fusion was a
unilateral placement without written notice to
the District.452

302.

When a child is a parentally-placed private
school student, the only issue that may be raised
in a due process hearing request is that the
school district did not fulfill its Child Find
duties.453

303.

As long as Student remains in a unilateral
private school placement, Petitioner has no legal
basis to complain that the District failed to
provide a FAPE to Student in 2015-2016 and is
continuing to do so.454
V. APPLICABLE LAW, ANALYSES, AND
CONCLUSIONS

A. The IDEA and Its Implementing Regulations
The IDEA, the Texas Education Code, and the rules
promulgated by the Texas Commissioner of Education
and the State Board of Education require the District
to guarantee certain procedural and educational rights
to parents of children with disabilities. Under the
IDEA, and its implementing regulations, school
districts in Texas must afford children with disabilities

452

Tr. at 393 (Father).

453

34 C.F.R. §§ 300.130, 300.140.

454

34 C.F.R. §§ 300.130, 300.140.

App. 214
a [FAPE], which is defined as “special education and
related services that: [a]re provided at public expense,
under public supervision and direction, and without
charge; [m]eet the standards of the [State educational
agency] . . . ; [i]nclude an appropriate preschool,
elementary school, or secondary school education in the
State involved; and [a]re provided in conformity with
the [IEP] that meets the requirements of [34 C.F.R.]
§§ 300.320 through 300.324.” 455
B. Issues
1.

Did the District violate its Child Find
obligations by failing to identify Student
as a child with a disability prior to
March 2015?
a. Applicable Law

Under Child Find, the District has an affirmative,
ongoing obligation to evaluate all children with
disabilities residing within the jurisdiction that either
have, or are suspected of having, disabilities and a need
for special education as a result of those disabilities.456
The Child Find obligation includes children who are
suspected of being children with disabilities under 34
C.F.R. § 300.8 and in need of special education, even if
they are advancing from grade to grade.457 A request
for an initial evaluation may be made by either the

455

20 U.S.C. § 1401(9); 34 C.F.R. § 300.17.

456

34 C.F.R. § 300.111.

457

34 C.F.R. § 300.111(c).

App. 215
parent or the district.458 But, because the Child Find
obligation is an affirmative one, a parent is not
required to request that the district identify and
evaluate a child.459 Also, there is not any requirement
that a parent’s request for an evaluation be in
writing.460
Child Find applies equally to gifted students, where
there is reason to suspect a disability and a need for
special education and related services.461 A district can
violate its Child Find duty by repeatedly referring a
student for interventions rather than evaluating the
student’s need for special education and related
services.462
The IDEA describes three circumstances under
which the district will be deemed to have knowledge
that a student has a disability. As applicable to this
proceeding, one of the circumstances is that the parent
requested an FIE and another of the circumstances is

458

34 C.F.R. 300.301(b).

459

D.G. v. Flour Bluff lndep. Sch. Dist., 59 IDELR 2 (5th Cir. 2012,
unpublished); C.C. Jr. v. Beaumont Indep. Sch. Dist., 65 IDELR
109 (E.D. Tex. 2015).
460

District of Columbia Pub. Schs., 115 LRP 16744 (SEA DC
03/11/15).
461

Memorandum to State Dirs. of Special Educ., 65 IDELR 181
(OSEP 2015).
462

El Paso Indep. Sch. Dist. v. Richard R., 50 IDELR 256 (W.D.
Tex. 2008, aff’d in part, rev’d in part, 53 IDELR 175 (5th Cir.
2009).

App. 216
that the teacher of the child, or other district
personnel, expressed specific concerns about a pattern
of behavior demonstrated by the child directly to the
director of special education of the agency or to other
supervisory personnel of the agency.463 Once the
evaluation is requested, it must be conducted in an
expedited manner.464
Texas law expressly calls for school districts to
consider regular education interventions, such as RtI,
prior to a referral for special education. If the student
continues to experience difficulty in the general
education classroom after the provision of
interventions, district personnel must refer the student
for an FIE.465 The Office of Special Education Programs
has explained that providing RtI prior to a referral for
an FIE does not conflict with the IDEA’s Child Find
requirements.466
b. Analysis and Conclusion
Petitioner proved that the District violated its Child
Find obligation when it waited until January 2015 to
refer Student to special education. By the October 28,
2014 accrual date for this proceeding, the District
should have suspected that Student was a child with a
463

34 C.F.R. § 300.534(b).

464

34 C.F.R. § 300.534(d)(2)(1).

465

19 TAC § 89.1011.

466

Office of Special Education and Rehabilitative Services, Letter
to Ferrera, (2012). https://www2.ed.gov/policy/speced/guid/idea/
letters/2012-1/ferrara022912rtiq2012.pdf.

App. 217
disability who might be eligible for special education.
By the October 8, 2014 Section 504 meeting, it was
apparent that general education behavioral
interventions were not working. In addition, Student,
who had been identified as Gifted and Talented, had
failing grades. The District was aware that Student
had been diagnosed with ADHD, ODD, and Mood
Disorder, disabilities that fall under the IDEA. Instead
of referring Student to special education pursuant to
Mother’s request, the October 8, 2014 Section 504
committee decided to try Section 504 behavioral
interventions. The District should have suspected that
Student’s behavioral issues were affecting his ability to
learn in the classroom and conducted the FIE in the
autumn of 2014.
Starting in October 2014, despite having Section
504 behavioral interventions in place, Student
continued to engage in verbal and physical aggression,
which should have alerted the District that it was time
for the FIE. But it was not until January 2015, after
Student hit and kicked his teacher, that the District
finally arranged for an FIE. The FIE was not completed
until the end of February; the ARD committee did not
meet until March 11, 2015, to consider the FIE. It was
not until March 23, 2015, that Student’s special
education services began.
Despite having every reason to suspect Student had
a disability that might need to be addressed with
special education services by October 28, 2014 the
District failed to evaluate Student in a timely manner.
The intervening months were crucial as Student not
only had failing grades, but he was suspended

App. 218
numerous times and ultimately engaged in physical
aggression against his teacher in January 2015. This
extremely bright and gifted child experienced loss of
educational opportunity due to suspensions and
exclusions, being detained by police, changing
programs three times, failing classes at Nottingham,
and failing fifth grade Math at the end of the school
year. He was regressing in his therapeutic progress,
according to Dr. Powell-Williams. The District’s own
FIE completed in February 2015 states: “his emotional
and behavioral difficulties have inevitably impacted the
quality of his social relationships at school. In addition,
despite [Student’s] above average intellectual ability,
he has produced limited work all school year and he
struggles to keep his academic work and materials
organized.”467 Thus, the District’s delay in fulfilling its
Child Find duty denied Student a FAPE from the first
day of school until at least March 23, 2015, when he
began the Adaptive Behavior program at Ridgecrest.
Because of the delay in his identification, Student is
entitled to a remedy of compensatory education for this
entire period of time, approximately 7 months.468

467

468

Petitioner Ex. 15 at 25.

Because the District denied Student a FAPE in 2014-2015, as
discussed infra, the overall compensatory education award is for
the length of one school year.

App. 219
2.

Did the District fail to provide a
FAPE to Student during the 2014-15
school year?
a. Applicable Law

The IDEA defines FAPE as special education and
related services that (a) are provided at public expense,
under public supervision and direction, and without
charge; (b) meet state standards (including IDEA
requirements); (c) include an appropriate preschool,
elementary school, or secondary school education; and
(d) are provided in accordance with a properly
developed IEP.469
The U.S. Supreme Court has ruled that a FAPE
requires tailoring an education to the unique needs of
the child with a disability by means of an IEP that
meets a specific standard.470 The Fifth Circuit has
summarized the Rowley standard:
[An IEP] need not be the best possible one, nor
one that will maximize the child’s educational
potential; rather, it need only be an education
that is specifically designed to meet the child’s
unique needs, supported by services that will
permit him ‘to benefit’ from the instruction. In
other words, the IDEA guarantees only a ‘basic
floor of opportunity’ for every disabled child,

469

470

34 C.F.R. § 300.17.

Board of Edu. of the Hendrick Hudson Cent. Sch. Dist.,
Westchester County v. Rowley, 458 U.S. 176, 181; 102 S.Ct. 3034,
3038 (1982).

App. 220
consisting of ‘specialized instruction and related
services which are individually designed to
provide educational benefit.’ Nevertheless, the
educational benefit to which the Act refers and
to which an IEP must be geared cannot be a
mere modicum or de minimis; rather, an IEP
must be ‘likely to produce progress, not
regression or trivial educational advancement.’
In short, the educational benefit that an IEP is
designed to achieve must be ‘meaningful.’
(internal citations omitted).471
The Fifth Circuit has set forth four factors that
serve as an indication of whether an IEP is reasonably
calculated to provide a meaningful educational benefit
under the IDEA. These factors are whether (1) the
program is individualized on the basis of the student’s
assessment and performance; (2) the program is
administered in the LRE; (3) the services are provided
in a coordinated and collaborative manner by the key
“stakeholders;” and (4) positive academic and
nonacademic benefits are demonstrated.472
b. Analysis and Conclusion
Petitioner proved Student was denied a FAPE in
the 2014-2015 school year. From August 24, 2014, until
March 23, 2015, he was denied a FAPE because the
District did not timely identify him as eligible for

471

Bobby R., 200 F.3d at 347, citing to Cypress-Fairbanks, 118 F.3d
at 247-48.
472

Bobby R., 200 F.3d at 347-348, citing to Cypress-Fairbanks, 118
F.3d at 253.

App. 221
special education and related services. After his
placement at Ridgecrest, he continued to be denied a
FAPE through the end of the school year because his
IEP was not correctly implemented.
Student’s academic benefit for 2014-2015 was de
minimis. At the end of the fall semester, he was failing
all core subjects. After he was moved to the TOTAL
program, his teachers there decreased his work
demands, such as allowing him not to complete
assignments, as a primary means to keep him calm. It
is unclear how he could have earned A’s and B’s while
in the TOTAL program, as reflected in his corrected
third 9-weeks report card. His academic IEP goals did
not reflect his ability as a Gifted and Talented child. He
did not complete the fifth grade curriculum, he failed
Math for the year, and he barely passed two other
subjects.
Similarly, Student’s nonacademic benefit at
Ridgecrest was de minimis. Although his IEP contained
only positive methods for attaining his behavioral goals
and objectives, he was subjected to numerous timeouts, at least eight restraints, and up to four police
interventions. In order to get him to attend school at
all, the District implemented a 20-day plan (with
Mother’s approval) for the last days of school, allowing
him to start school at 9 a.m. When even the 20-day
plan did not work, the District agreed to shorten his
school day to 3 hours without ARD committee
consideration or approval. Student was so regressed in
his therapy by the end of the year that, upon the advice
of Dr. Powell-Williams, he did not attend the last week
of school. Ms. Martir reported on June 1, 2015, that

App. 222
Student was not likely to reach his behavioral goals by
the next annual ARD committee meeting, to be held on
March 11, 2016.
Petitioner proved that from August 2014 through
March 22, 2015, the District denied Student a FAPE by
not timely meeting its Child Find obligation and that
from March 23, 2015, to the end of the school year, the
District denied Student a FAPE while he was at
Ridgecrest. That the Adaptive Behavior program was
administered in the LRE and the services were
provided in a coordinated and collaborative manner by
the key “stakeholders” does not overcome the
inadequate IEP and lack of positive academic and
nonacademic benefits.· Petitioner prevails on this
issue.
3.

Did the District fail to consider
providing Student with positive
behavioral
supports
and
interventions, including counseling?
a. Counseling

While an ARD committee can always recommend
more or different supports, such as counseling, an IEP
need not provide every special service necessary to
maximize a child’s potential.473
As set out in the Findings of Fact, the ARD
committee considered recommendations contained in
the FIE and the Monarch evaluation. Neither the FIE
multidisciplinary team nor the Monarch team

473

Rowley, 458 U.S. at 199.

App. 223
recommended counseling for Student. As such, the
ARD committee had no reason to offer counseling as a
related service.
b. Positive Behavioral Interventions
In developing an IEP, the IDEA requires that the
ARD committee address behavior management
whenever a student’s behavior is interfering with the
child’s ability to benefit from his educational
programming. The ARD committee must consider the
child’s need for the use of “positive behavioral
interventions and supports” in the case of a student
with a disability whose “behavior impedes his learning
or that of others.”474
The evidence shows Student’s IEP contained
positive behavioral supports and interventions, which
were followed, but not exclusively. Student also was
subjected to time-outs, restraints, and police
interventions while at Ridgecrest, none of which were
mentioned in his IEP. The use of time-out must be
included in a student’s IEP;475 the word “time-out”
appears nowhere in Student’s IEP.
At Nottingham, from August 25, 2014 until his
Section 504 accommodations were in place in October
2014, Student was held to the Student Code of
Conduct. Before and after the Section 504
accommodations were in place, he was frequently
suspended, and subject to police intervention when he

474

34 C.F.R. § 300.324(a)(2)(i).

475

19 TAC § 89.1053(g)(2).

App. 224
hit and kicked his teacher. He also was sent home due
to misbehavior when he was not formally suspended.
No meaningful Section 504 behavior plan was
developed until January 23, 2015, as Student moved to
the TOTAL program. The TOTAL program staff
attempted positive behavioral supports but also used
isolation to control Student’s behavior.
The IEP to be used at Ridgecrest beginning March
23, 2015, contained positive behavioral supports and
did not mention time-out, isolation, restraints, or police
intervention, all of which were used at Ridgecrest. Dr.
Powell-Williams testified that restraint should not be
used with Student. The TOTAL program staff did not
restrain Student and Fusion staff has not restrained
him.
The IDEA specifically allows school districts to refer
students with disabilities to law enforcement and
juvenile authorities notwithstanding their disability
status.476 However, where a student with a disability
clearly does not pose a threat of harm to himself or
others, school personnel should first implement the
behavioral interventions contained in his IEP before
calling the police.477 The record is silent either as to
whether Student posed a threat of harm to himself or
others or whether the IEP behavioral interventions
were attempted before police intervened at Ridgecrest.

476

34 C.F.R. § 300.535.

477

See C.B. v. Sonora Sch. Dist., 54 IDELR 293 (E.D. Cal. 2010).

App. 225
Nevertheless, Petitioner did not prove that the
District failed to consider providing Student with
positive behavioral supports and interventions. The
RtIs, Section 504 accommodations, and the behavioral
goals in Student’s IEP consist solely of positive
behavioral supports.
4.

Did the District fail to provide
Parents with prior written notice
when it refused to evaluate Student?

A school district must provide notice to the parents
of a child with a disability when it refuses to evaluate
the child.478 State law clarifies that the IDEA’s notice
requirement is only triggered upon a written request
for an FIE made to a director of special education or to
a district administrative employee (emphasis added).479
Mother’s request for a special education referral,
presented at the October 8, 2014 Section 504 meeting,
was not in writing. Because there is no legal obligation
to provide prior written notice upon a verbal request,
Petitioner fails to state a claim upon which relief may
be granted. In addition, the alleged violation occurred
before the accrual date for this proceeding. Therefore,
this issue is decided in the District’s favor.

478

34 C.F.R. § 300.503(a)(2).

479

19 TAC § 89.1011(b)((2).

App. 226
5.

Did the ARD committee fail to
consider Student’s PLAAFPs and
how Student’s disability affected his
involvement in the general education
curriculum?
a. Applicable Law

As relevant to this proceeding, each IEP must
contain “[a] statement of the child’s [PLAAFPs],
including (1) how the child’s disability affects the
child’s involvement and progress in the general
education curriculum (i.e. the same curriculum as for
nondisabled children)[.]”480 If PLAAFPs do not identify
the unique needs of the child or establish a baseline for
setting goals and monitoring progress, then the IEP
may be found to deny a FAPE.481 The lack of baseline
data makes it impossible to determine if a student
made adequate progress.482
With respect to behavioral needs, the PLAAFPs
must clearly describe the behavior at issue, so that the
IEP can include appropriate goals and services for the
student to reach them.

480

34 C.F.R. § 300.320(a)(1).

481

See, e.g., Friedman v. Vance, 24 IDELR 654 (D. Md. 1996);
Portland Pub. Schs., 24 IDELR 1196 (SEA ME 1996).
482

34 C.F.R. § 300.320(3); Dover-Eyota Indep. Sch. Dist. #533, 113
LRP 23875 (SEA MN 02/13/13).

App. 227
b. Analysis and Conclusion
As set out in the Findings of Fact, the ARD
committee considered Student’s PLAAFPs and how
Student’s disability affected his involvement in the
general education curriculum. However, the PLAAFPs
were too general to establish a baseline for measuring
Student’s progress toward meeting his goals. As such,
the IEP goals were lacking. However, the issue
presented is whether the ARD committee considered
Student’s PLAAFPs; the ARD committee did consider
the PLAAFPs. The ARD committee should have
requested more information from Student’s teachers so
that baselines could be established for his goals.
Petitioner did not prevail on the issue as presented.
6.

Did the District fail to provide Parent
with requisite notice when Student
was twice restrained in January
2015?
a. Applicable Law

The “decision of whether to use [restraint] is left,
under the IDEA, to individual states.”483 The use of
restraint is permissible under Texas law, which
provides school districts with the authority to adopt
necessary rules, such as those related to the use of
restraint, “for the safety and welfare of students,
employees, and property.”484 The Commissioner of

483

484

Letter to Weiss, 55 IDE LR 173 (ED 2010).

Tex. Atty. Gen. Op. No. RQ-0459-JC (2002)(citing Tex. Educ.
Code § 37.102(a)).

App. 228
Education is required to “adopt procedures for the use
of restraint . . . in the case of a student with a disability
receiving special education services under subchapter
A, Chapter 29.”485
b. Analysis and Conclusion
Petitioner presented no evidence of the District’s
policy regarding what notification, if any, is required
for parents of students in general education, even of
students receiving Section 504 accommodations, if their
child is restrained at school. The evidence shows that
reporting and notification requirements apply to
students who receive special education services under
the IDEA. In January 2015, Student was not receiving
special education services. Petitioner did not prove that
the District was required, under its own policy adopted
pursuant to Texas law, to provide Parents with notice
of Student’s restraints. Petitioner did not prevail on
this issue.
7.

Did the District fail to provide
Student with a commensurate school
day?
a. Applicable Law

The Texas Administrative Code requires “students
with disabilities [to] have available an instructional
day commensurate with that of students without
disabilities. The ARD committee must determine the
appropriate instructional setting and length of day for
each student, and these must be specified in the

485

Tex. Educ. Code § 37.0021(d).

App. 229
student’s IEP.”486 The ARD committee “has the
authority to decide whether to shorten a student’s
instructional day, and, if so, how to shorten it[,]” with
deliberations including “meaningful input from the
student’s parents.”487
In making changes to an IEP after the annual ARD
committee meeting for the school year, a parent of a
child with a disability and a district may agree not to
convene an ARD committee meeting for the purposes of
making those changes, and may develop a written
document to amend or modify the child’s current IEP.
The district must ensure that the ARD committee is
informed of the changes.488
b. Analysis and Conclusion
For the last 20 days of the 2014-2015 school year,
the District failed to provide Student with a
commensurate school day. Under the 20-day plan, his
school day did not begin until 9 a.m. Mother and
Ridgecrest staff agreed to implement the 20-day plan,
and Mother even advocated for the shortened day given
Student’s success with shortened days at The New
School. Then, for the last 11 days of school, Student’s
school day was shortened to 3 hours without ARD
committee consideration or approval. The shortened
486

19 TAC § 89.1075(e).

487

Texas Education Agency, Guidance Regarding Temporary
Absences of Students with Disabilities, tea.texas.gov/WorkArea/
DownloadAsset.aspx?id=25769820647 (referencing 19 TAC
§ 89.1075(e)).
488

34 C.F.R. § 300.324 (a)(i)(ii).

App. 230
school day was not approved by the ARD committee
and there is no evidence that the ARD committee was
informed of the change. The 20-day plan and 3-hour
day denied Student access to the full day of special
education services approved by the ARD committee
when it developed his IEP.
Even if the plans for a shortened school day could be
viewed strictly as a procedural violation, it was a denial
of FAPE. A procedural violation may amount to a
denial of FAPE only if the violation: (1) impeded the
student’s right to a FAPE; (2) significantly impeded a
parent’s opportunity to participate in the decisionmaking process regarding the provision of a FAPE to
the student; or (3) caused a deprivation of educational
benefit.489 Here, Student was deprived of educational
benefit by having a shortened instructional day and
thus, was denied a FAPE. Petitioner prevailed on this
issue.
8.

Did the District fail to develop an
IEP for Student?
a. Applicable Law

The U.S. Supreme Court has ruled that a FAPE
requires tailoring an education to the unique needs of
the child with a disability by means of an IEP that
meets a specific standard.490 As set forth supra, the
Fifth Circuit has summarized the Rowley standard and
has established four factors to determine whether an

489

34 C.F.R. § 300.513.

490

Rowley, 458 U.S. at 181.

App. 231
IEP is reasonably calculated to provide a meaningful
educational benefit under the IDEA.491
Was the substance of the IEP reasonably calculated
to enable Student to receive educational benefits? The
four factors to consider in answering the question are:
(1) was the program individualized on the basis of the
student’s assessment and performance? (2) was the
program is administered in the LRE? (3) were the
services provided in a coordinated and collaborative
manner by the key “stakeholders?” and (4) were
positive academic and nonacademic benefits
demonstrated?492
The IEP must comply with the requirements of 34
C.F.R. §§ 300.320 and 300.324.493 All members of the
ARD committee must have the opportunity to
participate in a collaborative manner in developing the
IEP. A decision of the ARD committee concerning
required elements of the IEP must be made by mutual
agreement impossible.494
b. Analysis and Conclusion
Petitioner seems to complain that because the FIE
did not identify Student’s disability as autism, the IEP

491

Bobby R., at 347-349, citing to Cypress-Fairbanks, 118 F.3d at
247-248, 253.
492

Bobby R., 200 F.3d at 347-348, citing to Cypress-Fairbanks, 118
F.3d at 253; see also Michael F., 118 F.3d at 253.

493

19 TAC § 89.1055(a).

494

19 TAC § 89.1050(g).

App. 232
could not be correctly developed. The appropriateness
of the FIE is not at issue in this proceeding and will not
be addressed by the hearing officer.
The ARD committee substantially complied with the
34 C.F.R. §§ 300.320 and 300.324 requirements and
developed an IEP reasonably calculated to provide a
meaningful educational benefit under the IDEA
according to the four factors set out by the Fifth
Circuit.495 As set forth supra, two of the four factors
were met: the program was administered in the LRE
and services were provided in a coordinated and
collaborative manner by the key “stakeholders.” As
previously discussed, a third factor–positive academic
and nonacademic benefits–was not demonstrated.
The first of the four factors also was not met, in that
the program was not individualized on the basis of the
student’s assessment and performance. The ARD
committee did not develop an IEP to address the
academic needs of Student, a twice exceptional child.
The IEP’s academic goals underestimated his ability as
a Gifted and Talented child and proposed no
meaningful academic growth.
However, an IEP is to be judged as to its
appropriateness at the time it was written, and not
with respect to subsequently obtained information
about the student.496 There is no evidence that the ARD

495

Bobby R., at 347-349, citing to Cypress-Fairbanks, 118 F.3d at
247-248, 253.
496

Roland M v. Concord Sch. Comm., 910 F.2d 983 (1st Cir. 1990),
reh’g en bane denied, 110 LRP 65965 (1 st Cir. 09/14/90), cert.

App. 233
committee could have foreseen that the positive
behavioral interventions included in Student’s IEP
would not be exclusively followed, resulting in de
minimis nonacademic benefit, or that Student, who had
grade-level ability, would fail Math and barely pass two
other classes, resulting in de minimis academic benefit.
Thus, the ARD committee developed an IEP
reasonably calculated to provide a meaningful
educational benefit under the IDEA. Petitioner does
not prevail on this issue.
9.

Did the District fail to implement
Student’s IEP?
a. Applicable Law

A party challenging the implementation of an IEP
must show more than a de minimis failure to
implement all elements of that IEP, and, instead, must
demonstrate that the school board or other authorities
failed to implement substantial or significant
provisions of the IEP. Failure to implement a material
portion of the IEP amounts to denial of a FAPE.497
After an IEP is written and an appropriate
placement determined, the local education agency is
obligated to provide the student with special education

denied, 499 U.S. 912, 110 LRP 66026 (1991). (“[A]n IEP is a
snapshot, not a retrospective,” and “must take into account what
was objectively reasonable at the time the IEP was drafted.”)
497

Bobby R., 200 F.3d. 348-349.

App. 234
and related services as listed in the IEP.498 The local
education agency must implement a student’s IEP with
all required components.499 To prevail on a claim that
the District failed to implement Student’s IEP,
Petitioner must show that the lack of implementation
amounted to a substantial or significant failure to
provide services under the IEP.500
b. Analysis and Conclusion
The District failed to implement Student’s IEP
when Ridgecrest staff adopted the 20-day plan without
ARD committee approval or a change to Student’s IEP.
Under the 20-day plan, which was not considered or
approved by an ARD committee, Student did not begin
school until 9 a.m. and was not provided a
commensurate school day, as required by his IEP. For
the last 11 days of school, Student’s school day was
reduced to 3 hours, again without consideration or
approval of the ARD committee.
It is undisputed that the behavioral interventions in
Student’s IEP were not always correctly implemented.
The IEP required Ridgecrest staff to use a calm
interaction style with Student and to minimize verbal
interactions. Student was to have access to a cooling off
period. Staff was to avoid “power struggles.” Yet
Ridgecrest staff repeatedly used time-outs, used at
least eight physical restraints, and 16 automatic

498

34 C.F.R. § 300.323(c).

499

34 C.F.R. § 300.323(c).

500

Bobby R., at 348-349.

App. 235
isolations.501 In addition, campus police were called on
up to four occasions, the last occasion being so
traumatic for Student that he was placed on a 20-day
plan, shortening school days, just to get him through
the end of the school year.
Petitioner proved by a preponderance of the
evidence that Student’s IEP was not fully implemented
and, in fact, was modified without approval of or
notification to the ARD committee.
10.

Did the District fail to educate
Student in the LRE?
a. Applicable Law

The LRE requirement is one of the central concepts
of appropriate placement under the IDEA. Compliance
with the IDEA’s LRE provision essentially requires
that students with disabilities receive their education
in the regular classroom environment to the maximum
extent appropriate or, to the extent such placement is
not appropriate, in an environment with the least
possible amount of segregation from the students’
nondisabled peers and community.502 The removal of a
child from a regular education environment should only
occur when the nature and severity of the child’s
disability is such that education in a regular classroom

501

The use of time-out must be included in a student’s IEP. 19 TAC
§ 89.1053(g)(2). The word “time-out” appears nowhere in Student’s
IEP. Petitioner Ex. 16; Respondent Ex. 1.
502

34 C.F.R. § 300.114(a).

App. 236
setting cannot be satisfactorily achieved, regardless of
the use of supplemental aids or services.503
Generally, courts have held that the general
education classroom is the appropriate setting for
educating a child with a disability when the child can
be educated satisfactorily in that setting. The mostoften articulated LRE standard is found in Oberti v.
Board of Education, 995 F.2d 1204 (3rd Cir. 1993). The
Oberti standards are: (1) whether the school district
has made reasonable efforts to accommodate the child
in a general education classroom. (2) the educational
benefits available to the child in a general education
class, with appropriate supplementary aids and
services, as compared to the benefits provided in a
special class. (3) the possible negative effects of the
inclusion of the child on the education of the other
students in the class.504
In fact, the LRE provisions of the 2006 IDEA
regulations and interpretive guidelines essentially
provide the equivalent of the Oberti test: (1) whether
the child’s IEP can be implemented in the regular
classroom with the use of appropriate aids and
supports;505 (2) whether placement in the regular
classroom will result in any potential harmful effect on

503

20 U.S.C. § 1412(a)(5)(A).

504

See also Daniel R.R. v. State Board of Education, 874 F.2d 1036,
1048 (5th Cir. 1989)
505

34 C.F.R. §§ 300.114(a)(2)(ii), 300.116(b)(2).

App. 237
the child or on the quality of services that he needs;506
and (3) whether the IEP must include positive
behavioral interventions and supports in the case of a
child whose behavior impedes the child’s learning or
that of others.507
Notwithstanding a presumption in favor of
inclusion, Circuit Courts have ruled that districts
generally are not required to mainstream a student
with a disability who threatens the safety of other
students or poses a danger to himself if placed in the
general education classroom, or engages in significantly
disruptive behavior, even with the use of behavioral
intervention, that interferes with the education of
classmates.508
b. Analysis and Conclusion
As set out in the Findings of Fact, the ARD
committee met all legal requirements in determining
that the LRE for Student was the Adaptive Behavior
program at Ridgecrest. Accordingly, this issue is
decided in the District’s favor.

506

507

508

34 C.F.R. § 300.116(d).
34 C.F.R. § 300.324(a)(2)(i).

See, e.g., R.R. Roncker v. Walter, 700 F.2d 1058 (6th Cir. 1983);
cert. denied, 464 U.S. 864, 104 S.Ct. 196, 78 L.Ed.2d 171 (1983);
A.W. v. Northwest R-1 School District, 813 F.2d 158 (8th Cir. 1987);
cert. denied, 484 U.S. 847, 108 S.Ct. 144, 98 L.Ed.2d 100 (1987);
Sacramento City Unified School District v. Holland, 14 F.3d 1398
(9th Cir. 1994).

App. 238
11.

Did the District fail to incorporate
recommendations from evaluations
into Student’s initial ARD committee
report to address his educational
needs?
a. Applicable Law

There is no requirement that a district “incorporate”
anything from private evaluations. Instead, the duty is
to “consider” the evaluations.509
b. Analysis and Conclusion
The evidence shows that the ARD committee
considered the outside evaluations as addressed in
Student’s FIE. Not only did the District’s
multidisciplinary team hold the FIE open to ensure
consideration of Monarch’s evaluation, but the FIE
recommendations and Monarch recommendations for
Student were essentially the same. Petitioner did not
prevail on this issue.
12.

Did the District fail to ever convene
an ARD committee meeting to
discuss Parent’s request that Student
be returned to the TOTAL program
and fail to issue prior written notice
concerning that refusal?

It is undisputed that no ARD committee meeting
was held to discuss Student’s return to the TOTAL
program. Parents did not request that such a meeting
be held. The District did not have a legal obligation to
509

34 C.F.R. § 300.502(c)(1).

App. 239
convene an ARD committee meeting or to provide prior
written notice based on the informal conversation
between Mother and Ms. Teater regarding Student’s
placement.
The District contends that Ms. Teater did not tell
Mother that Student could not return to the TOTAL
program.510 But even if Ms. Teater told Mother that
Student could not return to the TOTAL program, the
District’s prior written notice duty would not have been
triggered because Ms. Teater, alone, could not make a
placement decision for Student. Only the ARD
committee can make a placement decision for a student
who is receiving special education services.511 Further,
there are only two situations in which the law requires
the issuance of prior written notice based on something
that occurred outside an ARD committee meeting, and
both involve a written request from a parent, either for
referral to special education or for convening an ARD
committee meeting.512 There was no legal obligation for
the District to provide prior written notice in this
situation.
In addition, returning Student to the TOTAL
program, pursuant to Mother’s request, is not
permitted by state law. Texas law prohibits placing a
student with a disability who receives special education

510

See Respondent’s Closing Argument at 15-16.

511

Tex. Educ. Code § 37.004(a).

512

19 TAC §§ 89.1011(b), 1050(e)(2).

App. 240
services in an alternative education program solely for
educational purposes.513
Petitioner did not prevail on this issue.
13.

Did the District fail to ever convene
an ARD committee meeting or
respond to Parent’s constructive
notice and request for placement and
tuition reimbursement at Fusion?
a. Applicable Law

Disagreements between the parents and a public
agency regarding the availability of a program
appropriate for the child, and the question of financial
reimbursement, are subject to the due process
procedures of 34 C.R.F. §§ 300.504 through 300.520.514
When the parents of a student with a disability are
dissatisfied with the public school program, they have
the option of placing their child in a private school
program and then seeking tuition reimbursement from
the school district. Reimbursement may be required if
a hearing officer finds that the school district had not
made FAPE available to the child in a timely manner
prior to that enrollment and that the private placement
is appropriate. A parental placement may be found to
be appropriate even if it does not meet the State

513

Tex. Educ. Code § 37.004(c).

514

34 C.F.R. § 300.148(b).

App. 241
standards that apply to education provided by the
State education agency or local education agency.515
The IDEA provides that the cost of reimbursement
for private school placement can be reduced or denied
if: (1) at the most recent ARD committee meeting
before the child’s removal from school, the parents did
not inform the ARD committee that they were rejecting
the school’s proposed placement, including their
concerns and their intent to privately place the child at
public expense; or (2) at least 10 business days prior to
the removal of the child, the parents did not give
written notice to the school of their intent and their
concerns.516
b. Analysis and Conclusion
At the most recent ARD committee meeting prior to
Student’s unilateral placement at Fusion, committee
members, including Parents, ended the meeting in
mutual agreement. There was no suggestion by Parents
at the ARD committee meeting that they were
dissatisfied with the proposed IEP.
In addition, Parents did not provide the requisite
written notice of the unilateral placement and their
request for tuition reimbursement. The “constructive”
notice at issue appears to be an August 14, 2015 email
from Mother to the District, in which she states, “Sorry
for the late notice. [Student] will not be attending

515

34 C.F.R. § 300.148(c).

516

34 C.F.R. § 300.148(d)(1)(i)(ii).

App. 242
Spring Forest in the fall of 2015.”517 The email
articulates no concerns, request for an ARD committee
meeting, or any indication of an intention to privately
place Student at public expense.
The “constructive notice” in the Complaint filed on
October 28, 2015, proposed tuition reimbursement for
Student’s placement at an unnamed private school. The
more definite notice contained in the Amended
Complaint filed on February 22, 2016, in which Fusion
is named and specific dates are mentioned for tuition
reimbursement, is presented as a proposed remedy for
the hearing officer’s consideration. As such, it would
not be proper for the ARD committee to address the
proposed remedy pending the hearing officer’s decision.
Accordingly, Petitioner did not prevail on this issue.
14.

Did the District fail to provide
Student with a FAPE during the
summer of 2015, and the 2015-16
school year, and is the District
continuing to deprive Student of a
FAPE designed to meet his unique
educational needs?
a. Summer of 2015

Petitioner alleges a denial of a FAPE on the basis of
the lack of ESY services during the summer of 2015.
ESY services are “individualized instructional
programs beyond the regular school year for eligible

517

Petitioner Ex. 33 at 44.

App. 243
students with disabilities.”518 The need for ESY services
must be determined on an individual basis by the ARD
committee. The need for ESY services must be
documented from formal or informal evaluations
provided by the district or the parents.519 To
demonstrate the requisite need, the documentation
must demonstrate that “the student has exhibited, or
reasonably may be expected to exhibit, severe or
substantial regression” in one of more critical areas
addressed in the student’s current IEP goals and
objectives “that cannot be recouped within a reasonable
period of time.”520
If a student requires a significant amount of time to
recoup acquired critical skills, then the ARD committee
must discuss whether the student needs extended
educational or related services during school breaks. If
the loss of acquired critical skills would be particularly
severe or substantial, or if such loss results, or
reasonably may be expected to result, in immediate
physical harm to the student or others, ESY services
may be justified without consideration of the period of
time for recoupment of such skills.521 A skill is
considered “critical” when the loss of that skill results,

518

19 TAC § 89.1065; 34 C.F.R. § 300.106.

519

19 TAC § 89.1065 (1)(2).

520

19 TAC § 89.1065(2); Alamo Heights Indep. Sch. Dist. v. State
Bd of Educ., 790 F.2d 1153 (5th Cir. 1986) (an ESY program is
required when the benefits accrued during the school year may be
significantly jeopardized in the absence of a summer program).
521

Petitioner Ex. 32 at 1-2; 19 TAC § 89.1065.

App. 244
or is reasonably expected to result, in placement in a
more restrictive setting; significant loss of acquired
skills necessary to make appropriate progress in the
general education curriculum; significant loss of selfhelp skills proven by an increase in the number of
direct service staff and the amount of time required to
provide special education or related services; loss of
access to community-based independent living skills
instruction or an independent living environment
provided by non-educational sources; or loss of access
to on-the-job training or productive employment as a
result or’ regression in skill.522 The district will provide
ESY services to maintain the student’s current skills
and/or behavior, but not to teach new skills or
behaviors (such as working on addition, subtraction, or
reading over the summer).523
OSEP advised that a determination for ESY
services based solely on a “lack of progress” would be
inconsistent with the court’s enunciation of either of
two factors that must be considered: significant
regression or detrimental effect on progress toward a
goal.524 Nothing in federal law or the corresponding
regulations requires students with disabilities who do
not meet their IEP goals to participate in ESY.525 As in
other areas of special education, ESY services are not

522

Petitioner Ex. 32 at 4; 19 TAC § 89.1065(4).

523

Petitioner Ex. 32 at 4.

524

Letter to Given, 39 IDELR 129 (OSEP 2003).

525

Letter to Kleczka, 30 IDELR 270 (OSEP 1998).

App. 245
meant or required to maximize a student’s educational
benefit.526
b. 2015-2016 School Year and Beyond
The District has a duty to make a FAPE available
to all children with disabilities between the ages of 3
and 21 who reside within its boundaries.527 Assuming
Student resides within the District’s boundaries, the
District has a duty to make a FAPE available to him.
However, the District’s role changed after Parents
withdrew Student from the District and unilaterally
placed him at Fusion. He is now a “parentally-placed”
private school student.528 As such, due process is not
applicable except as to Child Find. Due process hearing
procedures do not apply to a complaint that a school
district failed to provide special education services to
the child.529
c. Analysis and Conclusion
Summer of 2015
In January 2015, Mother received copies of both
“Notice of Procedural Safeguards” and “A Guide to the
Admission, Review, Dismissal Process,” which provide
information about ESY and should have informed

526

Cordrey v. Euckert, 917 F.2d 1460 (6th Cir. 1990), cert denied,
499 U.S. 938 (1991).
527

34 C.F.R. §§ 300.101, 300.201.

528

34 C.F.R. § 300.130.

529

34 C.F.R. § 300.140.

App. 246
Parents about ESY services. Further, ESY was
discussed at the ARD committee meeting in March
2015 and neither Parents nor the school recommended
the services. Regarding the summer of 2015, there is no
evidence in the record suggesting Student would have
exhibited any regression over the summer, much less
severe or substantial regression. Petitioner does not
prevail on the issue of whether the District failed to
provide a FAPE to Student in the summer of 2015.
2015-2016 School Year and Beyond
As a parentally-placed private school student,
Petitioner’s assertion that the District deprived
Student of a FAPE in 2015-2016 and continues to do so
is not within the hearing officer’s jurisdiction to
consider. As such, Petitioner does not prevail on this
issue.
C. Remedies
1. Compensatory Education
In the 2014-2015 school year, the District did not
timely fulfill its Child Find obligation and did not fully
implement Student’s IEP, denying Student a FAPE. As
such, Student is entitled to a school year of
compensatory education. Some courts have held that
compensatory education may be provided in the form of
private placement. For example, the Eleventh Circuit
Court of Appeals held that nothing in the IDEA
precludes an award of compensatory education in the

App. 247
form of placement in a private school.530 Accordingly,
the hearing officer finds that Student should be
awarded one school year of compensatory education at
Fusion, to be fulfilled in the 2016-2017 school year.
2. Tuition Reimbursement
Private school tuition reimbursement is a remedy
available under the IDEA where a hearing officer finds
that the public agency did not make FAPE available to
the student in a timely manner prior to the private
enrollment and the private placement is appropriate.
A parental placement can be appropriate, even if it
does not meet State standards.531
While Parents did not provide the District with the
required written notice of their intention to place
Student at Fusion, the requested amount of tuition
reimbursement need not be denied or reduced in this
instance. The requested reimbursement may, at the
hearing officer’s discretion, not be reduced or denied for
failure to provide notice if compliance would likely
result in serious emotional harm to the child.532
Student’s return to the District for the 2015-2016
school year could have resulted in serious emotional
harm to him. If Student had returned to the District in
the fall of 2015, he would have been placed in the
530

Draper v. Atlanta Indep. Sch. Sys., 518 F.3d 1275 (11th Cir.
2008).
531

34 C.F.R. § 300.148(c}; Burlington School Committee v.
Department of Education, 471 U.S. 359 (1985).
532

34 C.F.R. § 300.148(e)(2)(ii).

App. 248
Adaptive Behavior program at Spring Branch under
the same IEP that was in place at Ridgecrest.
According to Dr. Powell-Williams, Student was so
regressed in his therapy after some time at Ridgecrest
that it was difficult for him to learn or even go to
school. Mother and Ridgecrest staff agreed to a 20-day
plan of shortened school days and ultimately a 3-hour
school day just to get him through the end of the year.
Even so, his anxiety was so high before the end of the
year that Dr. Powell-Williams advised he should not
attend the last week of school. At the May 2016 due
process hearing, Dr. Powell-Williams testified that
returning to school in the District under any of the
programs provided to him in 2014-2015 would be very
detrimental to Student’s continued developmental
growth, both academically and socially.533
Although Student has not received special education
services at Fusion, he has received an academic benefit
from the one-on-one individualized instruction and a
nonacademic benefit from the opportunity to interact
with both non-disabled and disabled peers, an
opportunity he did not have at Ridgecrest.534

533

534

Tr. at 175 (Powell-Williams)

Unilaterally placed students need not receive services pursuant
to an IEP in order to obtain an award of tuition reimbursement.
The IEP requirements do not apply to a child with a disability who
is unilaterally placed by the child’s parents. Florence County Sch.
Dist. Four v. Carter, 510 U.S. 7 (U.S. 1993); see also Frank G. and
Dianne G. v. Board of Educ. of Hyde Park, 459 F.3d 356 (2d Cir.
2006), cert. denied, 552 U.S. 985 (2007) (ruling that although the
private placement did not provide the student with an individual
aide or consulting services, the student received an educational

App. 249
For reasons set out in this decision, Student’s
placement in the District was not appropriate.
Student’s placement at Fusion is appropriate for the
following reasons:
1.

At Fusion, the educational experience is
personalized. Students can customize class
schedules and begin a new semester any time of
year. Classes are self-paced, and course material
is presented in ways that suit each student’s
individual interests, strengths, and learning
style. Fusion uses the creativity of art and music
programs to help students connect more deeply
with their friends, family, community, and
themselves.535

2.

Fusion uses the Mastery Learning Model as a
basis for knowledge acquisition. The academy is
committed to ensuring that each child masters
the material before moving on to the next class
level. While some students complete all the
standards in a typical amount of sessions, others
may need Mastery Learning Days to ensure
proficiency or to account for absences during the
course of a semester. To guarantee concept
understanding of the Course Standards (State
and/or Common Core Standards) each student
must attain at least a 70 percent comprehension

benefit from the small class size and the individualized
instruction).
535

Petitioner Ex. 21 at 1-2.

App. 250
and proficiency in all classes as assessed by the
course instructor and/or Fusion.536
3.

Fusion teachers have the opportunity to
participate in between 150 hours and 180 hours
of professional development per year, on topics
such as dyslexia, dysgraphia, ADHD, autism,
eating disorders, mental health first aid. They
are required to participate in 70 percent of the
training offered.537

4.

The Homework Café at Fusion is a place for
students to gather and complete their homework
under teacher supervision. Students do not take
homework home thus eliminating nightly
homework battles.538

5.

Fusion’s classes meet State and Common Core
standards, but lessons are tailored to suit each
student’s unique interests.539

6.

Fusion’s Wellness Program complements the
academic experience. The Wellness Program
consists of 20 sessions across four wellness
elements: Art Expression, Music Expression,
Physical Wellness, and Healthy Habits. Fusion

536

Respondent Ex. 26 at 1, 33.

537

Tr. at 482-483 (Lazarou).

538

Petitioner Ex. 21 at 2.

539

Petitioner Ex. 21 at 3.

App. 251
also offers Therapeutic Support to students and
their families.540
7.

In a March 26, 2015 letter “To Whom It May
Concern,” Dr. Powell-Williams recommended a
dyadic instructional environment (one-on-one
academic setting) and positive reinforcements
for Student. She stated that in an academic
setting, Student exhibits an intellectual ability
to complete tasks, but struggles with containing
affect regulation. Examples of anxiety triggers
are physical touch, loud unexpected sounds,
social struggles with peers, and difficulty
remaining calm under provocations.541

8.

In the fall of 2015, Fusion staff interacted with
Dr. Powell-Williams to find out if there was
anything staff could do to better support
Student.542

9.

Student spends about 6 hours per day at school:
3 hours in class and 3 hours in the Homework
Café. Monday/Wednesday classes are the same
and Tuesday/Thursday classes are the same.543

10.

Since enrolling at Fusion, Student looks forward
to attending school; likes his teachers; reads for
class assignments; reads for fun, which he never

540

Petitioner Ex. 21 at 3, 6.

541

Tr. at 161 (Powell-Williams); Petitioner Ex. 17 at 1.

542

Tr. at 441, 486 (Lazarou).

543

Tr. at 445 (Lazarou).

App. 252
used to do; and is proud of the progress he has
made in Math, even though he does not like
Math very much. At home, Student is sleeping
better, in his own bed, and gets up in the
morning ready to get dressed ana go to school.
Student still occasionally has challenges with
showers and brushing his teeth, but he is
generally happy, not depressed, not angry, and
not engaging in outbursts.544
11.

Student has reported to Dr. Wright, who has
been his psychiatrist since 2012, that he likes
the smaller environment and one-on-one classes
at Fusion. 545 Her current medication
prescriptions for Student are for Prozac,
G u a n f a c i ne Ex t ended Rel ease, a n d
Risperidone.546 She decreased the Prozac from 60
milligrams to 40 milligrams in the spring of
2016 because Student’s anxiety has been less
prominent and she reduced the Risperidone
because Student has had no episodes of
aggression.547 She noted that, since Student
began attending Fusion, he seems calmer and
his mood seems to be generally better as

544

Tr. at 3.94-395 (Father).

545

Tr. at 314 (Wright).

546

Tr. at 312, 347-348 (Wright); Petitioner Ex. 30 at 5.

547

Tr. at 315, 324 (Wright); Petitioner Ex. 30 at 5.

App. 253
compared to when he attended school in the
District.548
12.

Mother believes-Fusion is a good fit for Student
because Student is motivated by his
relationships with others; does not respond well
to loud, noisy classes or the institutional
environment of public school; and needs
instructors to take time to explain and problemsolve both assignments and when Student gets
“stuck,” frustrated, or obstinate.549

13.

Mother regularly gets updates from Student’s
teachers at Fusion, and all the updates are
related to academics, not to behavior issues.550

14.

In the summer of 2015, Student took Guitar
with a final grade of 92; Art with a final grade of
A+; and Math with a final grade of A+.551

15.

When Student returned to Fusion for sixth
grade in the fall of 2015, he took four academic
courses, Art, and Yoga.552

16.

Progress reports from September 2015 indicate
Student had been punctual for every History
and Language Arts class, ready to learn; had

548

Tr. at 324 (Wright).

549

Respondent Ex. 26 at 29, 50.

550

Petitioner Ex. 37 at 8.

551

Petitioner Ex. 22 at 62; Respondent Ex. 26 at 12-17; 24.

552

Respondent Ex. 26 at 11.

App. 254
taken what he had learned and applied it,
teaching others, and discussing it freely; and
that the teacher could refocus him easily by
request when his mind wandered.553
17.

The October 2015 progress report from Fusion
indicated Student had A’s in all of his courses.554

18.

By January 2016, Student had earned A’s in
three academic courses and Yoga, a B+ in Math,
and had not yet finished the Art course.555

19.

An End of Course Confirmation is provided to
Parents whenever Student completes a course
because, due to Fusion’s rolling admission, there
is no exact beginning and ending date of
Fusion’s semesters.556
a. In a December 17, 2015 End of Course
Confirmation, Student’s Science teacher
stated that, after a few struggles, Student
worked extra hard to catch up and passed
the class with flying colors. She said Student
displayed determination and efficient work
effort once he realized he had fallen behind
in class.557

553

Petitioner Ex. 22 at 59-61.

554

Petitioner Ex. 22 at 63.

555

Petitioner Ex. 22 at 64-69; Respondent Ex. 26 at 50.

556

Tr. at 429 (Lazarou).

557

Petitioner Ex. 22 at 64.

App. 255
b. In an End of Course Confirmation letter
dated January 15, 2016, Student’s
Geography teacher commented that Student
showed great skill in assignments, though at
times he struggled to stick with a project to
the end, at times wanting to move on to a
new topic or assignment before seeing the
previous assignment through to completion.
She said the quality of his in-class
discussion, understanding of topics, and work
was high, with room to improve.558
c. In an End of Course Confirmation letter
dated January 16, 2016, Student’s English
teacher stated that in reading, Student can
pick up on even the most subtle details in a
story, and he can make inferences and
predictions on the same level as high school
students. He said Student will advocate for
himself when he has trouble in the class, and
that he believes he and Student have built a
good relationship. They have talked about
how to have positive interactions with other
students.559
d. In a January 18, 2016 End of Course
Confirmation letter, Student’s Math teacher
stated Student works through concepts that
are difficult to master, even when the process
is frustrating, and that Student is continuing

558

Petitioner Ex. 22 at 67.

559

Petitioner Ex. 22 at 68.

App. 256
to recognize times when pencil and paper will
be necessary to solve a problem.560
20.

Student has had improved behavior at Fusion.
a. Student had no behavioral incidents at
Fusion between June and October 19,
2015.561
b. In October, there was a huge increase in
student enrollment and the dynamics
changed in the Homework Café, and Student
went from taking Guitar and Yoga to more
academic-oriented classes. The transition
could have caused Student to be involved in
12 incidents of misbehavior between October
20, 2015, and November 20, 2015. 562
c. On November 9, 2015, Student said ugly
things to some of the Fusion high school
students via Instagram; flipped off another
child and signed “D-I-E” to him; agitated a
second child; and, when he was sent to an
empty room, he slammed the door, threw his
belongings, and began to draw on the wall.563
d. Most incidents occurred during unstructured
time, so Student’s schedule was changed as

560

Petitioner Ex. 22 at 69.

561

Tr. at 438, 447 (Lazarou).

562

Tr. at 438, 447 (Lazarou).

563

Tr. at 460 (Lazarou); Respondent Ex. 28 at 1.

App. 257
of December 1, 2015,
unstructured time.564

to

eliminate

e. From November 2015 through May 2016,
Student had 15 behavioral incidents at
Fusion, including refusing to attend class,
walking out of class, pulling a chair out from
under someone, and taking electronics to
school when prohibited.565
f. During the 2015-2016 school year, Student
did not engage in physical aggression at
Fusion or hit any teachers.566
g. Student has never been suspended from
Fusion, but Fusion staff has asked Parents to
pick him up from school when parental
assistance was needed to de-escalate a
situation.567
h. Fusion staff has never called the police to
intervene with Student.568

564

Tr. at 437 (Lazarou); Respondent Ex. 26 at 18.

565

Tr. at 479 (Lazarou); Respondent Ex. 26 at 51.

566

Tr. at 449-450, 490-491 (Lazarou).

567

Tr. at 439, 490 (Lazarou).

568

Tr. at 490 (Lazarou).

App. 258
21.

In the spring of 2016, Student took Art, Earth
Science, English, History, Language Arts, Math,
and Yoga.569

22.

In a February 1, 2016 email to Parents, one of
Student’s teachers commented that Student was
extremely polite and gracious in his interactions
around campus that day, using “please” and
“thank you” repeatedly and offering
compliments.570

23.

In the spring of 2016, Student earned A’s in
three academic courses and Yoga, a B+ in Math,
and had not yet completed Art.571

24.

If Student returns to the District in the fall of
2016, an ARD committee meeting will be
convened to consider Student’s current needs.572

25.

If Student returns to the District in the fall of
2016, he will be placed in the Adaptive Behavior
program at Spring Forest.573

26.

In March 2016, Parents toured the Adaptive
Behavior program at Shadow Oaks Middle

569

Petitioner Ex. 22 at 72, 75; Respondent Ex. 26 at 47.

570

Petitioner Ex. 22 at 74.

571

Respondent Ex. 26 at 50; see also Petitioner Ex. 22 at 75-76, 8082, indicating Student’s final grades at Fusion in Language Arts
and Science were B’s.
572

Respondent Ex. 27 at 1.

573

Respondent Ex. 27 at 2.

App. 259
School (rather than at Spring Forest) and
determined the program would not meet
Student’s unique behavioral, emotional, and
social needs or his unique academic needs as a
Gifted and Talented student with “very
superior” intelligence.574
27.

Student’s success at Fusion was so immediate
and his academic advancement so significant
that Parents do not want to risk placing Student
in an Adaptive Behavior program, as the District
suggests. In the Adaptive Behavior program at
Ridgecrest, Student made some marginal
progress but the effect on his emotional
wellbeing was detrimental.575

28.

Removing Student from Fusion, where he is
finally enjoying academic success and a state of
emotional well-being, would be detrimental to
Student’s emotional and academic development,
especially in light of the District’s apparent
inability to offer Student a similar program.576

574

Tr. at 391 (Father); Petitioner Ex. 33 at 46, 48-49; Respondent
Ex. 27 at 2.
575

576

Petitioner Ex. 37 at 8.
Respondent Ex. 27 at 2-3.

App. 260
29.

In the fall of 2015, Parents paid Fusion $24,150
for tuition577 and $1,950 in tutoring and
mentoring costs for Student.578

30.

Parents paid $24,150 tuition for Student to
attend Fusion in the spring of 2016.579

31.

Petitioner proved by a preponderance of the
evidence that Student’s placement at Ridgecrest
was not appropriate and that placement in the
Adaptive Behavior program at Spring Forest for
the 2015-2016 school year, as set out by the ARD
committee, would have been emotionally
detrimental to him.580

32.

Petitioner proved by a preponderance of the
evidence that Student’s placement at Fusion is
appropriate.581

33.

Parents are entitled to tuition reimbursement of
$50,250 from the District.
VI. CONCLUSIONS OF LAW

1.

The District is a local educational agency
responsible for complying with the IDEA as a

577

Respondent Ex. 26 at 23.

578

Respondent Ex. 26 at 22.

579

Respondent Ex. 26 at 19-21, 47.

580

34 C.F.R. § 148(e).

581

Draper v. Atlanta Indep. Sch. Sys., 518 F.3d 1275 (11th Cir.
2008).

App. 261
condition of the State of Texas’s receipt of
federal education funding, and the District is
required to provide each disabled child in its
jurisdiction with a FAPE, pursuant to the IDEA,
20 U.S.C. § 1400 et seq.
2.

Parents of students with disabilities are entitled
to file a due process complaint and have a
hearing on any matter relating to the
identification, evaluation, or educational
placement of the student, or the provision of a
FAPE to the student. 20 U.S.C. § 1415(f); 34
C.F.R. §§ 300.507-300.513.

3.

Petitioner bears the burden of proof on all issues
raised in the proceeding, except for the District’s
counterclaim. Schaffer ex rel. Schaffer v. Weast,
546 U.S. 49, 62, 126 S.Ct. 528, 537, 163 L.Ed.2d
387 (2005).

4.

The 1-year statute of limitations applies to this
proceeding. 19 Tex. Admin. Code § 89.l 151(c).

5.

In March 2015, the District determined that
Student is a child with one of the IDEAenumerated disabilities, who by reason thereof,
is eligible for special education and related
services, which Student receives as a child with
Emotional Disturbance. 34 C.F.R. § 300.8(a)(1);
19 Tex. Admin. Code § 89.1040(a), (c)(4).

6.

The District did not fulfill its Child Find
obligation as to Student. 34 C.F .R. § 300.111; 19
Tex. Admin. Code § 89.1011.

App. 262
7.

The District did not provide Student with a
FAPE in 2014-2015. 20 U.S.C. § 1401(9); 34
C.F.R. § 300.17; Board of Edu. of the Hendrick
Hudson Cent. Sch. Dist., Westchester County v.
Rowley, 458 U.S. 176, 181; 102 S.Ct. 3034, 3038
(1982); Houston Indep. Sch. Dist. v. Bobby R.,
200 F.3d 341, 347-348 (5th Cir. 2000).

8.

The District considered providing Student with
positive behavioral supports and interventions.
34 C.F.R. § 300.324(a)(2)(i).

9.

The District’s was not required to provide
Parents with prior written notice when its
refused to evaluate Student following Mother’s
verbal request for an evaluation. 34 C.F.R.
§ 300.503(a)(2); 19 Tex. Admin. Code § 89.101
l(b)(2).

10.

In developing Student’s IEP, the ARD committee
considered Student’s PLAAFPs and how
Student’s disability affected his involvement in
the general education curriculum. 34 C.F.R.
§ 300.320(a)(1).

11.

The District was not required to provide Parents
with notice when Student was twice restrained
in January 2015. Letter to Weiss, 55 IDELR 173
(ED 2010); Tex. Atty. Gen. Op. No. RQ-0459-JC
(2002)(citing Tex. Educ. Code § 37.102(a)); Tex.
Educ. Code § 37.0021(d).

12.

The District did not provide Student with a
commensurate school day for the last 20 days of
the 2014-2015 school year. 19 Tex. Admin. Code
§ 89.1075(e).

App. 263
13.

The District developed an appropriate IEP for
Student. 34 C.F.R. §§ 300.320 through 300.324;
Rowley, 458 U.S. at 181; Bobby R., 200 F.3d at
347-348, citing to Cypress-Fairbanks, 118 F.3d
at 253; see also Michael F., 118 F.3d at 253.

14.

The District failed to fully implement Student’s
IEP as written. 19 TAC § 89.1075(e).

15.

Student’s placement at Ridgecrest meets the
LRE requirements of the IDEA. 20 U.S.C.
§ 1412(a)(5); 34 C.F.R. §§ 300.114, 300.116;
Daniel R.R. v. State Board of Education, 874
F.2d 1036, 1039, 1046-1047 (5th Cir. 1989).

16.

There is no requirement that an ARD committee
incorporate information from private
evaluations when developing an IEP. Instead,
the ARD committee is to consider the private
evaluations. The District’s ARD committee
considered private evaluations when preparing
Student’s IEP. 34 C.F.R. § 300.502(c)(1).

17.

The District did not have a legal obligation to
convene an ARD committee meeting or to
provide prior written notice to Parents that an
ARD committee meeting would not be convened
to discuss Mother’s request that Student be
returned to the TOTAL program. Tex. Educ.
Code § 37.004(a)(c); 19 Tex. Admin. Code
§§ 89.1011(b), 89.1050(e)(2).

18.

The District did not have a legal obligation to
convene an ARD committee meeting to discuss
Parents’ request for tuition reimbursement for
Fusion when Parents did not provide the

App. 264
District with the required written notice of their
intention. 34 C.F.R. § 300.148.
19.

The District did not fail to provide Student a
FAPE during the summer of 2015 because
Student did not meet the criteria for ESY
services. 19 Tex. Admin. Code § 89.1065.

20.

Petitioner’s allegation that the District denied
Student a FAPE in 2015-2016 and continues to
do so is not within the hearing officer’s
jurisdiction to consider because Student is a
parentally-placed private school student. 34
C.F.R. §§ 300.130, 300.140.

21.

The District should reimburse Parents for
Student’s tuition at Fusion for the 2015-2016
school year. 34 C.F.R. § 300.148; Burlington
School Committee v. Department of Education,
471 U.S. 359 (1985).

22.

As a form of compensatory education, Student’s
placement at Fusion at the District’s expense for
the 2016-2017 school year is appropriate. Draper
v. Atlanta Indep. Sch. Sys., 518 F.3d 1275 (11th
Cir. 2008).

23.

Student’s placement is proper at Fusion even
though Fusion is not on TEA’s list of approved
nonpublic day schools. Florence County School
District Four v. Shannon Carter, 510 U.S. 7
(1993) (rejecting district’s defense that parents
were not entitled to reimbursement of unilateral
private school costs because private school was
not on state’s approved list).

App. 265
ORDER
Having considered the evidentiary record and the
foregoing Findings of Fact and Conclusions of Law, the
hearing officer hereby orders as follows:
Petitioner’s requested relief is denied in part and
granted in part. The District is to reimburse Parents
$50,250 in tuition and tutoring fees for Student’s 20152016 school year at Fusion. Student is to remain at
Fusion for the 2016-2017 school year and the District
is to reimburse Parents for the 2016-2017 tuition. All
other requested relief is denied.
SIGNED August 3, 2016.
/s/ Sharon Cloninger
Sharon Cloninger
Special Education Hearing Officer
For the State of Texas
NOTICE TO THE PARTIES
This Decision of the hearing officer is a final and
appealable order. Any party aggrieved by the findings
and decision made by the hearing officer may bring a
civil action with respect to the issues presented at the
due process hearing in any state court of competent
jurisdiction or in a district court of the United States.582

582

20 U.S.C. § 1451(i)(2); 34 C.F.R. § 300.516; 19 Tex. Admin. Code
§ 89.1185(n).

App. 266

APPENDIX F
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-20274
[Filed: June 30,2020]
__________________________________________
SPRING BRANCH INDEPENDENT
)
SCHOOL DISTRICT
)
)
Plaintiff - Appellant
)
)
v.
)
)
O.W., by next friend Hannah W.,
)
)
Defendant - Appellee
)
__________________________________________)
*********************************************
__________________________________________
HANNAH W., as Parent/Guardians/
)
Next Friends of O.W., an Individual
)
with a Disability; DANIEL W., as
)
Parents/Guardians/Next Friends of
)
O.W., an Individual with a Disability; O.W., )
)
Plaintiffs - Appellees
)
)
v.
)
)

App. 267
SPRING BRANCH INDEPENDENT
SCHOOL DISTRICT,

)
)
)
Defendant - Appellant
)
__________________________________________)
Appeal from the United States District Court
for the Southern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion 6/12/2020, 5 Cir., _____ , _____ F.3d _____ )
Before HIGGINSON and WILLETT, Circuit Judges,
and BROWN, District Judge.*
PER CURIAM:
(X)

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.

( )

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are

*

District Judge of the Northern District of Mississippi, sitting by
designation.

App. 268
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.

ENTERED FOR THE COURT:
/s/________________________________
UNITED STATES CIRCUIT JUDGE

App. 269

APPENDIX G
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-20274
[Filed: September 16, 2019]
__________________________________________
SPRING BRANCH INDEPENDENT
)
SCHOOL DISTRICT
)
)
Plaintiff - Appellant
)
)
v.
)
)
O.W., by next friend Hannah W.,
)
)
Defendant - Appellee
)
__________________________________________)
*********************************************
__________________________________________
HANNAH W., as Parent/Guardians/
)
Next Friends of O.W., an Individual
)
with a Disability; DANIEL W., as
)
Parents/Guardians/Next Friends of
)
O.W., an Individual with a Disability; O.W., )
)
Plaintiffs - Appellees
)
)
v.
)
)

App. 270
SPRING BRANCH INDEPENDENT
SCHOOL DISTRICT,

)
)
)
Defendant - Appellant
)
__________________________________________)
Appeal from the United States District Court
for the Southern District of Texas
Before HIGGINSON and WILLETT, Circuit Judges,
and BROWN, District Judge.*
DEBRA M. BROWN, District Judge:
After years of private schooling, O.W., a minor,
enrolled in the fifth grade in the Spring Branch
Independent School District for the 2014–2015
academic year. From his first day of school, O.W.
struggled behaviorally and, despite having a history of
mental illness, was not referred for a special education
evaluation until January of 2015. Following transfers
to two different programs, O.W.’s behavioral problems
continued. Ultimately, O.W. was withdrawn from
school with three days remaining in the academic year.
An administrative hearing officer found the School
District violated the Individuals with Disabilities
Education Act and awarded O.W. two years of private
school tuition. The district court affirmed the award
and the School District appealed. We AFFIRM in part,
REVERSE in part, and REMAND.

*

District Judge of the Northern District of Mississippi, sitting by
designation.

App. 271
I. FACTUAL AND PROCEDURAL
BACKGROUND
The factual and procedural record in this case is
extensive but largely undisputed.1
A. O.W.’s Early Education
During the summer of 2009, Hannah W. and Daniel
W. registered O.W., their minor son, for kindergarten
at Nottingham Elementary in the Spring Branch
Independent School District. Although O.W. possessed
a well-above average intelligence,2 he experienced
various behavioral problems at Nottingham, including
aggression towards other children.
After O.W. completed his kindergarten year, his
parents enrolled him at Rainard, a private school. O.W.
attended Rainard as a first grader (the 2010–2011
academic year) and a second grader (the 2011–2012
academic year). Following a self-harm attempt during
his second grade year, O.W.’s parents moved him to
The New School in the Heights, a private school for
children with social-emotional challenges. O.W.
attended The New School for third grade (the
2012–2013 academic year) and fourth grade (the
2013–2014 academic year). O.W. exhibited behavioral

1

The amicus brief of Disability Rights Texas cites evidence outside
the appellate record to establish that “[s]chool districts throughout
Texas have intentionally disregarded their Child Find duties.” This
court ordinarily does not consider evidence outside the record on
appeal, McIntosh v. Partridge, 540 F.3d 315, 327 (5th Cir. 2008),
and will not do so here.
2

O.W.’s IQ was most recently measured in the “superior” range.

App. 272
problems at The New School but finished the fourth
grade with passing scores.
B. Return to Nottingham
In the summer of 2014, O.W.’s parents registered
O.W. for the fifth grade (the 2014–2015 academic year)
at Nottingham. Before the start of the term, Ms. W.
provided Nottingham officials with an August 7, 2014,
letter from Dr. Robbi Wright, who had served as O.W.’s
psychiatrist since the end of 2012. The letter stated
that O.W. suffered from attention deficit hyperactivity
disorder and would thus benefit from § 5043
accommodations. Ms. W. also spoke with O.W.’s
teacher “to provide a little background” about O.W.
On the first day of school, teachers discovered
violent images of murder and death drawn by O.W.
That day, Ms. W. conferenced with Nottingham’s
principal regarding the images. Over the next few days,
Ms. W. spoke often with Nottingham’s principal and
assistant principal, and informed them that O.W.
transferred from a therapeutic school, that he had
difficulty with transitions, and that he suffered from
Oppositional Defiant Disorder, Mood Disorder, Anxiety,
and Depression.
3

Section 504 of the Rehabilitation Act, 29 U.S.C. § 794(a), “broadly
prohibit[s] discrimination against disabled persons in federally
assisted programs or activities.” D.A. ex rel. Latasha A. v. Hous.
Indep. Sch. Dist., 629 F.3d 450, 453 (5th Cir. 2010). The provision
differs from the IDEA in that the “IDEA guarantees individually
tailored educational services for children with disabilities, while
Title II [of the Americans with Disabilities Act] and § 504 promise
non-discriminatory access to public institutions.” Fry v. Napoleon
Cmty. Schs., 137 S. Ct. 743, 756 (2017).

App. 273
Ms. W. also provided the school with contact
information for Dr. Powell-Williams, a counselor from
The New School who had provided daily counseling to
O.W. Dr. Powell-Williams spoke with school staff and
offered strategies to manage O.W. Also, district officials
collaborated with O.W.’s parents and worked with O.W.
“to find out what could be used as incentives to get him
to complete his work.” Despite these efforts, O.W.
continued to act out by regularly engaging in acts of
verbal and physical aggression, refusing to follow
directions, leaving assigned areas without permission,
sleeping excessively in class, and touching or taking
others’ property. By early October of 2014, O.W. was
interrupting classes daily.
On September 16, 2014, Nottingham provided Ms.
W. a § 504 “Notice of Rights” and notice of a § 504
eligibility meeting to be held October 1, 2014. At
approximately the same time, Ms. W. signed a “Notice
and Consent for Initial Section 504 Evaluation,”
consenting to an evaluation of O.W. to determine
whether he qualified for § 504 accommodations.
On September 23, 2014, Ms. W. provided a Family
History Form to the School District which included a
history of O.W.’s behavioral problems and a list of his
medications. Ms. W. also provided the School District
with a May 2012 evaluation of O.W. performed by Dr.
Susan Rosin. Dr. Powell-Williams called the principal
and discussed the possibility of a special education
evaluation of O.W. Ultimately, the School District
postponed the October 1 meeting until October 8, 2014,
apparently to allow the School District’s Licensed

App. 274
Specialist in School Psychology (LSSP) to review Dr.
Rosin’s evaluation.
At the October 8 meeting, the School District
determined that O.W. qualified for § 504
accommodations. To this end, O.W.’s parents and
administration officials agreed to a behavior
intervention plan (BIP), which appears to have been
put in place.4 The plan utilized “Success Charts” which
tracked O.W.’s problematic behaviors at thirty-minute
intervals and provided rewards for good behavior.
Notes from the meeting reflect O.W. was “at Level 2
intervention [methods but] may need to go to Tier 3.”
The BIP’s implementation had a minimal impact on
O.W.’s behavior. The frequency of his misconduct
“diminish[ed]” for a short time—O.W. was only
disciplined once from October 8 until November 4 after
being disciplined eight times from August 26 through
October 6. However, O.W. was disciplined three times
in November, including for a “major disru[ption]”
related to him climbing the walls of the gym. In
addition to these documented incidents of discipline,
O.W. twice fell asleep in class during the month of
November. Furthermore, by the end of the semester,
his grades had dropped.

4

Ms. W. testified at the administrative hearing that during the
meeting, she requested a special education evaluation for O.W. but
the LSSP in attendance stated the evaluation was unnecessary. An
administration official at the meeting testified she did not recall
the request. Notes from the meeting do not include the request.
However, both the hearing officer and the district court
determined the request was made.

App. 275
On January 9, 2015, O.W. hit a staff member in the
back with a jacket. Shortly after, O.W. assaulted his
fifth-grade teacher, “kicking her and hitting her with a
closed fist.” The second of these incidents resulted in
the teacher bringing charges against O.W.
On January 15, 2015, the School District convened
a second § 504 meeting. At the meeting, the School
District informed O.W.’s parents that O.W. would be
referred for a special education evaluation and that
during the evaluation O.W. could either remain a
student at Nottingham with a new teacher and a
personal aide, or enroll at the School District’s
Turnaround Opportunities through Active Learning
(TOTAL) program. O.W.’s parents agreed to enroll
O.W. in TOTAL.
C. Development of IEP
While enrolled in TOTAL, O.W. was assigned a
multidisciplinary team which included an LSSP, an
educational diagnostician, and a speech-language
pathologist. Following a brief delay to consider a
February 2015 private report provided by O.W.’s
parents, the team completed a Full Individual
Evaluation (FIE) on February 24, 2015. Although the
private report provided by O.W.’s parents diagnosed
O.W. with autism,5 the evaluation team rejected the
diagnosis. The team determined O.W. was a “student

5

Following the October 8, 2014, meeting, O.W.’s parents paid for
a private Independent Educational Evaluation which was
performed in December 2014. The resulting report, which was
produced in February 2015, diagnosed O.W. with Autism Spectrum
Disorder.

App. 276
with poor emotional and behavioral regulation” who
suffered from an Emotional Disturbance.
On March 11, 2015, an Admission, Review and
Dismissal Committee (ARDC)6 convened to consider the
FIE and develop an IEP for O.W. Based on a
Functional Behavior Assessment and consultation with
O.W.’s parents, the ARDC developed a BIP. As
explained by the district court, the BIP:
focused on using positive behavioral approaches.
For physical aggression (e.g., throwing objects,
hitting, kicking, destroying school property),
staff were to help O.W. learn replacement
behaviors (e.g., removing himself to a cooling-off
area, implementing deep breathing, calming
sequences, stop and think). Additionally, staff
were to avoid power struggles and arguments,
and instead offer choices, frequent/movement
breaks, and access to preferred activities. For
verbal aggression (e.g., threats, profanity,
obscene gestures, name calling), staff were to
teach O.W. alterative phrases, avoid power
struggles, allow frequent/movement breaks,
provide access to preferred activities and a
cooling-off area, and provide direct instruction
on ways to verbalize discontent. Again, staff
were to use calm interaction styles and minimize
6

Under Texas law, each district must establish an ARDC “for each
eligible student with a disability and for each student for whom a
full individual and initial evaluation is conducted . . . .” 19 Tex.
Admin. Code § 89.1050. “The ARD committee is the individualized
education program (IEP) team defined in federal law and
regulations . . . .” Id.

App. 277
verbal interactions. For the behavioral problem
of leaving the classroom, staff were to offer a
visual schedule, clear rules, offer choices,
frequent/movement breaks, provide access to
preferred activities or a cooling-off area, and
reinforce desired behaviors. Again, staff were to
use a calm interaction style and redirect O.W.
back to assigned areas, and remind him of his
ability to access the cooling-off area. The IEP
does not state that time-outs or restraints would
be used as a tactic to address any of the above
conduct.
The ARDC and O.W.’s parents also agreed to enroll
O.W. in an “adaptive behavior program” located at
Ridgecrest Elementary School. O.W. enrolled at
Ridgecrest on March 23, 2015. While at Ridgecrest,
O.W. maintained passing grades in all his classes and
passed all portions of the State of Texas Assessments
of Academic Readiness.
D. Implementation of IEP
At Ridgecrest, when O.W. engaged in inappropriate
conduct (known as “target behavior”), he was provided
a “redirection,” then a warning, then two warnings, and
then directed to a desk (take-desk) in the classroom for
a five-minute period (Take 5) or a ten-minute period
(Take 10). During these periods, O.W. was given the
opportunity to pursue replacement behavior, such as
drawing. Disciplinary records show O.W. was placed in
a Take 5 or Take 10 on sixteen of his forty days at
Ridgecrest.

App. 278
In addition to the take-discipline, O.W. was
physically restrained on eight occasions. Each instance
of restraint was preceded by physical aggression by
O.W. and attempts at de-escalation by Ridgecrest staff.
On at least four occasions, Ridgecrest summoned police
as a result of O.W.’s behavior. However, because O.W.
often calmed down before the police arrived, it appears
the police spoke with O.W. only once.
On May 5, 2015, police were summoned to O.W.’s
classroom after teachers attempted de-escalation
(providing choices of alternative activities, verbal
redirection, calming techniques, and reduced verbal
interaction); O.W. repeatedly struck his teacher with a
closed fist and then charged at her; and the teachers
restrained O.W. Upon entering the classroom, the
officer “stated to [O.W.] who was in charge, and [then]
asked if he wanted to go to jail.” The officer also asked
if O.W. “remembered why he was in a cop car last
time.” After the interaction with police, O.W. “picked
his ears until they were bloody and oozing,” “chewed
his shirt,” and was unable to sleep or shower by
himself.
The day after the police intervention occurred,
Ridgecrest faculty and Ms. W., without consultation
with O.W.’s ARDC, agreed in writing that O.W.’s school
day should begin at 9 a.m. instead of the normal 7:30
a.m. On May 18, 2015, school officials and Ms. W.
agreed that O.W.’s school day should be shortened to
three hours, from 9 a.m. until noon. The e-mail
memorializing this agreement states, “this means a
brief ARD [but] that he will begin the schedule
tomorrow.” Ultimately, at the suggestion of Dr. Powell-

App. 279
Williams, O.W. left Ridgecrest with three days left in
the school year.
E. Fusion Academy and Administrative
Proceedings
The following summer, O.W.’s parents enrolled him
for tutoring at Fusion Academy, a private institution.
Because O.W.’s parents and teachers noticed an
improvement in O.W.’s behavior and performance,
O.W.’s parents elected to enroll O.W. at Fusion for the
2015–2016 academic year. On August 14, 2015, less
than ten days before the beginning of the School
District’s school year, O.W.’s parents informed the
School District that O.W. would not be re-enrolling.
O.W. attended Fusion for the 2015–2016 academic
year, and enrolled at Fusion for the 2016–2017
academic year. However, on February 16, 2017, O.W.
set fire to a school trash can. Due to this incident, O.W.
was removed from school and O.W.’s parents were
informed he would not be allowed to return until he
received “intervention.” Following his removal, the W.’s
enrolled O.W. at Little Keswick, a residential school in
Virginia.
O.W.’s parents filed an administrative complaint
against the School District on October 28, 2015. The
complaint sought reimbursement for private school
tuition, private placement, and other equitable relief.
On February 23, 2016, O.W.’s parents filed an amended

App. 280
administrative complaint.7 The parties appeared for an
administrative hearing on May 24, 2016.
On August 5, 2016, the hearing officer issued a
decision in O.W.’s favor on four issues, finding that
(1) the School District violated its child find obligation
because it did not timely refer O.W. for a special
education evaluation; (2) the School District failed to
provide O.W. a free appropriate public education
(FAPE) for the 2014–2015 academic year because it did
not timely fulfill its child find duties, because it
violated his IEP by placing him in school for only three
hours a day, and because O.W., who was gifted and
talented, was failing math; (3) the reduction of hours in
May 2015 deprived O.W. of a commensurate school day;
and (4) the School District failed to implement O.W.’s
IEP because it used restraints, time-outs, and police
intervention, and reduced O.W.’s school hours.
Based on these findings, the hearing officer
determined that O.W. was entitled to reimbursement
from the School District for $50,250 in tuition and
tutoring for O.W.’s enrollment at Fusion for the
2015–2016 academic year, and that O.W. was entitled
to a compensatory education award of tuition for
Fusion for the 2016–2017 school year.

7

The amendment added three allegations not contained in the
original complaint related to alleged failures to convene ARDC
meetings, and a failure to provide a free appropriate public
education for the 2014–2015 academic year and beyond.

App. 281
F. District Court Proceedings
On August 30, 2016, the School District appealed
the administrative decision to the United States
District Court for the Southern District of Texas. The
administrative appeal was consolidated with a separate
fee petition filed by O.W.’s parents which seeks
attorney’s fees for the underlying administrative
action.
The parties filed cross-motions for summary
judgment on the hearing officer’s decision.
Additionally, the W.’s sought an order that the School
District pay $125,000 for O.W.’s tuition at Little
Keswick as a “stay put”8 remedy. The district court
denied the request for “stay put” relief, finding that a
“newly articulated program proposed by” the School
District which would provide O.W. one-on-one
instruction “is the appropriate stay-put placement
during the pendency of this appeal given O.W.[’s]
inability to continue attending Fusion Academy.”
On March 29, 2018, the district court granted the
W.’s summary judgment motion, affirmed the hearing
officer’s decision, and denied the School District’s
motion for summary judgment. This appeal followed.
During the pendency of the appeal, two amicus briefs
were filed—one by the Council of Parent Attorneys and

8

The IDEA’s “stay put” provision provides that “during the
pendency of any proceedings conducted pursuant to this section,
unless the State or local educational agency and the parents
otherwise agree, the child shall remain in the then-current
educational placement of the child . . . .” 20 U.S.C. § 1415(j).

App. 282
one by Disability Rights Texas. Both briefs support the
district court’s decision.
II. STANDARD OF REVIEW
“[F]or appeals in IDEA actions, [the] standard of
review for . . . summary judgments is obviously more
expansive than the usual de novo review for summary
judgments . . . prescribed by Federal Rule of Civil
Procedure 56(a).” E.R. ex rel. E.R. v. Spring Branch
Indep. Sch. Dist., 909 F.3d 754, 762 (5th Cir. 2018). We
“review[] legal questions de novo and factual questions
for clear error.” Dallas Indep. Sch. Dist. v. Woody, 865
F.3d 303, 309 (5th Cir. 2017). “Mixed questions should
be reviewed under the clearly erroneous standard if
factual questions predominate, and de novo if the legal
questions predominate.” Seth B. ex rel. Donald B. v.
Orleans Par. Sch. Bd., 810 F.3d 961, 967 (5th Cir.
2016) (quoting Beech v. Hercules Drilling Co., 691 F.3d
566, 569 (5th Cir. 2012)).
Of relevance here, determinations of whether a
school district failed to provide a FAPE or failed to
comply with its child find duty in a timely manner are
mixed questions which we review de novo. Krawietz ex
rel. Parker v. Galveston Indep. Sch. Dist., 900 F.3d 673,
676 (5th Cir. 2018) (child find decision reviewed de
novo); Woody, 865 F.3d at 309 (FAPE decision reviewed
de novo). The underlying factual determinations are
reviewed for clear error. Krawietz, 900 F.3d at 676;
Woody, 865 F.3d at 309.
III. DISCUSSION
On appeal, the School District challenges the
district court’s conclusions that (1) the School District

App. 283
breached its child find duty with regard to O.W.; (2) the
School District failed to fully implement O.W.’s IEP;
and (3) two years of private placement tuition was an
appropriate remedy for O.W.
A. Child Find
Pursuant to the IDEA’s child find requirement, a
state receiving federal funds must maintain policies
and procedures to ensure, among other things, that
“[a]ll children with disabilities . . . who are in need of
special education and related services, are identified,
located, and evaluated . . . .” 20 U.S.C. § 1412(a)(3).
While the statute’s implementing regulations define
“how quickly a school district must act after consent for
an evaluation is received, . . . neither the statute nor
regulations seek to set a time between notice of a
qualifying disability and referring the student for an
evaluation . . . .” Woody, 865 F.3d at 319. This court,
however, has inferred a “reasonable-time standard”
into the provision. Id. at 320. Thus, a school district
must “identify, locate, and evaluate students with
suspected disabilities within a reasonable time after
the school district is on notice of facts or behavior likely
to indicate a disability.” Krawietz, 900 F.3d at 676
(internal quotation marks and citation omitted).
Here, the hearing officer found the School District
violated its child find duty when it “waited until
January 2015 to refer [O.W.] to special education,”
despite the fact that it should have suspected O.W.
suffered from a disability “[b]y the October 28, 2014
accrual date for this proceeding . . . .” The district court
upheld the hearing officer’s decision based on a finding
that the School District’s time to evaluate began to run

App. 284
on October 8, 2014. Citing 34 C.F.R. § 300.534, the
district court further held that “given O.W.’s constant
violation of the student code of conduct due to his
special needs, SBISD was charged with expediting the
evaluation process.” Ultimately, the district court
determined the delay between October 8, 2014 (the
date of the alleged notice) and January 15, 2015 (the
date of the referral for evaluation) was unreasonable.
The School District argues the district court
improperly relied on § 300.534 to find the need for an
expedited review process and, in the absence of such a
need, there was no child find violation.
1. Was an expedited evaluation required?
20 U.S.C. § 1415(k)(5) provides protections for “[a]
child who has not been determined to be eligible for
special education and related services . . . and who has
engaged in behavior that violate[s] a code of student
conduct . . . .” Generally, these protections apply if the
educational institution “had knowledge . . . that the
child was a child with a disability before the behavior
that precipitated the disciplinary action occurred.” Id.
However, in the absence of knowledge, the statute
provides:
If a request is made for an evaluation of a child
during the time period in which the child is
subjected to disciplinary measures under this
subsection, the evaluation shall be conducted in
an expedited manner. If the child is determined
to be a child with a disability, taking into
consideration information from the evaluation
conducted by the agency and information

App. 285
provided by the parents, the agency shall
provide special education and related services in
accordance with this subchapter, except that,
pending the results of the evaluation, the child
shall remain in the educational placement
determined by school authorities.
20 U.S.C. § 1415(k)(5)(D)(ii).
34 C.F.R. § 300.534, the implementing regulation
for § 1415(k)(5), contains virtually identical language
but clarifies that an expedited evaluation is required
when “a request is made for an evaluation of a child
during the time period in which the child is subjected
to disciplinary measures under § 300.530 . . . .” 34
C.F.R. § 300.534(d)(2)(i). Section 300.530, in turn,
governs removal of a student from his or her current
placement for more than ten days in a school year.
Neither the child find provision nor the expedited
evaluation provision refer to the other. Thus, in the
absence of plain language connecting the provisions, we
“employ can[]ons of statutory construction to discern
the legislature’s intent.” Vielma v. Eureka Co., 218 F.3d
458, 464 (5th Cir. 2000). At least four aspects of the
statutes suggest Congress intended that the
requirements exist independently.
First, the absence of any cross-reference between
the two provisions suggests independence. Chamber of
Commerce of U.S.A. v. U.S. Dep’t of Labor, 885 F.3d
360, 381 (5th Cir 2018) (“Congress’s use and
withholding of terms within a statute is taken to be
intentional.”).

App. 286
Second, beyond sharing general references to
evaluations, the statutes and regulations are
drastically different—the child find requirement details
procedures for identifying disabled students while the
expedited evaluation requirement is in a provision
addressing procedures for discipline. Charvat v. NMP,
LLC, 656 F.3d 440, 449 (6th Cir. 2011) (“[T]he two
private-right-of-action provisions contain significant
textual differences, indicating that they are distinct
provisions to be treated independently.”).
Third, the expedited evaluation requirement is in a
subparagraph titled “Limitations,” which is located in
a subsection titled “Conditions that apply if no basis of
knowledge [of disability].” 20 U.S.C. § 1415(k)(5)(D)(ii).
Thus, in context, the expedited evaluation requirement
stands as a “Limitation” on a school district’s ability to
discipline a student in the absence of knowledge of a
disability, not as an element of the separate child find
requirement. See House v. C.I.R., 453 F.2d 982, 987
(5th Cir. 1972) (“[I]t is proper to consult both the
section heading and the section’s content to come up
with the statute’s clear and total meaning.”).
Fourth, the expedited evaluation requirement only
triggers when the child is subjected to disciplinary
proceedings, a request for an evaluation has been
made, and the institution lacked knowledge that the
child was a child with a disability before the behavior
that precipitated the discipline.9 34 C.F.R. § 300.534(d).

9

See also Letter to Nathan, OSEP (available at
https://sites.ed.gov/idea/files/osep-letter-to-nathan-01-29-2019.pdf)
(“While an LEA may choose or find it necessary to expedite

App. 287
To hold that the expedited evaluation requirement is
incorporated into the child find reasonableness
requirement would be to hold that a school district with
previous knowledge of a suspended student’s disability
does not violate the child find requirement by failing to
conduct an expedited evaluation, while a school district
without previous knowledge of the disability would
violate the child find requirement by failing to conduct
an expedited evaluation. This absurd result suggests a
finding that the provisions are separate. DunnMcCampbell Royalty Interest, Inc. v. Nat’l Park Serv.,
630 F.3d 431, 439 (5th Cir. 2011) (“[W]e should avoid
any interpretation that would lead to absurd or
unreasonable outcome[s] . . . .”) (quotation marks
omitted).
In sum, the IDEA’s text and structure, including its
implementing regulations, compel a conclusion that the
child find and expedited evaluation requirements are
separate and independent such that a violation of the
latter does not mean a violation of the former. To the
extent the district court held otherwise, this was
error.10

evaluations in these circumstances, under IDEA expedited
evaluations are only required in situations where the LEA is not
deemed to have knowledge that the child may have a disability
. . . .”).
10

Because O.W. did not assert an independent claim arising from
a failure to perform an expedited evaluation, we need not reach the
School District’s alternate argument that an expedited evaluation
was not required under the IDEA.

App. 288
2. Did a child find violation occur?
A finding of a child find violation turns on three
inquiries: (1) the date the child find requirement
triggered due to notice of a likely disability; (2) the date
the child find duty was ultimately satisfied; and (3) the
reasonableness of the delay between these two dates.
See Krawietz, 900 F.3d at 676.
The School District does not challenge the district
court’s finding that October 8, 2014, represents the
appropriate notice date and we see no error in that
conclusion. See Krawietz, 900 F.3d at 677 (finding
sufficient notice based on “academic decline,
hospitalization, and incidents of theft”). We also agree
with the parties that the January 15, 2015, referral for
evaluation represents the appropriate end date for the
reasonableness inquiry. See Woody, 865 F.3d at 320
(considering time period between notice and referral for
evaluation). The only dispute then is whether the delay
between October 8, 2014, and January 15, 2015 (99
days, or three months and seven days), was
reasonable.11
This court has twice considered the reasonableness
of delay in the child find context. In Woody, this court
considered an 89-day delay between notice and referral

11

Citing Texas’ one-year statute of limitations for IDEA claims,
the School District urges us to look at its actions after October 28,
2014. Because “events preceding [the statute of limitations bar]
may provide evidence of a child-find violation,” we decline to limit
the inquiry in this way. See Mr. P. v. W. Hartford Bd. of Educ., 885
F.3d 735, 750 (2d Cir. 2018) (considering the time frame from the
relevant trigger date, even though it predated the limitations bar).

App. 289
to be reasonable where the local education agency
spent the period “requesting and gathering information
on [the student] in an effort to classify her and
determine its obligations,” and where more than a
month of the period was spent waiting for the parents
of the student to provide specific information. 865 F.3d
at 320. In the end, this court concluded that the “facts
suggest[ed] reasonableness, with neither the District
nor the parent reacting with urgency or with
unreasonable delay.” Id.
In contrast, in Krawietz, this court found a fourmonth delay unreasonable where, during the relevant
time period, the school district “failed to take any
appreciable steps toward complying with its Child Find
obligation.” 900 F.3d at 677. In reaching this
conclusion, this court rejected the school district’s
reliance on the student’s parents’ failure to act with
urgency because “the IDEA imposes the Child Find
obligation upon school districts, not the parents of
disabled students.” Id. This court thus distinguished
the case from the facts of Woody, noting that Woody
involved a delay which “was not solely attributable to
the district and [a] district . . . [which] took proactive
steps throughout [the] period to comply with its Child
Find obligation.” Id.
Taken together, Krawietz and Woody stand for the
proposition that the reasonableness of a delay is not
defined by its length but by the steps taken by the
district during the relevant period. A delay is
reasonable when, throughout the period between notice
and referral, a district takes proactive steps to comply
with its child find duty to identify, locate, and evaluate

App. 290
students with disabilities. Conversely, a time period is
unreasonable when the district fails to take proactive
steps throughout the period or ceases to take such
steps.
The School District argues this case is closer to
Woody than Krawietz because it was entitled to
attempt regular behavioral interventions—a process
known as response to intervention—prior to referral,
and such steps were consistent with its child find
obligations. We disagree.
Under Texas law, “[p]rior to referral [for an
evaluation], students experiencing difficulty in the
general classroom should be considered for . . . response
to evidence-based intervention; and other academic or
behavior support services.” 19 Tex. Admin. Code
§ 89.1011(a). Notwithstanding this provision, response
to intervention strategies “cannot be used to delay or
deny the provision of an [evaluation].” Lisa M. v.
Leander Indep. Sch. Dist., 924 F.3d 205, 209 n.4 (5th
Cir. 2019).
The record in this case reflects that as of the
October 8 notice date, the School District had
attempted to engage with O.W. and his parents for the
purpose of offering positive incentives and that such
attempts had utterly failed to improve O.W.’s behavior.
This failure led the hearing officer to conclude that
“[b]y the October 8, 2014 Section 504 meeting, it was
apparent that general education behavioral
interventions were not working . . . .” We agree with
the hearing officer that by October 8, 2014, the School
District should have known that general behavior
interventions were not working. Accordingly, we

App. 291
conclude the continued use of behavioral interventions
was not a proactive step toward compliance with the
School District’s child find duties and that, therefore,
a child find violation occurred.12
B. FAPE and IEP
“The IDEA requires states and local educational
agencies receiving federal IDEA funds to make a FAPE
available to children with certain disabilities.” Renee
J., as Next Friend of C.J. v. Hous. Indep. Sch. Dist., 913
F.3d 523, 528–29 (5th Cir. 2019) (quotation marks and
alterations omitted). “Schools provide students a FAPE
based on IEPs unique to each child.” Id. at 529. An IEP
is a “written statement prepared at a meeting attended
by a qualified representative of the school district, a
teacher, the child’s parents or guardians, and when
appropriate, the child himself.” Id. (quoting Lance v.
Lewisville Indep. Sch. Dist., 743 F.3d 982, 989 (5th Cir.
2014)). An IEP must be both adequate in design and
properly implemented. See id. (IEP must be adequate);
Hous. Indep. Sch. Dist. v. Bobby R., 200 F.3d 341, 349
(5th Cir. 2000) (failure to implement IEP may result in
violation of IDEA).

12

The School District has suggested that some of the delay may be
attributable to O.W.’s parents’ delay in providing information.
While a proactive step may include waiting for a reasonable time
for a parent to respond to a request for information or approval, see
Woody, 465 F.3d at 320, as explained above, the IDEA imposes the
Child Find obligation upon school districts, not parents. Krawietz,
900 F.3d at 677.

App. 292
The parties do not dispute the IEP developed by the
School District was adequate in design.13 However, the
hearing officer found, and the district court agreed, the
School District failed to implement O.W.’s IEP because
it used time-outs, physical restraints, and police
involvement as forms of discipline, and because it
improperly shortened O.W.’s school day. The School
District challenges each of these conclusions.
1. Use of discipline
Ordinarily, adequacy of an IEP is determined by
consideration of the four “indicators of whether an IEP
is reasonably calculated to provide a meaningful
educational benefit under the IDEA,” which were set
forth in Cypress-Fairbanks Independent School District
v. Michael F. ex rel. Barry F., 118 F.3d 245, 253 (5th
Cir. 1997). However, when a plaintiff brings a claim
based on a failure to implement an IEP, the first factor
(whether the program is individualized) and second
factor (whether the program is administered in the
least restrictive environment) are generally “not at
issue.” Bobby R., 200 F.3d at 348. Rather, a court must
decide whether a FAPE was denied by considering,
under the third factor, whether there was a
“substantial or significant” failure to implement an

13

The district court, in a footnote, noted that the escalating
discipline at Ridgecrest was a result of either a failure to
implement the IEP or an “inappropriate” IEP. However, the
district court’s opinion also noted that neither party was
challenging the adequacy of the IEP itself. Because the opinion
includes no analysis of the relevant factors, it does not appear the
district court intended to hold the IEP was inadequate.

App. 293
IEP;14 and under the fourth factor, whether “there have
been demonstrable academic and non-academic
benefits from the IEP.” Id. at 349
a. Take 5 and Take 10
The district court found the use of Take 5 and Take
10 violated the IEP because under Texas law, “[t]he use
of time-outs must be limited on a student’s IEP if they
are to be used,” and because the procedures were
time-outs as they “were mandatory isolations for O.W.
away from his regular setting and other students.” The
district court also found the use of the take-discipline
inconsistent with the IEP’s general requirement that
staff use a calm interaction area, redirect O.W., and
remind him of his ability to access a cooling off area.
Texas law provides a “[t]ime-out may only be used
in conjunction with an array of positive behavior
intervention strategies and techniques and must be
included in the student’s IEP and/or BIP if it is utilized
on a recurrent basis to increase or decrease a targeted
behavior.” 19 Tex. Admin. Code § 89.1053(g). Thus, an
IEP or BIP which does not authorize the recurrent use
of time-outs effectively prohibits such use. The parties
do not dispute that O.W.’s IEP did not authorize the
use of time-outs,15 or that the take-discipline was
14

Bobby R. defined the inquiry as whether a district “failed to
implement substantial or significant provisions of the IEP.” 200
F.3d at 349. However, the panel focused the substance of its
inquiry on whether the violation of the IEP (rather than the
provision) was de minimis. Id. at 348.
15

The School District does not argue the IEP’s authorization to
“[d]irect [O.W.] to the cool-down area” amounted to an

App. 294
utilized on a recurrent basis to increase or decrease a
targeted behavior. However, the School District
contends the Take 5 and Take 10 disciplines were not
time-outs under Texas law because the desk was in
O.W.’s classroom and was not separated from other
students and because O.W. was given an opportunity to
pursue preferred activities during the discipline.
The Texas code defines a time-out as “a behavior
management technique in which . . . the student is
separated from other students for a limited period in a
setting: (A) that is not locked; and (B) from which the
exit is not physically blocked by furniture, a closed door
held shut from the outside, or another inanimate
object.” Id. § 89.1053(b)(3). While the School District is
correct the desk was in O.W.’s classroom and that O.W.
was allowed to partake in preferred activities, nothing
in the administrative definition of “time out” suggests
the definition is limited to placement in a separate
room or is inapplicable when the student is allowed
certain activities. Section 89.1053(b) only requires a
“separat[ion] from other students for a limited period
. . . .” Although the parties cite no specific evidence as
to the location of the desk, references by school
employees to the procedure as an “isolation” or “timeout,” while not dispositive, support the district court’s
finding that the desk was separated from other
students. Thus, we conclude the district court did not
err in finding the take-disciplines to be timeouts.

authorization to use time-outs under Texas law. We deem this
argument forfeited. See United States v. Zuniga, 860 F.3d 276, 284
n.9 (5th Cir. 2017) (“[A]ny issue not raised in an . . . opening brief
is forfeited.”).

App. 295
Because O.W.’s IEP prohibited time-outs, the recurrent
use of the take-discipline amounted to a substantial or
significant departure from the IEP.
Regarding the fourth factor, the district court found
the failure to implement the IEP “denied O.W. the
educational benefits sought under the IEP, and that
such failure denied O.W. a FAPE.” We agree.
It is undisputed that after the IEP was
implemented, O.W.’s grades dropped16 and his behavior
deteriorated to the point where school officials
determined his school day should be shortened to three
hours. This regression shows neither an educational
nor a behavioral benefit. See generally Hous. Indep.
Sch. Dist. v. V.P. ex rel. Juan P., 582 F.3d 576, 583 (5th
Cir. 2009) (“[A]n IEP must be likely to produce
progress, not regression . . . .”) (emphasis added).
In sum, the use of the take-discipline was a
significant or substantial departure from O.W.’s IEP.
During the time period this departure occurred, O.W.
regressed both educationally and behaviorally. Under
these circumstances, we conclude the district court did
not err in finding an actionable failure to implement
O.W.’s IEP as to take discipline.

16

In arguing O.W.’s grades improved under the IEP, the School
District compares O.W.’s scores from the first term (when he
started at Nottingham) to his fourth term (when he was mostly at
Ridgecrest). When compared in this fashion, the School District is
correct that all but one of O.W.’s grades improved. However, when
compared to the third term, which ended approximately two weeks
before O.W. began at Ridgecrest, the grades dropped in most
subjects.

App. 296
b. Physical restraints
The district court and the hearing officer found the
use of physical restraints violated the IEP’s framework
for behavioral interventions, which required that staff
use a calm style, minimize verbal interactions, avoid
power struggles, and provide access to a cooling off
period. The School District argues it was entitled under
Texas law to use physical restraints and it was not
required to include such use in the IEP.
There is no question the use of physical restraints
is neither positive reinforcement nor consistent with
avoiding confrontations or power struggles. However,
Texas law expressly authorizes a local education
agency (LEA) to use physical restraints in an
“Emergency” situation, which is defined as a “situation
in which a student’s behavior poses a threat of . . .
imminent, serious physical harm to the student or
others; or . . . imminent, serious property destruction.”
19 Tex. Admin. Code § 89.1053(b), (c). Unlike the use of
time-outs, the law contains no provision requiring that
the use of physical restraints be expressly authorized
by a student’s IEP.
O.W.’s IEP listed positive reinforcement and
avoidance of power struggles as two of seven “Specific
strategies/supports to prevent or decrease . . . problem
behavior.” In addition, the IEP listed five
“Strategies/interventions to use when [physical
aggression] behavior is occurring:” (1) “Us[ing] a calm
interaction style and minimize[ing] verbal
interactions;” (2) “Remind[ing O.W.] to use taught
coping strategies;” (3) “Direct[ing O.W.] to the cooldown area;” (4) “Provid[ing] more physical space;” and

App. 297
(5) “Remov[ing] extraneous objects so [O.W.] is not
tempted to throw them.” Nothing in the IEP suggests
the LEA was required to follow every strategy in every
instance. More important, nothing in the listed
strategies suggests the techniques were intended to
apply in the specific situation governed by the
emergency restraint provision—when there is an
imminent threat of serious harm. Therefore, so long as
the School District’s use of physical restraints complied
with state law, the use of restraints did not violate the
IEP.
O.W.’s disciplinary records show that he was
physically restrained eight times and that each
instance of restraint was preceded by violent behavior
by O.W. and attempts by district staff to utilize at least
some of the strategies enumerated in the IEP. In each
instance, the school determined the restraint was
necessary to prevent serious physical harm to O.W. or
to another. O.W. does not dispute the uses of restraints
were necessary to prevent harm and were thus
appropriate under Texas law. Accordingly, the district
court erred in concluding these eight instances of
physical restraints violated O.W.’s IEP.
c. Police intervention
As with the physical restraints, the district court
and the hearing officer determined the request for
police intervention violated the IEP, and thus denied
O.W. a FAPE, because calls to police were inconsistent
with the IEP’s expressly authorized strategies of using
a calm interaction style, minimizing verbal
interactions, providing access to a cooling off period,
and avoiding power struggles. We disagree.

App. 298
As mentioned above, the IEP listed specific
strategies to be used to address O.W.’s aggressive
behavior. These strategies are not necessarily violated
by a mere request for police presence, particularly to
deal with a violent and escalating situation such as a
student repeatedly striking a teacher and charging at
her, as was the case here. O.W. interacted with police
officers on one occasion, and only after school officials
provided him an opportunity to cool down, offered
verbal redirections, provided praise, attempted to
reduce verbal interactions, and applied calming
techniques. Once the officers arrived, the interaction
was limited to a handful of questions which may best
be characterized as implicit threats of arrest if O.W.
continued to assault his teachers. There is no
indication Ridgecrest staff directed or encouraged the
police officers to act in a manner inconsistent with the
IEP. Because the School District took steps to avoid
police interaction and O.W.’s behavior posed a
substantial risk of serious injury to himself and others,
we do not believe the calls to police were inconsistent
with O.W.’s IEP. Accordingly, the single instance of
police involvement did not rise to the level of an
actionable violation.
2. Modification of IEP
Under Texas law, “[s]tudents with disabilities must
have available an instructional day commensurate with
that of students without disabilities. The ARD
committee must determine the appropriate
instructional setting and length of day for each
student, and these must be specified in the student’s
IEP.” 19 Tex. Admin. Code § 89.1075(e). Both the

App. 299
district court and the hearing officer determined that
the shortening of O.W.’s school day violated O.W.’s IEP
(and thus the IDEA) because the shortened school day
was not provided for in O.W.’s IEP. The School District
submits the IEP was modified by Ms. W and school
officials.
“In making changes to a child’s IEP after the annual
IEP Team meeting for a school year, the parent of a
child with a disability and the public agency may agree
not to convene an IEP Team meeting for the purposes
of making those changes, and instead may develop a
written document to amend or modify the child’s
current IEP.” 34 C.F.R. § 300.324(a)(4)(i). Unless the
IEP is modified by agreement in accordance with
paragraph (a)(4), it may be modified only “by the entire
IEP Team at an IEP Team meeting.” Id.
§ 300.324(a)(6).
By its terms, § 300.324(a)(4) provides an agreement
may be modified without a meeting when the parent
and LEA (1) agree as to the modification; (2) agree not
to convene an IEP meeting; and (3) develop a written
document to amend or modify the IEP. While the
district court and hearing officer focused on the general
fact that the IEP was modified to shorten O.W.’s school
day, there were two modifications—the initial
modification from a 7:30 a.m. start time to a 9:00 a.m.
start time, and the subsequent modification to a threehour school day.
The initial modification, which included a formal
written document prepared by Ms. W. and the LEA
that set forth the modification and did not contemplate
further IEP team action, satisfies § 300.324(a)(4)’s

App. 300
three requirements. However, the subsequent
modification, which did not include a formal written
document produced by the parent and the LEA, and
which internal documents reflect presupposed a
subsequent ARD meeting,17 did not meet the
regulation’s requirements. It follows, therefore, that
only the initial modification was effective and that the
subsequent shortening of O.W.’s school day violated the
IEP. This modification, which approximately halved
O.W.’s school day, was a substantial and significant
deviation from the IEP which indisputably resulted in
a loss of academic benefits. Thus, the district court
correctly concluded the May 18, 2015, modification rose
to the level of an actionable violation. The district
court, however, erred in finding the May 6, 2015,
modification represented an actionable failure to
implement O.W.’s IEP.

17

The only written document cited by the School District is an
internal e-mail between staff members stating that Ms. W. had
agreed to the reduction, which reads:
Kristin and I had a long conversation with the 5th grader’s
mother. In order to “survive” the last 11 days of school,
let’s shorten his day from 9 to noon. Ana, this means a
brief ARD; know that he will begin this schedule
tomorrow. She said she could stay after she drops him off.
We will hold an ARD at SFMS before school starts to get
him back full day; just FYI. Let us know how you want to
handle the brief ARD as in who needs to be there, etc. I
will be out to speak to the teacher and para [sic] about
some ideas. She said today went well . . . .

App. 301
IV. REMEDIES
The “IDEA authorizes reimbursement for the cost of
private special-education services when a school
district fails to provide a FAPE and the private-school
placement is appropriate, regardless of whether the
child previously received special education or related
services through the public school.” Woody, 865 F.3d at
314–15. If these requirements are satisfied, the court
“must consider all relevant factors, including the notice
provided by the parents and the school district’s
opportunities for evaluating the child, in determining
whether reimbursement for some or all of the cost of
the child’s private education is warranted.” Id. at 315.
However, to the extent this form of reimbursement is
dependent on the failure to provide a FAPE, it may not
extend to periods when no FAPE violation occurred.
See generally id. at 318 (“[N]o case shown to us has
permitted reimbursement for the time period before a
school district’s obligations under the Act arose.”). Put
differently, “the right to private school reimbursement,
once adjudicated, does not go on indefinitely, but only
while the school district is noncompliant (or
acknowledges its inability to comply) with its obligation
to provide a ‘free appropriate public education.’” Casey
K. ex rel. Norman K. v. St. Anne Cmty. High Sch. Dist.
No. 302, 400 F.3d 508, 516 n.1 (7th Cir. 2005).
In contrast, compensatory awards, which may
include tuition reimbursement, are designed to provide
“services prospectively to compensate for a past
deficient program.” Draper v. Atlanta Indep. Sch. Sys.,
518 F.3d 1275, 1280 (11th Cir. 2008). Such awards
“should place children in the position they would have

App. 302
been in but for the violation of the Act.” Id. at 1289
(citing Reid ex rel Reid v. District of Columbia, 401
F.3d 516, 518 (D.C. Cir. 2005)).
The hearing officer awarded the cost of one year of
compensatory education for the 2016–2017 school year
at Fusion because “[i]n the 2014-2015 school year, the
School District did not timely fulfill its Child Find
Obligation and did not fully implement Student’s IEP,
denying Student a FAPE.” The officer also found the
School District should reimburse O.W. for the
2015–2016 school year at Fusion because placement in
the School District was inappropriate and placement at
Fusion was appropriate. The district court affirmed
these decisions.
To the extent the hearing officer and district court
awarded tuition reimbursement for a time period for
which there was no corresponding finding of an IDEA
violation (the 2015–2016 school year), such an award
appears to have been in error. Regardless, because we
have determined some of the district court’s underlying
conclusions were incorrect, we remand the remedy
question to the district court for reconsideration in
light of this opinion. See M.M. v. Lafayette Sch. Dist.,
767 F.3d 842, 862 (9th Cir. 2014) (remanding for
reconsideration of remedies following reversal of
summary judgment finding).
For the reasons above, we AFFIRM in part,
REVERSE in part, and REMAND.

